U.S. SECURITIES AND EXCHANGE COMMISSION
  OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS
   OCTOBER 1, 2009 - MARCH 31, 2010
                           Organizational Chart                                  Office of Inspector General



                                                 Inspector General




                Counsel to the
                                                                           Deputy
              Inspector General
                                                                      Inspector General


               Legal Assistant




2
                                      Assistant Inspector
                                          General for                                     Assistant Inspector
    Assistant to the                                                                      General for Audits
      Inspector
                                        Investigations
       General

                                     Senior               Senior                      Audit              Audit
                                  Investigator         Investigator                  Manager            Manager
    Administrative
       Officer

                                     Senior               Senior                      Audit              Audit
                                  Investigator         Investigator                  Manager            Manager
    Legal Specialist

                                                                                      Audit              Audit
                                            Investigator                             Manager            Assistant
October 1, 2009 - March 31, 2010

                                                                    OFFICE OF
                                                                    INSPECTOR
                                         U.S. Securities
                                         and Exchange
                                                                    GENERAL
                                          Commission
                                                                    SEMIANNUAL
                                                                    REPORT TO
                                                                    CONGRESS
                                    MISSION
                                        The mission of the Ofﬁce of Inspector General (OIG) is to promote the integrity, efﬁciency,
                                    and effectiveness of the critical programs and operations of the United States (U.S.) Securities
                                    and Exchange Commission (SEC). This mission is best achieved by having an effective, vigor-
                                    ous and independent ofﬁce of seasoned and talented professionals who perform the following
                                    functions:  

                                    •     Conducting independent and objec-               •   Offering expert assistance to improve
                                           tive audits, evaluations, investigations,            SEC programs and operations;
                                           and other reviews of SEC programs
                                           and operations;                                 •   Communicating timely and useful
                                                                                                information that facilitates
                                    •     Preventing and detecting fraud, waste,               management decision making and the
                                           abuse, and mismanagement in SEC                      achievement of measurable gains; and
                                           programs and operations;
                                                                                           •   Keeping the Commission and the
                                    •     Identifying vulnerabilities in SEC sys-              Congress fully and currently informed
                                           tems and operations and recommend-                   of signiﬁcant issues and developments.
                                           ing constructive solutions;




                                                                                       3
4
U.S. Securities and Exchange Commission





                                            CONTENTS
                                           MESSAGE FROM THE INSPECTOR GENERAL ............................................................. 1


                                           MANAGEMENT AND ADMINISTRATION ........................................................................ 5

                                                   Agency Overview ................................................................................................................ 5

                                                   OIG Staffing ........................................................................................................................ 5


                                           CONGRESSIONAL AND OTHER RELATED BRIEFINGS AND REQUESTS .................... 9


                                           ADvICE AND ASSISTANCE PROvIDED TO THE AGENCy ......................................... 13

                                                   Employee Recognition Program and Grants of Employee Awards ..................................... 13

                                                   Access Card Readers in Regional Offices ......................................................................... 14

                                                   Regulation on Management and Protection of Privacy Act Records 

                                                    and Other Personally Identifiable Information ................................................................... 14

                                                   Warning Banner for New Employee Financial Reporting System ....................................... 15


                                           AUDITS AND EvALUATIONS ........................................................................................ 17


                                              OvERvIEW ............................................................................................................................ 17

                                                Audits ............................................................................................................................... 17

                                                Evaluations ....................................................................................................................... 18

                                                   Peer Reviews............................................................................................................... 18

                                                     External Peer Review of the SEC OIG’s Audit Operations by 

                                                        the Corporation for Public Broadcasting OIG ......................................................... 18

                                                     Peer Review of National Credit Union Administration’s

                                                        Office of Inspector General .................................................................................... 18


                                              AUDITS AND EvALUATIONS CONDUCTED ......................................................................... 19

                                                Review of the Commission’s Processes for Selecting Investment Advisers

                                                 and Investment Companies for Examination (No. 470) .................................................... 19

SEMIANNUAL REPORT TO CONGRESS
            Assessment of the SEC’s Bounty Program (No. 474) ........................................................ 24

                                          Management and Oversight of Interagency Acquisition Agreements

                                           at the SEC (No. 460)....................................................................................................... 26

                                          Assessment of the SEC Information Technology Investment Process (No. 466)................. 32

                                          Management Alert – Data Security Vulnerabilities (No. 477)............................................... 35

                                          2009 FISMA Executive Summary Report (No. 472) ........................................................... 36

                                          Evaluation of the SEC Privacy Program (No. 475) ............................................................. 37

                                          Evaluation of the SEC Encryption Program (No. 476) ........................................................ 38


                                     PENDING AUDITS AND EvALUATIONS ............................................................................... 40

                                       Review of the SEC’s Section 13(f) Reporting Requirements............................................... 40

                                       Assessment of the SEC Division of Corporation Finance’s Confidential

                                        Treatment Processes and Procedures............................................................................. 41


                                 INvESTIGATIONS .......................................................................................................... 43


                                     OvERvIEW ............................................................................................................................ 43


                                     INvESTIGATIONS AND INQUIRIES CONDUCTED ............................................................... 44

                                        Investigation of the SEC’s Response to Concerns Regarding 

                                          Robert Allen Stanford’s Alleged Ponzi Scheme (Report No. OIG-526) ............................. 44

                                        Allegations of Conflict of Interest, Improper Use of Non-Public

                                          Information and Failure to Take Sufficient Action Against

                                          Fraudulent Company (Report No. OIG-496) .................................................................... 56

                                        Failure to Timely Investigate Allegations of

                                          Financial Fraud (Report No. OIG-505) ............................................................................. 60

                                        Unauthorized Disclosure of Non-Public Information by

                                          Regional Office Attorneys (Report No. OIG-512) ............................................................. 64

                                        Whistleblower Allegations of Fraudulently Obtained Award Fees by

                                          SEC Contractor (Report No. OIG-491) ............................................................................ 67

                                        Inappropriate Conduct by a Current SEC Employee and

                                          Unauthorized Computer Access by a

                                          Former SEC Employee (Report No. OIG-508) ................................................................. 69

                                        Disclosures of Non-Public Procurement Information and

                                          Lack of Candor at Headquarters (Report No. OIG-515)................................................... 70

                                        Misuse of Government Resources and Official Time at

                                          Headquarters (Report No. OIG-517) ............................................................................... 71

                                        Allegations of Conflict of Interest and Investigative Misconduct (Report No. OIG-470) ....... 72

                                        Allegations of Enforcement Failure to Investigate (Report No. OIG-521) ............................ 73

                                        Allegations of Retaliatory Action by Enforcement Staff (Report No. OIG-487) .................... 74

                                        Allegation of Preferential Treatment of a Former SEC Attorney (Report No. OIG-528) ........ 75

                                        Allegations of Improper Staff Conduct During Litigation and

                                          Collection (Report No. OIG-527) .................................................................................... 76

                                        Inquiries Conducted.......................................................................................................... 77

                                             Misuse of Computer Resources (PIs 10-20, 10-21 and 10-22) .................................... 77

                                             Failure to Respond to Complaints Appropriately (PI 09-36) .......................................... 78

                                             Complaint of Improper Use of Appropriated Funds for Employee Awards (PI 09-07) ... 78

                                             Improper Exclusion from Settlement Payment (PI 09-68) ............................................. 79

SEMIANNUAL REPORT TO CONGRESS
               Disclosure of Personally Identifiable Information on SEC’s Website (PI 09-49) .............. 79

                                             Improper Handling of Sensitive Personnel Information (PI 09-40) ................................. 80


                                    PENDING INvESTIGATIONS ................................................................................................ 80

                                      Allegation of Enforcement Conflict of Interest .................................................................... 80

                                      Allegation of Procurement Violations ................................................................................. 81

                                      Complaint of Investigative Misconduct by Various Enforcement Attorneys......................... 81

                                      Allegation of Negligence in the Conduct of an Enforcement Investigation .......................... 81

                                      Complaint of Misuse of Leave Without Pay by OCIE Managers ......................................... 82

                                      Allegation of Failure to Maintain Active Bar Membership.................................................... 82

                                      Allegation of Failure to Conduct an Adequate Investigation by Regional Office .................. 82

                                      Complaint of Unprofessional Conduct on Examination and Harassment ........................... 83

                                      Complaint Concerning Obstruction of Justice ................................................................... 83

                                      Complaint of Failure to Conduct Adequate Enforcement Investigation............................... 83

                                      Complaint of Unauthorized Disclosure of Non-Public Information ...................................... 83


                                 REvIEW OF LEGISLATION AND REGULATIONS.......................................................... 85


                                 STATUS OF RECOMMENDATIONS WITH NO MANAGEMENT DECISIONS................ 87


                                 REvISED MANAGEMENT DECISIONS ......................................................................... 87


                                 AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS ................................. 87


                                 INSTANCES WHERE INFORMATION WAS REFUSED.................................................. 87


                                 TABLES:

                                      1 List of Reports: Audits and Evaluations .......................................................................... 89

                                      2 Reports Issued With Costs Questioned or Funds Put to 

                                        Better Use (Including Disallowed Costs) ......................................................................... 91

                                      3 Reports With Recommendations on Which 

                                        Corrective Action Has Not Been Completed................................................................... 93

                                      4 Summary of Investigative Activity.................................................................................. 107

                                      5 Summary of Complaint Activitiy .................................................................................... 109

                                      6 References to Reporting Requirements of the Inspector General Act............................ 111

8
                                                       Message from the
SEMIANNUAL REPORT TO CONGRESS

                                                       Inspector General
                                                      I am pleased to present this Semiannual Report to Congress on the activities
                                                      and accomplishments of the United States Securities and Exchange Commis-
                                                      sion (SEC) Ofﬁce of Inspector General (OIG) for the period of October 1,
                                                      2009 through March 31, 2010. This report is required by the Inspector Gen-
                                                      eral Act of 1978, as amended, and covers the work performed by the OIG
                                during the period indicated.

                                    The audits, evaluations and investigations described in this report illustrate the commitment of
                                the SEC OIG to promote efﬁciency and effectiveness within the SEC, as well as the tremendous im-
                                pact that the SEC OIG has had on SEC programs and operations.

                                    During this reporting period, we issued several signiﬁcant audit and evaluation reports on mat-
                                ters critical to the SEC’s programs and operations. We conducted a review of the SEC Ofﬁce of
                                Compliance Inspections and Examinations’ (OCIE’s) process for selecting investment advisers and
                                investment companies for examination. This review arose out of our ﬁndings in the investigative re-
                                port ﬁnalized during the preceding semiannual reporting period entitled, Investigation of Failure of the
                                SEC to Uncover Bernard Madoff ’s Ponzi Scheme. This investigation found that the SEC received more
                                than ample information in the form of detailed and substantive complaints over a period of many
                                years to warrant a thorough and comprehensive examination and/or investigation of Bernard
                                Madoff (Madoff) for operating a Ponzi scheme. However, despite three examinations and two
                                investigations of Madoff and his ﬁrm, a thorough and competent investigation or examination was
                                not performed, and the SEC never identiﬁed the Ponzi scheme that Madoff operated. We further
                                found that although Madoff ’s ﬁrm was required to register with the Commission as an investment
                                adviser in 2006 as a resolution of an SEC enforcement action, in order that Madoff and his ﬁrm
                                would be exposed to “extra regulatory scrutiny,” OCIE never initiated an examination of Madoff ’s
                                ﬁrm.

                                    Accordingly, we conducted a review to determine OCIE’s rationale for not performing this ex-
                                amination of Madoff ’s investment advisory business and to make recommendations to improve
                                OCIE’s process for selecting investment advisers and investment companies for examination. The
                                review found that OCIE assigned Madoff ’s investment advisory business a rating of “medium risk,”
                                based on answers to questions provided on the forms he ﬁled with the SEC. We found this rating to
                                be problematic because Madoff was examined and investigated by OCIE and the Division of
                                Enforcement (Enforcement) repeatedly and found to be operating as an unregistered investment ad-
                                viser, and OCIE and Enforcement also found that Madoff lied about his advisory role. We further
                                found that failures on the part of Enforcement and OCIE’s broker-dealer examination unit to com-
                                municate with OCIE’s investment adviser unit led to OCIE’s failure to conduct an examination of
                                Madoff ’s advisory business. Our report provided 11 concrete and speciﬁc recommendations de-
                                signed to improve OCIE’s process for selecting investment advisers for examination.



                                                                                  1

SEMIANNUAL REPORT TO CONGRESS

                                      We also conducted an assessment of the SEC’s program for awarding bounties to persons
                                 who provide information on insider trading violations. Our assessment found that although the
                                 SEC has had a bounty program in place for more than 20 years for rewarding whistleblowers
                                 who provide insider trading tips and complaints that lead to a successful enforcement action,
                                 there have been very few payments made under this program. We also found that the SEC
                                 bounty program is not widely recognized inside or outside the Commission. Additionally, while
                                 the Commission recently asked for expanded authority from Congress to reward whistleblowers
                                 who bring forward substantial evidence about signiﬁcant federal securities law violations other
                                 than insider trading violations, we found that the current SEC bounty program is not fundamen-
                                 tally well-designed to be successful. Our report included nine recommendations designed to en-
                                 sure the Commission has a fully-functioning and effective bounty/whistleblower program as the
                                 Commission’s authority to award bounties is potentially expanded.

                                     In addition, we conducted audits of the Commission’s management of interagency acquisi-
                                 tion agreements (IAAs) and identiﬁed 23 IAAs, totaling approximately $6.9 million, for which the
                                 period of performance had expired but the IAAs were not closed out and the remaining funds
                                 had not been deobligated. We also issued four audit or evaluation reports relating to information
                                 technology (IT) at the SEC, including an audit of the process and structure for the approval and
                                 oversight of IT investment projects and three reports prepared pursuant to the Federal
                                 Information Security Management Act of 2002.

                                      On the investigative side, we completed 13 investigative reports on a myriad of complex and
                                 critical issues. We concluded a nearly six-month investigation of the SEC’s investigations and
                                 examinations regarding accused Ponzi scheme operator Robert Allen Stanford in an effort to de-
                                 termine whether the SEC was aware of Stanford’s alleged Ponzi scheme prior to 2006. In this
                                 investigation, we conducted 51 testimonies and interviews of 48 individuals with knowledge of
                                 facts or circumstances surrounding the SEC’s examinations and/or investigations of Stanford and
                                 his companies and searched approximately 2.7 million e-mails. On March 31, 2010, we issued
                                 an investigative report that found that the SEC’s Fort Worth ofﬁce was aware since 1997 that
                                 Stanford was likely operating a Ponzi scheme. We found that over the next eight years, the SEC’s
                                 Fort Worth Examination group conducted four examinations of Stanford’s operations, ﬁnding in
                                 each examination that the certiﬁcates of deposit issued by the Antiguan-based Stanford Interna-
                                 tional Bank could not have been “legitimate,” and that it was “highly unlikely” that the returns
                                 Stanford claimed to generate could have been achieved with the purported conservative invest-
                                 ment approach. Moreover, we found that while the Fort Worth Examination group made multi-
                                 ple efforts after each examination to convince the Fort Worth Enforcement group to open and
                                 conduct an investigation of Stanford, no meaningful effort was made by the Fort Worth
                                 Enforcement group to begin to investigate the potential fraud until late 2005.

                                     We also conducted a comprehensive investigation of allegations that a large and well-
                                 connected company used its inﬂuence with the SEC to punish a rival who had made negative
                                 statements about the company in a speech. In this investigation, we found that serious and credi-
                                 ble allegations against this company were not initially investigated, and instead the company was


                                                                             2

SEMIANNUAL REPORT TO CONGRESS
   able to successfully lobby the SEC to look into allegations against its rival without any speciﬁc
                                 evidence of wrongdoing on his part.

                                     We also concluded investigations regarding the SEC’s failure to timely investigate very serious
                                 allegations of ﬁnancial fraud, the unauthorized disclosure of non-public information obtained
                                 from a Commission database, whistleblower allegations that an SEC contractor fraudulently ob-
                                 tained award fees, abusive behavior on the part of a current SEC employee, and misuse of gov-
                                 ernment resources, among others.

                                     I am very proud of the accomplishments of this Ofﬁce during the past six months that have
                                 been achieved with a very small staff. Particularly, during these turbulent ﬁnancial times, I be-
                                 lieve that the work of the Ofﬁce has been critical in providing the Commission, the United States
                                 Congress, and the public with valuable information about the regulation of the ﬁnancial mar-
                                 kets, and we intend to continue this important work in the future.




                                    	           	       	       	       	        	
                                    	           	       	       	       	        	     	       H. David Kotz
                                    	           	       	       	       	        	     	       Inspector General

                                    	

                                    	           	       	       	       	        	     	




                                                                            3

4
U.S. Securities and Exchange Commission


                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General



                                           MANAGEMENT AND
                                           ADMINISTRATION
                                           AGENCY OVERVIEW                                          exchanges and self-regulatory organizations,
                                                                                                    transfer agents, the Municipal Securities
                                                The United States Securities and                    Rulemaking Board, the Public Company Ac-
                                           Exchange Commission’s (SEC’s) mission is to              counting Oversight Board, alternate trading
                                           protect investors; maintain fair, orderly, and           systems, and credit rating agencies.
                                           efﬁcient markets; and facilitate capital forma-
                                           tion. The SEC strives to promote a market                    In order to accomplish its mission most
                                           environment that is worthy of the public’s trust         effectively and efﬁciently, the SEC is organized
                                           and characterized by transparency and integ-             into ﬁve main divisions (Corporation Finance;
                                           rity. The SEC’s core values consist of integrity,        Enforcement; Investment Management; Trad-
                                           accountability, effectiveness, teamwork, fair-           ing and Markets; and Risk, Strategy, and Fi-
                                           ness and commitment to excellence. The                   nancial Innovation), and 16 functional ofﬁces.
                                           SEC’s goals are to foster and enforce                    The Commission’s Headquarters is located in
                                           compliance with the federal securities laws;             Washington, D.C., and there are 11 Regional
                                           establish an effective regulatory environment;           Ofﬁces located throughout the country. As of
                                           facilitate access to the information investors           September 30, 2009, the SEC had 3,642 full-
                                           need to make informed investment decisions;              time equivalents (FTEs), consisting of 3,584
                                           and enhance the Commission’s performance                 permanent and 58 temporary FTEs.
                                           through effective alignment and management
                                           of human resources, information and ﬁnancial
                                           capital.                                                 OIG STAFFING

                                               SEC staff monitor and regulate a securities               During the reporting period, the OIG
                                                                                                    added several new auditors, investigators, and
                                           industry that includes more than 35,000 regis-
                                                                                                    administrative staff, thereby further increasing
                                           trants, including about 12,000 public compa-             its capacity to conduct its oversight responsi-
                                           nies, more than 11,000 investment advisers,              bilities.
                                           about 8,000 mutual funds, and about 5,500
                                           broker-dealers, as well as national securities

                                                                                               5

SEMIANNUAL REPORT TO CONGRESS
       In October 2009, Craig Welter joined the           various accounting boards and standards, in-
                                 OIG as a Senior Investigator. Prior to joining         cluding the Financial Accounting Standards
                                 the OIG, Mr. Welter was Senior Counsel in the          Board, the Governmental Accounting Stan-
                                 SEC’s Division of Enforcement, where he inves-         dards Board, Generally Accepted Accounting
                                 tigated potential violations of the federal            Principles, and Statutory Accounting
                                 securities laws for nine years. During this time,      Principles.  She also managed various audits for
                                 Mr. Welter also served on detail from the SEC          a number of entities, including healthcare sys-
                                 as a Special Assistant United States Attorney for      tems, charitable organizations, healthcare in-
                                 the United States Attorney’s Ofﬁce for the East-       surance companies, a trade association, and a
                                 ern District of Virginia. Before joining the           university. Ms. Marlowe is a graduate of the
                                 SEC, Mr. Welter worked as an attorney in the           College of Notre Dame of Maryland, where
                                 United States Ofﬁce of Special Counsel’s               she received her Bachelor of Arts degree magna
                                 Prosecution Division, where he investigated al-        cum laude in Accounting and Finance with a mi-
                                 legations of fraud, gross mismanagement, and           nor in Mathematics. She is a CPA in the Dis-
                                 violations of federal law by federal agencies and      trict of Columbia, Maryland and Virginia, and
                                 employees. Mr. Welter is a 1994 graduate of            a member of the AICPA and the Maryland As-
                                 Duke University, where he received a Bachelor          sociation of Certiﬁed Public Accountants.
                                 of Arts degree cum laude in Economics. He re-
                                 ceived his Juris Doctor degree from the William             The OIG also created new contract posi-
                                 & Mary Law School in 1997.                             tions of legal specialist to assist the investigative
                                                                                        function and audit assistant to assist our audit
                                     In January 2010, Anthony Barnes joined the         function. In January 2010, Cheryl Amitay
                                 OIG as an Audit Manager. Mr. Barnes comes              joined the OIG as the legal specialist. Ms. Ami-
                                 to us from PricewaterhouseCoopers LLP, where           tay comes to us from the private sector, having
                                 he served as a Senior Associate in the Assurance       served as Assistant Vice President and Counsel
                                 practice, primarily performing ﬁnancial                at First American Corporation for over a dec-
                                 statement and internal control audits. Mr. Bar-        ade, where she managed large scale commercial
                                 nes joined PricewaterhouseCoopers LLP in               transactions and advised corporate clients and
                                 2004 and worked in the Financial Services -            ﬁnancial institutions. Prior to this, she served as
                                 Banking and Capital Markets practice. Mr.              Special Counsel for Legislative and Public Af-
                                 Barnes is a graduate of the University of Ala-         fairs for a criminal law association. Ms. Amitay
                                 bama at Birmingham, where he received both             is a 1989 graduate of Brown University, where
                                 his Bachelor and Masters in Accounting. Mr.            she received her Bachelor of Arts degree with
                                 Barnes is a Certiﬁed Public Accountant (CPA)           dual majors in political science and cultural an-
                                 and member of the American Institute of Cer-           thropology. Ms. Amitay received her Juris Doc-
                                 tiﬁed Public Accountants (AICPA).                      tor degree from the University of Maryland in
                                                                                        1997, where she earned Corpus Juris Secundum
                                     In March 2010, Julie Marlowe joined the            and legal writing awards.
                                 OIG as an Audit Manager. Ms. Marlowe
                                 comes to us from KPMG, LLP, where she spent                 In February 2010, Brenda Eberle joined the
                                 seven and a half years managing ﬁnancial               OIG as an audit assistant. Before joining the
                                 statement audits, statutory audits, Ofﬁce of           OIG staff, Ms. Eberle worked as a full charge
                                 Management and Budget (OMB) Circular A-                bookkeeper while attending college. She is cur-
                                 133 audits, and beneﬁt plan audits of various          rently pursuing her Bachelors of Science degree
                                 healthcare and not-for-proﬁt entities. While at        in accounting with Colorado Technical Univer-
                                 KPMG, LLP, Ms. Marlowe provided guidance               sity online. 
                                 and technical updates to her clients regarding




                                                                                   6

SEMIANNUAL REPORT TO CONGRESS
       The OIG also obtained the services of two         vestors and securities industry professionals
                                 investigators on detail to assist with the increas-   worldwide and analyzed incoming tips for po-
                                 ing number of complaints it has been receiving.       tential referral to other SEC divisions and of-
                                 In November 2009, Bonnie C. Dailey joined the         ﬁces. Ms. Gardner began her legal career at the
                                 OIG on detail from the Ofﬁce of Investor Edu-         SEC in 1996, in the Division of Enforcement,
                                 cation and Advocacy (OIEA). In OIEA, Ms.              where she investigated allegations of market
                                 Dailey served as Senior Counsel, where she            manipulation, insider trading, ﬁnancial fraud,
                                 provided assistance and guidance to investors         and securities offering fraud. Ms. Gardner is a
                                 and securities professionals regarding federal        1991 graduate of Wittenberg University, where
                                 securities law issues. Ms. Dailey joined the SEC      she received a Bachelor of Arts degree in Politi-
                                 in 2000 as a Branch Chief in the Ofﬁce of             cal Science. Ms. Gardner received her Juris
                                 Compliance Inspections and Examinations               Doctor degree cum laude from Marquette Uni-
                                 (OCIE). Prior to joining the SEC, Ms. Dailey          versity in 1996.
                                 was a securities regulatory attorney with Ed-
                                 wards & Angell, LLP, where she represented                In addition, Heidi L. Steiber, who had
                                 broker-dealers, investment advisers, investment       worked for the OIG in the previous semiannual
                                 companies, banks and insurance companies in           reporting period on detail from the Ofﬁce of
                                 securities regulatory matters. Ms. Dailey re-         General Counsel (OGC) to assist in the OIG’s
                                 ceived her Bachelor of Arts degree from the           investigation of Bernard L. Madoff ’s Ponzi
                                 University of Michigan and her Juris Doctor           scheme, ofﬁcially joined the OIG as a Senior
                                 degree from Loyola University of Los Angeles          Investigator in October 2009. In the OGC, Ms.
                                 Law School. Ms. Dailey has over 30 years of           Steiber served as Senior Counsel in the Legal
                                 securities industry experience, beginning as a        Policy Group and, prior to that, as a litigation
                                 registered representative with Merrill Lynch in       associate in the securities enforcement group of
                                 1976.                                                 the law ﬁrm of Mayer Brown LLP. She re-
                                                                                       ceived a Bachelor of Arts degree from Boston
                                     In March 2010, Juliet D. Gardner joined the       University in 1995, a Masters degree from Har-
                                 OIG on detail from OIEA as well. Ms. Gard-            vard University in 1997, and her Juris Doctor
                                 ner served as Senior Counsel in the Investor          degree from Cornell Law School in 2002.
                                 Assistance Group of OIEA, where she re-
                                 sponded to a broad range of contacts from in-




                                                                                  7

8
U.S. Securities and Exchange Commission

                                                                        SEMIANNUAL
                                                                        REPORT TO
                                                                        CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           CONGRESSIONAL AND OTHER
                                           RELATED BRIEFINGS AND REQUESTS
                                               During the reporting period, the OIG               Speciﬁcally, on October 29, 2009, the
                                           continued to keep the Congress fully and          Inspector General provided a letter to the
                                           currently informed of the OIG’s                   Honorable Christopher J. Dodd (D-
                                           investigations, audits and other activities, as   Connecticut), Chairman of the U.S. Senate
                                           well as suggestions for legislative improve-      Committee on Banking, Housing and Ur-
                                           ments, through numerous written and tele-         ban Affairs, in which the Inspector General
                                           phonic communications. As discussed in the        set forth several recommendations that
                                           Review of Legislation and Regulations sec-        would require action by Congress. This let-
                                           tion of this report, the OIG provided com-        ter was provided to follow up on a request
                                           ments to Congressional Committees on spe-         made by Senator Dodd during the Inspector
                                           ciﬁc legislative provisions that would impact     General’s testimony at a September 10,
                                           the SEC and the SEC OIG, along with               2009 hearing entitled, “Oversight of the
                                           other Inspectors General. The OIG also            Securities and Exchange Commission’s
                                           communicated with individual members of           Failure to Identify the Bernard L. Madoff
                                           Congress and their staff to apprise them of       Ponzi Scheme and How to Improve SEC
                                           the status of investigations or inquiries that    Performance.” In his letter, the Inspector
                                           were of interest to these members’ constitu-      General made the following speciﬁc rec-
                                           ents. Further, the SEC Inspector General          ommendations:
                                           also met with other commissions and agen-
                                           cies, including the Financial Crisis Inquiry      (1)		 Extend the regulatory jurisdiction of
                                           Commission and the Government Account-                  the Public Company Accounting
                                           ability Ofﬁce.                                          Oversight Board to audit reports
                                                                                                   prepared by a domestic registered
                                                                                                   or public accounting ﬁrm regarding




                                                                                        9

SEMIANNUAL REPORT TO CONGRESS
       issuers, broker-dealers, investment ad-              ery Act of 2009, and was established to examine
                                     visers and any companies subject to U.S.             the causes, both domestic and global, of the
                                     securities laws, to allow for increased              current ﬁnancial and economic crisis in the
                                     oversight of these accounting ﬁrms and               United States. Attending the brieﬁng on behalf
                                     reduce the risks associated with un-                 of the FCIC were Thomas Greene, Executive
                                     known accounting ﬁrms.
                                                                                          Director; Thomas Krebs, Assistant Director and
                                                                                          Deputy General Counsel; Bradley Bondi, Assis-
                                 (2)	 Amend the Investment Adviser Acts of
                                       1940, 15 U.S.C. § 80b-1, et seq., to re-           tant Director and Deputy General Counsel;
                                       quire the use of independent custodians            Martin Biegelman, Assistant Director; Thomas
                                       in a manner similar to the requirement             Borgers, Senior Investigator; and Scott Ganz,
                                       found in Section 17(f) of the Investment           Special Assistant to the Vice Chairman. During
                                       Company Act of 1940, 15 U.S.C. § 80a-              this brieﬁng, the FCIC staff sought information
                                       17(f), to close an existing loophole that          from the Inspector General and OIG expert for
                                       results in the exclusion of hedge funds            use in their broad analysis of the causes of the
                                       from the requirement to use independ-              ﬁnancial crisis.
                                       ent custodians.
                                                                                               The focus of the Inspector General’s brief-
                                 (3)		 Impose a requirement of certiﬁcation
                                       by senior ofﬁcers of registered invest-            ing of the FCIC staff concerned the OIG’s
                                       ment advisers that they have conducted             audit report entitled, SEC’s Oversight of Bear
                                       adequate due diligence in connection               Stearns and Related Entitles: The Consolidated Super-
                                       with investments, and apply this certiﬁ-           vised Entity (CSE) Program, issued on September
                                       cation requirement to all funds of hedge           25, 2008. The speciﬁc topics addressed in-
                                       funds.                                             cluded: (1) additional information about the
                                                                                          ﬁndings and recommendations contained in the
                                 (4)	 Amend the Securities Exchange Act of               OIG’s audit report; (2) how the SEC oversaw
                                       1934, 15 U.S.C. § 78a, et seq., to author-
                                                                                          the CSE program; (3) the awareness on the part
                                       ize the SEC to award a bounty for
                                                                                          of the SEC of risk management and other con-
                                       information leading to the recovery of a
                                       civil penalty from any violator of the             cerns at Bear Stearns prior to its collapse in
                                       federal securities laws, not simply in-            March 2008; (4) the relationship between SEC
                                       sider trading violators.                           ofﬁcials and Bear Stearns executives; (5) the
                                                                                          SEC’s oversight of CSEs other than Bear
                                 The full text of the Inspector General’s letter is       Stearns; (6) the authority of the SEC with re-
                                 available on the OIG’s website at                        spect to the voluntary nature of the CSE pro-
                                 http://www.sec-oig.gov/Reports/Other/Kotz_               gram; and (7) lessons learned from the collapse
                                 LegislativeRecommendationsforBankingCommi                of Bear Stearns.
                                 ttee.PDF.
                                                                                              On March 8, 2010, the SEC Inspector Gen-
                                     On December 17, 2009, the Inspector Gen-             eral participated in a half-day meeting between
                                 eral and an OIG expert consultant, Professor             the Government Accountability Ofﬁce (GAO)
                                 Albert S. (Pete) Kyle, Ph.D., provided an exten-         and the Council of the Inspectors General for
                                 sive several-hour brieﬁng to the newly-created           Integrity and Efﬁciency (CIGIE). The purpose
                                 Financial Crisis Inquiry Commission (FCIC).              of the meeting was to coordinate various ongo-
                                 The FCIC was created pursuant to Public Law              ing activities of the GAO and the CIGIE. Spe-
                                 No. 111-21, the Fraud Enforcement and Recov-             ciﬁc topics discussed included, among others:


                                                                                    10

SEMIANNUAL REPORT TO CONGRESS
   GAO’s list of high-risk areas as of March 2010,     Public Law No. 111-139, the Statutory Pay-As-
                                 including modernizing the outdated U.S. ﬁnan-       You-Go Act of 2010; updates on GAO’s strate-
                                 cial regulatory system; cross-cutting CIGIE re-     gic plan and CIGIE activities; and ways to en-
                                 views and projects; GAO’s mandate to eliminate      hance GAO/Inspector General relationships.
                                 duplicative and wasteful spending pursuant to




                                                                               11

12
U.S. Securities and Exchange Commission

                                                                      SEMIANNUAL
                                                                      REPORT TO
                                                 Ofﬁce of
                                                Inspector
                                                 General
                                                                      CONGRESS

                                           ADVICE AND ASSISTANCE PROVIDED
                                           TO THE AGENCY
                                               During this semiannual reporting period,       the absence of clear criteria to serve as the ba-
                                           the OIG provided advice and assistance to          sis for making such awards could lead to an
                                           SEC management on numerous issues that             appearance of impropriety on the part of the
                                           were brought to the OIG’s attention during         manager making the award and a perception
                                           the course of audits and investigations con-       of unfairness or favoritism on the part of
                                           ducted by the Ofﬁce and otherwise. This ad-        other staff. The OIG’s inquiry also disclosed
                                           vice was conveyed through written communi-         that the SEC’s Executive Director had incor-
                                           cations, as well as in meetings and conversa-      rectly advised the former Regional Ofﬁce Di-
                                           tions with agency ofﬁcials. The advice pro-        rector that appropriated funds could be used
                                           vided included comments on draft policies and      to purchase parking spaces to be given as em-
                                           procedures and suggestions for improvements        ployee awards, although this option was not
                                           in existing policies and procedures.               ultimately pursued.

                                                                                                  The OIG also learned during its inquiry
                                           Employee Recognition Program and                   that the SEC’s internal policies and proce-
                                           Grants of Employee Awards                          dures authorizing the agency’s Employee Rec-
                                                                                              ognition Program (ERP) had not been revised
                                                                                              or updated in more than 15 years, were not
                                               In the course of an inquiry conducted by
                                                                                              posted on the SEC’s Intranet site and were
                                           the OIG (PI 09-07), which is described more
                                                                                              outdated in many respects. The OIG’s in-
                                           fully in the Inquiries Conducted subsection of
                                                                                              quiry also found that the use of the supplies
                                           this semiannual report, the OIG found that         Budget Object Class (BOC) to purchase the
                                           inscribed glass blocks purchased by a former
                                                                                              inscribed glass blocks was not proper, and that
                                           Regional Ofﬁce Director using ofﬁce supply
                                                                                              the SEC’s practice of using more than one
                                           funds, and given as employee awards, were not
                                                                                              BOC for non-monetary employee awards was
                                           issued pursuant to an agency-sponsored
                                                                                              contrary to the Government Accountability
                                           awards program. The OIG determined that

                                                                                            13

SEMIANNUAL REPORT TO CONGRESS
   Ofﬁce’s rules and could lead to confusion and            sought documentation of the managers’ arri-
                                 a lack of transparency.                                  val and departure times. The OIG learned,
                                                                                          however, that this particular Regional Ofﬁce,
                                     In order to address the deﬁciencies identi-          as well as most other SEC Regional Ofﬁces,
                                 ﬁed in its inquiry, the OIG issued an investiga-         did not have systems in place to identify both
                                 tive memorandum to management on March                   entry and exit times of employees. The OIG
                                 10, 2010. Therein, the OIG recommended                   found that only the SEC Headquarters and
                                 that the agency: (1) review and update the               the New York Regional Ofﬁce are equipped
                                 internal policies and procedures for the ERP             with systems that fully capture building entry
                                 and post the revised policies and procedures             and exit times. The OIG determined that the
                                 to the SEC’s Intranet site; (2) ensure the re-           lack of access card readers or other devices
                                 vised ERP policies and procedures speciﬁcally            that would capture full employee entry and
                                 address whether informal recognition awards              exit information could limit OIG efforts to
                                 and honorary awards in addition to the exist-            investigate allegations concerning time and
                                 ing annual awards are authorized and, if so,             attendance abuse or other employee miscon-
                                 what criteria, standards and approval are per-           duct, and noted that such information had
                                 tinent to such awards; (3) ensure that the re-           been instrumental in similar cases investigated
                                 vised ERP policies and procedures make clear             by the OIG at SEC Headquarters in the past.
                                 that appropriated funds may not be used to
                                 pay for employee parking as an award; (4) re-                In order to advise management of its con-
                                 view the various BOCs that are currently used            cerns, the OIG issued an investigative memo-
                                 for non-monetary employee awards, select the             randum to management on February 22,
                                 most apposite BOC, and ensure that all                   2010. In its memorandum, the OIG recom-
                                 properly-authorized non-monetary employee                mended that access card readers or other de-
                                 awards are charged to that BOC; and (5) ap-              vices to capture building entry and exit
                                 prove requests to use appropriated funds for             information, similar to those currently utilized
                                 non-monetary employee awards only after                  at SEC Headquarters and the New York Re-
                                 ensuring that an authorized ofﬁcer of the                gional Ofﬁce, be installed in every Regional
                                 agency has approved such awards in accor-                Ofﬁce in order that allegations of time and
                                 dance with statutory and regulatory authority.           attendance abuse or other law enforcement
                                 Management action on the OIG’s recom-                    concerns may be adequately investigated and
                                 mendations was pending as of the end of the              addressed. As of the end of the semiannual
                                 semiannual reporting period.                             reporting period, management had not yet
                                                                                          implemented the OIG’s recommendation.

                                 Access Card Readers in Regional
                                 Offices                                                  Regulation on Management and
                                                                                          Protection of Privacy Act Records and
                                     The OIG had received numerous allega-                Other Personally Identifiable
                                 tions that senior managers in an SEC Re-                 Information
                                 gional Ofﬁce were frequently absent from the
                                                                                             The OIG reviewed and provided written
                                 ofﬁce for several hours a day over an extended
                                                                                          comments to the Ofﬁce of Information
                                 period of time. In an attempt to determine
                                 the veracity of these allegations, the OIG               Technology (OIT) on a draft of SEC Regula-



                                                                                    14

SEMIANNUAL REPORT TO CONGRESS
   tion 24-08, “Management and Protection of          a warning banner that had been drafted for
                                 Privacy Act Records and other Personally           the new SEC employee ﬁnancial reporting
                                 Identiﬁable Information.” In those com-            system, the Ethics Program System (EPS).
                                 ments, the OIG requested that OIT provide          The EPS was implemented in response to an
                                 certain clarifying information concerning an       OIG report of investigation issued on March
                                 attachment to the draft regulation, entitled       3, 2009. The OIG’s report found suspicious
                                 “Rules of Conduct.” The OIG further rec-           activity, appearances of improprieties, and
                                 ommended appropriate revisions to the lan-         evidence of possible trading on non-public
                                 guage contained in the draft regulation re-        information on the part of two Enforcement
                                 garding the penalties for non-compliance with      attorneys. The Report further found that the
                                 the policy. Finally, the OIG’s comments            SEC had essentially no compliance system in
                                 sought clariﬁcation regarding certain lan-         place to ensure that Commission employees,
                                 guage contained in the section of the draft        who have tremendous amounts of non-public
                                 regulation regarding effective dates. In re-       information at their disposal, did not engage
                                 sponse to the OIG’s comments, the OIT pro-         in insider trading. Accordingly, the report
                                 vided the requested clariﬁcations and made         made 11 speciﬁc recommendations designed
                                 appropriate changes to the draft regulation.       to ensure adequate monitoring of employee
                                 Issuance of the ﬁnal regulation was pending        securities transactions, including that the
                                 as of the end of the semiannual reporting pe-      agency institute an integrated, computerized
                                 riod.                                              system for the tracking and reporting of such
                                                                                    transactions. In the comments provided to
                                                                                    OGC regarding the draft EPS warning ban-
                                 Warning Banner for New Employee                    ner, the OIG provided suggested revisions to
                                 Financial Reporting System                         the draft language, and those suggestions were
                                                                                    incorporated into the ﬁnal system warning
                                     During the reporting period, the SEC’s
                                                                                    banner.
                                 Ofﬁce of General Counsel (OGC) requested
                                 that the OIG review and provide comment on




                                                                                 15

16
U.S. Securities and Exchange Commission


                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                  Ofﬁce of
                                                 Inspector
                                                  General




                                           AUDITS AND EVALUATIONS

                                           OVERVIEW                                               Each year the Ofﬁce of Audits prepares an
                                                                                              annual audit plan.  The plan includes work
                                                The OIG is required by the Inspector          that is selected for audit or evaluation based
                                           General Act of 1978, as amended, to conduct        on risk and materiality, known or perceived
                                           audits and evaluations of agency programs,         vulnerabilities and inefﬁciencies, resource
                                           operations and activities. The OIG’s Ofﬁce of      availability, and complaints that are received
                                           Audits focuses its efforts on conducting and       from Congress, internal SEC staff, the Gov-
                                           supervising independent audits and evalua-         ernment Accountability Ofﬁce, and the public.
                                           tions of the programs and operations of the
                                           various SEC divisions and ofﬁces. The Ofﬁce
                                           of Audits also hires independent contractors
                                                                                              Audits
                                           and subject matter experts to conduct work on
                                           its behalf. Speciﬁcally, the Ofﬁce of Audits           Audits examine operations and ﬁnancial
                                           conducts audits and evaluations to determine       transactions to ensure that proper
                                           whether:                                           management practices are being followed and
                                                                                              resources are adequately protected in accor-
                                           •	   There is compliance with governing laws,      dance with governing laws and regulations.
                                                regulations and policies;                     Audits are systematic, independent, and
                                                                                              documented processes for obtaining evidence.
                                           •	   Resources are safeguarded and appropri-       In general, audits are conducted when ﬁrm
                                                ately managed;
                                                                                              criteria or data exist, sample data is measur-
                                                Funds are expended properly;                  able, and testing internal controls are a major
                                           •	
                                                                                              objective. Auditors collect and analyze data
                                           •	   Desired program results are achieved; and     and verify agency records by obtaining sup-
                                                                                              porting documentation, issuing questionnaires,
                                           •	   Information provided by the agency to the     and through physical inspection.
                                                public and others is reliable.



                                                                                            17

SEMIANNUAL REPORT TO CONGRESS
       The OIG’s audit activities include                    External Peer Review of the SEC
                                 performance audits that are conducted of                  OIG’s Audit Operations by the
                                                                                           Corporation for Public Broadcasting
                                 SEC programs and operations relating to ar-               OIG
                                 eas such as the oversight and examination of
                                 regulated entities, the protection of investor                The Corporation for Public Broadcasting
                                 interests, and the evaluation of administrative         (CPB) OIG conducted a peer review of our
                                 activities. The Ofﬁce of Audits conducts its            audit operations in accordance with generally
                                 audits in accordance with the generally ac-             accepted government auditing standards
                                 cepted government auditing standards (Yellow            (GAGAS) and the guidelines established by the
                                 Book) issued by the Comptroller General of              CIGIE. Under GAGAS, audit organizations
                                 the United States, OIG policy, and guidance             that conduct audits or attestations in accor-
                                 issued by the Council of the Inspectors Gen-            dance with those standards must have an ap-
                                 eral on Integrity and Efﬁciency (CIGIE).                propriate system of quality control and un-
                                                                                         dergo external peer reviews at least once every
                                                                                         three years. The CPB OIG issued its report
                                 Evaluations                                             on the SEC OIG’s audit operations in January
                                                                                         2010. This report concluded that our system
                                     The Ofﬁce of Audits also conducts evalua-           of quality control for the audit function was
                                 tions of the SEC’s programs and activities.             designed to meet the requirements of the
                                 Evaluations consist of reviews that often cover         quality control standards established by the
                                 broad areas and are typically designed to pro-          Comptroller General of the United States in
                                 duce timely and useful information associated           all material respects and awarded the SEC
                                 with current or anticipated problems. Evalua-           OIG the highest possible peer review rating,
                                 tions are generally conducted when a project’s          i.e., a rating of “pass.”
                                 objectives are based on specialty and highly
                                 technical areas, criteria or data are not ﬁrm,
                                 or needed information must be reported in a
                                                                                           Peer Review of National Credit Union
                                 short period of time. The Ofﬁce of Audits’                Administration’s Office of Inspector
                                 evaluations are conducted in accordance with              General
                                 OIG policy, Yellow Book non-audit service
                                 standards and guidance issued by the CIGIE.                 During this reporting period, our Ofﬁce of
                                                                                         Audits began to conduct an external peer re-
                                                                                         view of the audit activities of the National
                                 Peer Reviews                                            Credit Union Administration (NCUA) OIG.
                                                                                         The objective of this external peer review is to
                                     The OIG community conducts peer re-                 determine whether, for the period under re-
                                 views of audit and investigative functions to           view, NCUA OIG audit organization’s system
                                 ensure quality programs. During this reporting          of quality control was suitably designed to
                                 period, another OIG reported on its review of           provide a reasonable assurance of conforming
                                 our audit function, and we performed a review           to GAGAS and to determine whether the
                                 of another OIG’s audit function.                        audit organization complied with its quality
                                                                                         control system.




                                                                                   18

SEMIANNUAL REPORT TO CONGRESS
        We commenced a review of the NCUA                  spite three examinations and two
                                 OIG audit organization and the design of its            investigations of Madoff and BMIS, a thor-
                                 system of quality control to assess the risks           ough and competent investigation or exami-
                                 implicit in its audit function. Based on our            nation was not performed, and the SEC never
                                 assessments, we selected for review audits              identiﬁed the Ponzi scheme that Madoff op-
                                 conducted under GAGAS by the NCUA OIG                   erated.
                                 that were completed during the period from
                                 April 1, 2008 to October 30, 2009. In the                    The ﬁrst Enforcement investigation and
                                 course of our review, we examined supporting            ﬁrst examination were conducted in 1992 af-
                                 documentation, conducted interviews, and                ter the SEC received information that led it to
                                 tested the adequacy of the design of the qual-          suspect that Avellino & Bienes, a ﬁrm for
                                 ity control system to provide reasonable assur-         which Madoff was managing money, was sell-
                                 ance of compliance with GAGAS. Also, we                 ing unregistered securities and conducting a
                                 tested compliance with the audit organiza-              Ponzi scheme. The SEC’s investigation fo-
                                 tion’s system of quality control to the extent          cused on Avellino & Bienes and did not inves-
                                 appropriate. Additionally, we reviewed                  tigate the possibility that Madoff was the one
                                 NCUA OIG’s monitoring of an engagement                  who was in fact operating the Ponzi scheme.
                                 performed by an Independent Public Ac-
                                 countant (IPA), in which the IPA served as the               In 2004 and 2005, the SEC’s examination
                                 principal auditor. We intend to complete this           ofﬁce, the Ofﬁce of Compliance Inspections
                                 review and issue a report of our ﬁndings dur-           and Examinations (OCIE), conducted two
                                 ing the next semiannual reporting period.               parallel cause examinations of BMIS. These
                                                                                         examinations were conducted by OCIE’s
                                                                                         broker-dealer examination unit, rather than
                                 AUDITS AND EVALUATIONS                                  its investment adviser unit, notwithstanding
                                 CONDUCTED                                               the fact that many of the issues in the com-
                                                                                         plaints that precipitated the examinations
                                 Review of the Commission’s                              related to BMIS’s investment adviser opera-
                                 Processes for Selecting Investment
                                 Advisers and Investment Companies                       tions. During the 2004 examination, the ex-
                                 for Examination (No. 470)                               aminers raised the issue of whether BMIS was
                                                                                         acting as an unregistered investment adviser.
                                   Background                                            A member of the examination team drafted a
                                                                                         memorandum about whether BMIS met the
                                     On August 31, 2009, the OIG issued an
                                                                                         deﬁnition of investment adviser, but the
                                 investigative report entitled, Investigation of
                                                                                         memorandum was never ﬁnalized, and the
                                 Failure of the SEC to Uncover Bernard Madoff ’s
                                                                                         team did not pursue or resolve the issue of
                                 Ponzi Scheme, Report No. 509. The investiga-
                                                                                         BMIS’s investment adviser status. Similarly,
                                 tion found that the SEC received more than
                                                                                         in the 2005 examination, examiners began
                                 ample information in the form of detailed
                                                                                         researching the issue of whether Madoff
                                 and substantive complaints over a period of
                                                                                         should be registered as an investment adviser
                                 many years to warrant a thorough and com-
                                                                                         due to his investment discretion over certain
                                 prehensive examination and/or investigation
                                                                                         hedge fund accounts, but the investment ad-
                                 of Bernard Madoff (Madoff) and Bernard
                                                                                         viser registration issue was not pursued or re-
                                 Madoff Investment Securities, LLC (BMIS)
                                                                                         solved.
                                 for operating a Ponzi scheme. However, de-

                                                                                   19

SEMIANNUAL REPORT TO CONGRESS
        Enforcement formally opened an investi-              stated that BMIS’s investment adviser registra-
                                 gation of BMIS in January 2006, based upon                tion was a “good result” because it would ex-
                                 a detailed complaint that Harry Markopolos                pose Madoff and his ﬁrm to “extra regulatory
                                 (Markopolos), an independent fraud investiga-             scrutiny.” They further noted that BMIS’s
                                 tor, provided to Enforcement in 2005. Al-                 agreement to register as an investment adviser
                                 though Markopolos’ complaint focused on                   was “a positive development for law
                                 why Madoff ’s returns could not be legitimate,            enforcement” because, inter alia, BMIS would
                                 the Enforcement team investigating Marko-                 “be subject to continued on-site inspections.”
                                 polos’ complaint decided to open the matter               However, we found that until Madoff con-
                                 to investigate (1) whether BMIS, a registered             fessed to operating a Ponzi scheme in Decem-
                                 broker-dealer, provided investment advisory               ber 2008, OCIE never initiated an investment
                                 services to large hedge funds in violation of             adviser examination of BMIS, even after
                                 the registration requirements of the Invest-              BMIS was forced to ﬁnally register as an in-
                                 ment Advisers Act of 1940 (the Advisers Act),             vestment advisor in August 2006. We con-
                                 and (2) whether BMIS engaged in any fraudu-               ducted this review to determine OCIE’s ra-
                                 lent activities in connection with these serv-            tionale for not performing an examination of
                                 ices. During Enforcement’s investigation, the             BMIS’s investment advisory business soon af-
                                 staff learned from an OCIE examiner that in               ter the ﬁrm registered as an investment ad-
                                 the 2005 examination of BMIS by OCIE’s                    viser in 2006, and to make recommendations
                                 broker-dealer examination staff, Madoff failed            to improve OCIE’s process for selecting in-
                                 to disclose to the staff both the nature of the           vestment advisers and investment companies
                                 trading conducted in the hedge fund accounts              for examination.
                                 and also the number of such accounts at
                                 BMIS. When closing its investigation in 2007,               Results
                                 the Enforcement staff stated that they found
                                                                                                The OIG’s review found that OCIE as-
                                 “that BMIS acted as an [unregistered] in-
                                                                                           signs each registered investment adviser a
                                 vestment adviser to certain hedge funds, insti-
                                                                                           “low,” “medium,” or “high” risk rating, which
                                 tutions, and high net worth individuals in vio-
                                                                                           is initially based on each adviser’s response to
                                 lation of the registration requirements of the
                                                                                           certain questions in Part 1 of the Uniform
                                 Advisers Act.” The Enforcement staff also
                                                                                           Application for Investment Adviser Registra-
                                 found that Madoff ’s largest hedge fund client,
                                                                                           tion (Form ADV). When BMIS registered as
                                 Fairﬁeld Greenwich Group (FGG), “did not
                                                                                           an investment adviser in 2006, BMIS was
                                 adequately disclose to its investors [BMIS’s]
                                                                                           classiﬁed as “medium risk,” based on its an-
                                 advisory role and merely described [BMIS] as
                                                                                           swers to the questions provided on its Form
                                 an executing broker to FGG’s accounts.”
                                                                                           ADV Part 1. BMIS ﬁled two subsequent
                                                                                           Form ADVs in 2007 and 2008. Each of the
                                     As a result of this investigation and discus-
                                                                                           three Form ADVs received by the Commis-
                                 sions with SEC staff, BMIS registered with the
                                                                                           sion resulted in BMIS being assigned a “me-
                                 Commission as an investment adviser. BMIS
                                                                                           dium risk” designation in 2006, 2007 and
                                 ﬁled Part 1 of its Form ADV with the Com-
                                                                                           2008. We found that only ﬁrms categorized
                                 mission on August 25, 2006, and its registra-
                                                                                           as “high risk” trigger routine OCIE
                                 tion as an investment adviser became effective
                                                                                           examinations within three years of receiving
                                 on September 12, 2006. Further, FGG re-
                                                                                           the “high risk” rating.
                                 vised its disclosures to investors to reﬂect
                                 BMIS’s advisory role. The Enforcement staff
                                                                                     20

SEMIANNUAL REPORT TO CONGRESS
       To ascertain the Form ADV rating, OCIE                condition of Enforcement closing its investiga-
                                 uses an algorithm to calculate a numeric score            tion. Moreover, ﬁndings from OCIE’s prior
                                 for each ﬁrm based on certain afﬁliations,                cause examinations of BMIS and Enforce-
                                 business activities, compensation arrange-                ment’s investigations involving BMIS should
                                 ments, and other disclosure items that could              have prompted OCIE to question BMIS’s
                                 pose conﬂicts of interest. Although the risk              “medium” Form ADV rating.
                                 algorithm allows OCIE to determine an in-
                                 vestment adviser’s relative risk proﬁle, in the               Enforcement stated that BMIS’s invest-
                                 absence of an examination risk rating, it is              ment adviser registration was a “good result”
                                 potentially limited because it does not meas-             because it would expose Madoff and his ﬁrm
                                 ure the effectiveness of the investment ad-               to “extra regulatory scrutiny.” However, there
                                 viser’s compliance controls, which are de-                is no indication that anyone on the
                                 signed to mitigate conﬂicts of interest or other          Enforcement staff ever suggested that OCIE’s
                                 risks that could harm investors.                          investment adviser examination staff conduct
                                                                                           a cause examination of BMIS. We found this
                                     OCIE may also develop a risk rating for               fact to be troubling because the Enforcement
                                 an investment adviser based upon information              investigation (which included the assistance of
                                 obtained through an examination. The ex-                  an OCIE broker-dealer examiner) revealed
                                 amination rating is weighted more heavily                 that Madoff did not fully disclose either the
                                 than the Form ADV rating since it is based                nature of the trading BMIS conducted in
                                 upon more complete information. However,                  hedge fund accounts or the number of such
                                 because OCIE’s investment adviser unit never              accounts at BMIS, BMIS commingled billions
                                 conducted a formal examination of BMIS’s                  of dollars of equities among its investment
                                 investment advisory business, notwithstanding             advisory accounts and with its broker-dealer
                                 the fact that OCIE’s broker-dealer unit and               proprietary account, and the investor disclo-
                                 Enforcement analyzed numerous aspects of                  sures of BMIS’s largest hedge fund client did
                                 BMIS’s advisory business during their                     not adequately describe BMIS’s advisory role.
                                 examinations and investigations, OCIE never               As some of the problems identiﬁed in En-
                                 developed a risk rating of BMIS based on an               forcement’s investigation related to BMIS’s
                                 OCIE examination. Therefore, OCIE’s rat-                  investment advisory operations, we found that
                                 ing of BMIS was “medium” – the same as                    both Enforcement and OCIE’s broker-dealer
                                 BMIS’s Form ADV rating.                                   examination staff should have immediately
                                                                                           notiﬁed OCIE’s investment adviser examina-
                                     Our review found this rating problematic              tion unit. We further concluded that at this
                                 because BMIS was examined and investigated                point, OCIE should have immediately sched-
                                 by OCIE and Enforcement repeatedly and                    uled a cause examination.
                                 found to be operating as an (unregistered) in-
                                 vestment adviser, and OCIE and Enforcement                    Our review further found that Enforce-
                                 found that Madoff lied about BMIS’s advi-                 ment’s and OCIE’s broker-dealer examination
                                 sory role. We also found that BMIS’s registra-            unit’s failures to communicate with OCIE’s
                                 tion as an investment adviser was prompted                investment adviser unit led to OCIE’s failure
                                 by an Enforcement investigation, which                    to conduct an examination of BMIS’s advi-
                                 should have automatically led to BMIS receiv-             sory business. An OCIE branch chief testiﬁed
                                 ing an initially higher risk rating than it would         that BMIS might have been subject to a
                                 have received had its registration not been a             “cause exam” immediately after it registered

                                                                                     21

SEMIANNUAL REPORT TO CONGRESS
   had the investment adviser examination staff            weighting to BMIS’s answers and, thus,
                                 been informed that Madoff had made mis-                 graded it on accurate information, BMIS’s
                                 representations to Enforcement and OCIE                 score would have been signiﬁcantly higher. In
                                 broker-dealer examination staff.                        that scenario, BMIS should have been subject
                                                                                         to the three-year cycle for a ﬁrm rated as
                                     We also found that OCIE’s risk rating               “high” risk.
                                 process did not adequately weigh an invest-
                                 ment adviser’s level of assets under                        Our review also found that Form ADV
                                 management and the number of clients that               has not been substantively updated since
                                 receive investment advisory services. We be-            2000, when it was ﬁrst required to be ﬁled
                                 lieve that advisers with more assets under              electronically with the Commission. We be-
                                 management and more clients who receive                 lieve that OCIE could identify additional risk
                                 advisory services should receive progressively          factors if registrants were required to include
                                 higher risk scores.                                     in Form ADV detailed information about the
                                                                                         hedge funds they advise, including the hedge
                                      As part of our review, we conducted an             funds’ performance and auditor. Further,
                                 analysis of BMIS’s 2006, 2007 and 2008 ﬁl-              Form ADV should require a hedge fund’s
                                 ings and found that had BMIS provided accu-             auditor to ﬁle its opinion with the Commis-
                                 rate information on its Form ADVs, it may               sion. Further, we found that until 2000, in-
                                 have been classiﬁed as a “high risk” adviser            vestment advisers were required to ﬁle Parts 1
                                 and, therefore, been subject to a routine               and II of Form ADV with the Commission in
                                 OCIE examination within three years of re-              hard copy. Part II of ADV was required to be
                                 ceiving a “high risk” rating. We found nu-              ﬁled with the SEC until 2000 when the
                                 merous lies and misrepresentations in Part 1            Commission adopted new rules under the
                                 of BMIS’s Form ADV of which OCIE should                 Advisers Act requiring that registered advisers
                                 have been aware because of the examinations             make ﬁlings with the Commission electroni-
                                 it conducted of BMIS. We found that                     cally through an electronic ﬁling system
                                 Madoff, on behalf of BMIS, lied about the               known as the Investment Adviser Registration
                                 number of ﬁrms he solicited, the number of              Depository (IARD) system. At that time, the
                                 clients to whom he provided services, the               Commission exempted advisers from submit-
                                 types of clients he had, the amount of BMIS’s           ting Part II to the Commission because the
                                 assets, whether he had discretionary authority          IARD system was not ready to accept those
                                 to determine the broker or dealer to be used            ﬁlings. The exemption was intended to be
                                 for a purchase or sale of securities for a cli-         temporary, but nine years later, investment
                                 ent’s account, whether he had compensated               advisers are still not required to ﬁle Part II of
                                 any ﬁrms for client referrals and whether any           their Form ADV electronically or even ﬁle a
                                 ﬁrms had custody of his advisory clients’               paper copy with the Commission, absent a
                                 securities. In fact, nearly every substantive           speciﬁc request from the Commission. In-
                                 answer he gave on Part 1 of his Form ADV                stead, investment advisers need only retain a
                                 was a lie and, in nearly every case, OCIE’s             copy of Part II of their Form ADV in their
                                 previous examinations of Madoff had re-                 ﬁles. Currently, Part II is deemed to be “ﬁled”
                                 vealed that Madoff ’s answers were false.               with the SEC when advisers update the form
                                 Moreover, had OCIE utilized the information             and place a copy in their ﬁles.
                                 the SEC gathered from the examinations and
                                 investigations of BMIS in assigning risk

                                                                                   22

SEMIANNUAL REPORT TO CONGRESS
       We found that considering Form ADV                    (2)	 OCIE should change the risk rating of
                                 Part II to be “ﬁled” with the Commission                        an investment adviser based on perti-
                                 when an adviser places it in a ﬁling cabinet is                 nent information garnered from all
                                 an inadequate procedure and concluded that                      Commission divisions and ofﬁces, in-
                                 Part II of Form ADV should be electronically                    cluding information from OCIE
                                                                                                 examinations and Enforcement
                                 ﬁled with the Commission. This document
                                                                                                 investigations, regardless of whether
                                 provides pertinent disclosures about an in-
                                                                                                 the information was learned during
                                 vestment adviser’s advisory services, fees, types               an examination conducted to look
                                 of clients, types of investments on which the                   speciﬁcally at a ﬁrm’s investment advi-
                                 adviser offers advice, other business activities,               sory business.
                                 afﬁliates, conditions for managing accounts,
                                 and compensation information, among other                 (3)		 Enforcement and OCIE should estab-
                                 things.                                                         lish and adhere to a joint protocol
                                                                                                 providing for the sharing of all perti-
                                                                                                 nent information (e.g., securities laws
                                      Finally, our review found that OCIE in-
                                                                                                 violations, disciplinary history, tips,
                                 ternal documentation identiﬁed a risk that
                                                                                                 complaints and referrals) identiﬁed
                                 hedge fund custodian statements could be ﬁc-                    during the course of an investigation
                                 titious and the assets may not be veriﬁable.                    or examination or otherwise.
                                 Another risk identiﬁed was that since invest-
                                 ment advisers are not required to ﬁle Part II of          (4)		 OCIE should establish a procedure to
                                 Form ADV with the Commission, the SEC                           thoroughly evaluate negative
                                 does not receive important information re-                      information it receives about an in-
                                 garding potential conﬂicts of interest involving                vestment adviser and use this
                                 investment advisers. While these issues have                    information to determine when it is
                                 been recognized, we found that they have not                    appropriate to conduct a cause ex-
                                                                                                 amination of an investment adviser.
                                 been resolved.
                                                                                           (5)	 When OCIE becomes aware of nega-
                                   Recommendations                                               tive information pertaining to an in-
                                                                                                 vestment adviser, it should examine
                                     The OIG issued its ﬁnal report of the re-                   the investment adviser’s Form ADV
                                 sults of the review on November 19, 2009.                       ﬁlings, and document and investigate
                                 The report included 11 recommendations de-                      discrepancies existing between the
                                 signed to improve OCIE’s process for selecting                  adviser’s Form ADV and information
                                 investment advisers and investment companies                    OCIE previously learned about the
                                 for examination. These recommendations                          registrant.
                                 were as follows:
                                                                                           (6)	 OCIE should establish a procedure to
                                                                                                 thoroughly evaluate an investment
                                 (1)		 OCIE should implement a procedure
                                                                                                 adviser’s Form ADV when it becomes
                                       requiring, as part its process for creat-
                                                                                                 aware of issues or problems with an
                                       ing a risk rating for an investment ad-
                                                                                                 investment adviser, and should initiate
                                       viser, that OCIE staff perform a
                                                                                                 appropriate action such as commenc-
                                       search of Commission databases con-
                                                                                                 ing a cause examination.
                                       taining information about past
                                       examinations, investigations, and ﬁl-
                                                                                           (7)		 OCIE should re-evaluate the point
                                       ings related to the investment adviser.
                                                                                                 scores it assigns to advisers based on
                                                                                                 their reported assets under
                                                                                     23

SEMIANNUAL REPORT TO CONGRESS
       management and assign progressively                investigation into the SEC’s examinations and
                                     higher risk weightings to ﬁrms that                investigations of Bernard L. Madoff and
                                     have greater assets under                          related entities, OIG Report of Investigation
                                     management.                                        entitled, Investigation of Failure of the SEC to Un-
                                                                                        cover Bernard Madoff ’s Ponzi Scheme, Report No.
                                 (8)		 OCIE should re-evaluate the point
                                                                                        509, August 31, 2009. We conducted our re-
                                       scores that it assigns to ﬁrms based
                                                                                        view during December 2009 and January
                                       upon their reported number of clients
                                       to which they provide investment ad-             2010.
                                       visory services and assign progres-
                                       sively higher risk weightings to ﬁrms                  The primary objectives of the review were
                                       that serve a large number of clients.            to:

                                 (9)		 A Commission rulemaking should be                •	    assess whether necessary management
                                       instituted that would require addi-                    controls have been established and oper-
                                       tional information to be reported as                   ate effectively to ensure bounty applica-
                                       part of Form ADV.                                      tions are routed to appropriate personnel
                                                                                              and are properly processed and tracked;
                                 (10)	The proposed rule providing for                         and
                                      Amendments to Form ADV should be
                                      ﬁnalized.                                         •	    determine whether other government
                                                                                              agencies with similar programs have best
                                 (11)	OCIE should develop and adhere to                       practices that could be incorporated into
                                      policies and procedures for                             the SEC bounty program.
                                      conducting third party veriﬁcations,
                                      such that OCIE veriﬁes the existence                  Section 21A(e) of the Securities Exchange
                                      of assets, custodian statements, and              Act of 1934 (Exchange Act), 15 U.S.C. § 78u-
                                      other relevant criteria.
                                                                                        1(e), authorizes the SEC to award a bounty to
                                                                                        a person who provides information leading to
                                      Management agreed with all 11 recom-
                                                                                        the recovery of a civil penalty from an insider
                                 mendations in this report. We encouraged
                                                                                        trader, from a person who tipped information
                                 OCIE to take immediate steps to implement
                                                                                        to an insider trader, or from a person who di-
                                 the recommendations and plan to conduct a
                                                                                        rectly or indirectly controlled an insider trader.
                                 follow-up audit to determine whether the
                                                                                        All bounty determinations, including whether,
                                 changes to OCIE’s operations are having the
                                                                                        to whom, or in what amount to make pay-
                                 desired and appropriate effect.
                                                                                        ments, are within the sole discretion of the
                                                                                        SEC. However, the total bounty may not cur-
                                                                                        rently exceed ten percent of the amount re-
                                 Assessment of the SEC’s Bounty
                                 Program (No. 474)                                      covered from a civil penalty pursuant to a
                                                                                        court order.
                                   Background
                                                                                            The SEC recently sent to Congress pro-
                                     The OIG conducted an assessment of the             posed legislation to expand its authority to
                                 SEC’s program for awarding bounties to per-            permit bounties for any judicial or administra-
                                 sons who provide information on insider trad-          tive action brought by the Commission under
                                 ing violations (bounty program) as a result of         the federal securities laws that results in mone-
                                 an issue that was identiﬁed during the OIG’s           tary sanctions exceeding $1,000,000. The

                                                                                  24

SEMIANNUAL REPORT TO CONGRESS
   proposed legislation was included in the Inves-          minations. Additionally, the OIG found that
                                 tor Protection Act of 2009 (H.R. 3817), which            the Commission does not routinely provide
                                 was introduced in the U.S. House of Repre-               status reports to whistleblowers regarding their
                                 sentatives on October 15, 2009, by Congress-             bounty applications, even if a whistleblower’s
                                 man Paul Kanjorski (D-Pennsylvania) and re-              information led to an investigation. Moreover,
                                 ferred to the House Committee on Financial               we found that once bounty applications are
                                 Services. Variations of this legislation are be-         received by the SEC and forwarded to appro-
                                 ing considered by both the U.S. House of                 priate staff for review and further considera-
                                 Representatives and U.S. Senate.                         tion, they are not tracked to ensure they are
                                                                                          timely and adequately reviewed. Lastly, the
                                                                                          OIG found that ﬁles regarding bounty refer-
                                   Results                                                rals did not always contain complete docu-
                                                                                          mentation, such as a copy of the bounty ap-
                                      Although the SEC has had a bounty pro-              plication, a memorandum sent to the whistle-
                                 gram in place for more than 20 years for re-             blower to acknowledge receipt of the applica-
                                 warding whistleblowers who provide insider               tion, and a referral memorandum showing the
                                 trading tips and complaints that lead to a suc-          division or ofﬁce and ofﬁcial to whom the
                                 cessful enforcement action, the OIG review               bounty application was referred for further
                                 found that there have been very few payments             consideration.
                                 made under this program. Likewise, the
                                 Commission has not received a large number
                                 of applications from individuals seeking boun-             Recommendations
                                 ties over this 20-year period. We also found
                                 that the program is not widely recognized in-                The OIG issued a report summarizing the
                                 side or outside the Commission. Additionally,            results of its review on March 29, 2010. The
                                 while the Commission recently asked for ex-              report included nine recommendations de-
                                 panded authority from Congress to reward                 signed to ensure the Commission has a fully-
                                 whistleblowers who bring forward substantial             functioning bounty/whistleblower program in
                                 evidence about signiﬁcant federal securities             place as the Commission’s authority to award
                                 law violations other than insider trading viola-         bounties is potentially expanded.
                                 tions, we found that the current SEC bounty
                                 program is not fundamentally well-designed to                 The report’s recommendations were as
                                 be successful.                                           follows:

                                     More speciﬁcally, the OIG found that im-             (1)	 The Division of Enforcement
                                 provements are needed to the bounty applica-                   (Enforcement) should develop a com-
                                 tion process to make it more user-friendly and                 munication plan to address outreach
                                 help ensure that bounty applications provide                   to both the public and SEC personnel
                                 detailed information regarding the alleged                     regarding the SEC’s bounty program.
                                 securities law violations. The OIG also found
                                                                                          (2)		 Enforcement should develop and post
                                 that the criteria for judging bounty applica-                  a bounty application form to its public
                                 tions are broad and the SEC has not put in                     website that asks the whistleblower to
                                 place internal policies and procedures to assist               provide certain pertinent information.
                                 staff in assessing contributions made by whis-
                                 tleblowers and making bounty award deter-

                                                                                    25

SEMIANNUAL REPORT TO CONGRESS

                                 (3)	 Enforcement should establish policies            (9)		 Enforcement should set a timeframe
                                       on when to follow up with whistle-                     to ﬁnalize new policies and procedures
                                       blowers who submit bounty applica-                     for the SEC bounty program that in-
                                       tions to clarify information in those                  corporate the best practices from DOJ
                                       applications and to obtain readily-                    and IRS, as well as any legislative
                                       available supporting documentation                     changes to the program.
                                       prior to making a decision as to
                                       whether a whistleblower’s complaint                  Management concurred with all of the
                                       should be further investigated.                  report’s recommendations and indicated that
                                                                                        Enforcement has already begun to take steps
                                 (4)		 Enforcement should develop speciﬁc
                                                                                        to correct the identiﬁed deﬁciencies.
                                       criteria for recommending the award
                                       of bounties, including a provision that
                                       where a whistleblower relies partially
                                       upon public information, such reli-              Management and Oversight of
                                       ance will not preclude the individual            Interagency Acquisition Agreements at
                                                                                        the SEC (No. 460)
                                       from receiving a bounty.
                                                                                          Background
                                 (5)		 Enforcement, in conjunction with the
                                       Ofﬁce of General Counsel, should                     The OIG conducted an audit of the
                                       examine ways in which the Commis-
                                                                                        Commission’s management of interagency
                                       sion can increase communications
                                                                                        acquisition agreements (IAAs) as part of its
                                       with whistleblowers by notifying them
                                       of the status of their bounty requests           annual audit plan. The audit objectives were
                                       without releasing non-public or conﬁ-            to: (1) evaluate the SEC’s processes and pro-
                                       dential information during the course            cedures to approve, obtain, monitor, and close
                                       of an investigation or examination.              IAAs; (2) assess compliance with governing
                                                                                        federal and Commission regulations and poli-
                                 (6)		 Enforcement should develop a plan to             cies; and (3) determine whether opportunities
                                       incorporate controls for tracking tips           existed for the SEC to save costs associated
                                       and complaints from whistleblowers               with IAAs.
                                       seeking bounties into the development
                                       of its processes and systems for other
                                                                                             Federal government agencies use IAAs to
                                       types of tips, complaints and referrals.
                                                                                        obtain goods or services from or through other
                                 (7)		 Enforcement should require that a                federal agencies. Agencies may place orders
                                       bounty ﬁle (hard copy or electronic) be          directly against another agency’s contract (a
                                       created for each bounty application.             direct acquisition), or have another agency
                                                                                        award and administer the contract on its be-
                                 (8)		 Enforcement should incorporate best              half (an assisted acquisition). The SEC enters
                                       practices from the Department of Jus-            into many types of IAAs, including IAAs for
                                       tice (DOJ) and the Internal Revenue              administrative support services, employee pay-
                                       Service (IRS) into the SEC bounty                roll services, paralegal services, transit subsidy
                                       program with respect to bounty appli-
                                                                                        distributions, and ﬁnancial statement audit
                                       cations, analysis of whistleblower
                                       information, tracking of whistleblower           and human capital management assistance
                                       complaints, recordkeeping practices,             services.
                                       and continual assessment of the whis-
                                       tleblower program.                                   The authority for federal agencies to ob-
                                                                                        tain goods and services from each other is de-

                                                                                  26

SEMIANNUAL REPORT TO CONGRESS
   rived from various statutes. In the absence of          and conditions, or by submitting a require-
                                 speciﬁc statutory authority, the Economy Act            ment to OA. If an SEC division or ofﬁce con-
                                 (31 U.S.C. §§ 1535, 1536) provides general              tacts another government agency directly, the
                                 authority for interagency acquisitions. More            SEC division or ofﬁce that is requesting the
                                 speciﬁc authorities for such acquisitions in-           services must provide OA with the purchase
                                 clude: the Government Employees Training                requisition, the unsigned IAA agreement form,
                                 Act (5 U.S.C. Chapter 41), which allows agen-           the statement of work (SOW), and the terms
                                 cies to obtain training and related assistance          and conditions of the agreement. If OA initi-
                                 from other government agencies and the Of-              ates the IAA, the requesting division or ofﬁce
                                 ﬁce of Personnel Management; the Clinger-               must send the SOW to OA, and OA then con-
                                 Cohen Act of 1996, which authorizes                     tacts the other government agency to establish
                                 information technology purchases; and 40                the terms and conditions of the IAA. If OA
                                 U.S.C. § 501, which relates to services for ex-         and the servicing agency approve the agree-
                                 ecutive agencies granted to the Administrator           ment, representatives of both agencies sign the
                                 of General Services.                                    IAA form. The servicing agency then estab-
                                                                                         lishes payments for the IAA through the Inter-
                                     A major difference between Economy Act              agency Payment and Collection (IPAC) system.
                                 and non-Economy Act IAAs pertains to the                OA uses the signed IAA agreement order to
                                 deobligation of funds. For Economy Act ac-              obligate funding for the acquisition by input-
                                 quisitions, obligated funds must be deobligated         ting required information into the
                                 to the extent the funds have not been used to           Commission’s ﬁnancial accounting system.
                                 place orders for goods or services before the
                                 end of the period of availability for the funds
                                 (unless “no-year” funds were obligated). This             Results
                                 deobligation requirement also does not apply
                                 to interagency agreements based on statutory                The OIG’s audit found that OA can im-
                                 authority other than the Economy Act.                   prove its processes and procedures regarding
                                                                                         IAAs in a variety of ways, including improving
                                     The Ofﬁce of Acquisitions (AO) of the               the tracking of IAAs, developing policies and
                                 SEC’s Ofﬁce of Administrative Services (OAS)            procedures governing IAAs, deobligating fund-
                                 oversees the Commission’s contracts and inter-          ing on expired IAAs, updating IAA forms to
                                 agency acquisitions. OA includes four                   include current information requirements, im-
                                 branches, consisting of a newly-established             proving cost estimates, and ensuring that
                                 Policy, Oversight and Acquisitions Program              statements of work are prepared according to
                                 branch and three Operations Contract                    applicable requirements.
                                 branches. The responsibilities of staff in OA’s
                                 Operations Contract branches include signing                The OIG found that OA is currently un-
                                 IAA documents to obligate funding, resolving            able to track its universe of IAAs, and the in-
                                 issues regarding acquisitions, and ensuring             complete list of IAAs provided by OIA con-
                                 agreements are properly closed out after the            tained numerous errors. The audit discovered
                                 period of performance expires.                          that OA currently lacks a centralized method
                                                                                         that accurately tracks all of the SEC’s IAAs,
                                     SEC’s divisions and ofﬁces initiate IAAs by         although OA is in the process of implementing
                                 contacting another government agency di-                an automated procurement tracking system.
                                 rectly to discuss needed requirements, terms            We also found that IAAs were not always

                                                                                   27

SEMIANNUAL REPORT TO CONGRESS
   clearly identiﬁed as such, thus hampering OA’s     For example, OA has no SEC-speciﬁc written
                                 ability to track them appropriately.               policies and procedures regarding:

                                      Speciﬁcally, during our audit, we asked       •	   providing a speciﬁc, deﬁnite and clear de-
                                 OA to provide us with the universe of IAAs              scription of products or services;
                                 that were open, or for which the period of
                                 performance ended during Fiscal Years (FYs)        •	   ensuring that statements of work for as-
                                 2007 - 2009. Although OA provided us with a             sisted interagency acquisitions meet the
                                                                                         applicable requirements;
                                 list of 133 IAAs totaling approximately $234
                                 million in estimated costs, the complete uni-           ensuring the reasonableness of inter-
                                                                                    •	
                                 verse of IAAs could not be conﬁrmed, and the            agency acquisition costs;
                                 list provided was incomplete and contained
                                 erroneous information. Thus, OA ofﬁcials           •	   including the appropriate information in
                                 could not identify the total number or dollar           interagency acquisition ﬁles;
                                 amount of the Commission’s IAAs with cer-
                                 tainty.                                            •	   recording and maintaining complete
                                                                                         information on interagency acquisitions;
                                     Moreover, our review of the 133 IAAs OA             and
                                 identiﬁed on the list provided to us revealed
                                                                                    •	   closing expired interagency acquisitions.
                                 the following deﬁciencies:
                                                                                        We also found that OA has no written
                                 •	   the period of performance was missing for     policies and procedures to implement the ap-
                                      63 IAAs;
                                                                                    plicable provisions of the Federal Acquisition
                                      the amount obligated amounts was miss-        Regulation (FAR), the U.S. Department of
                                 •	
                                      ing for 50 IAAs;                              Treasury Financial Manual (TFM) Bulletin
                                                                                    No. 2007-03, or the OMB’s Ofﬁce of Federal
                                 •	   the IAA status was missing for 49 IAAs;       Procurement Policy (OFPP) guidance on in-
                                      and                                           teragency acquisitions. Further, OA’s IAAs do
                                                                                    not undergo any legal review, and OA has not
                                 •	   the statutory authority was missing for 48    formulated policies regarding SEC oversight
                                      IAAs.                                         of IAAs. Nor has OA performed risk assess-
                                                                                    ments of its interagency acquisition function.
                                     Further, four IAAs were inaccurately iden-
                                 tiﬁed on OA’s list of IAAs as “expired” when,          Signiﬁcantly, during our audit we identi-
                                 in fact, according to the IAAs themselves, the     ﬁed 23 IAAs, totaling approximately $6.9 mil-
                                 period of performance had not ended. Due           lion, for which the period of performance had
                                 to the number of errors found on OA’s list of      expired, yet the IAAs were not closed out and
                                 IAAs, our audit determined that the IAA list       the funds that remained on the IAAs were not
                                 was unreliable and did not provide OA with         deobligated. This $6.9 million represents
                                 accurate information that could be used to         funds that were unable to be used by the
                                 make decisions regarding IAAs.                     Commission because they had not been
                                                                                    deobligated. We found that $5.3 million of
                                    In addition, the OIG’s audit found that         this $6.9 million was attributable to a single
                                 OA lacks written internal policies and proce-      IAA with the General Services Administration
                                 dures for administering and overseeing IAAs.       (GSA), for which the period of performance

                                                                                   28

SEMIANNUAL REPORT TO CONGRESS
   had ended on September 30, 2008. Effective               business partner network number, and the
                                 monitoring on the part of OA for this single             method of performance reporting.
                                 IAA would have resulted in $5.3 million being
                                 deobligated and available for use to support                   In addition, our audit found that the
                                 the SEC’s programs, operations and mission.              SEC’s IAA documentation was not consistent
                                                                                          with the format recommended by the OFPP,
                                     Further, our audit found that: (1) the               which issued guidance on “Interagency Acqui-
                                 SEC’s IAA forms and the determinations and               sitions” in June 2008. That guidance requires
                                 ﬁndings (D&Fs), which are prepared to sup-               speciﬁed documentation of IAAs for assisted
                                 port the IAAs, lacked information required by            acquisitions that were entered into on or after
                                 the FAR; (2) the “Securities and Exchange                November 3, 2008. The information con-
                                 Commission (SEC) Interagency Agreement/                  tained in OFPP’s enumerated elements was
                                 Amendment” (SECIAA/A) form was out-                      also not readily found in the IAA documenta-
                                 dated; and (3) the SEC’s IAA award docu-                 tion that we reviewed. In several instances, we
                                 ments and forms did not include all of the               were required to review several documents
                                 information necessary to document the basis              (e.g., the IAA form, the terms and conditions,
                                 for the interagency acquisition and the obliga-          and the statement of work) to locate the re-
                                 tion of funds. We reviewed the D&Fs from a               quired information.
                                 judgmental sample of 13 out of 133 IAAs to
                                 evaluate compliance with the FAR. Our re-                     We further found that OA lacked critical
                                 view disclosed that three of 13 D&F docu-                information to review IAA cost estimates.
                                 ments (two of which were for Economy Act                 Speciﬁcally, we found in connection with an
                                 IAAs) lacked the required statement that “[t]            August 2008 IAA for administrative support
                                 he supplies or services cannot be obtained as            services that the OA contracting ofﬁcer was
                                 conveniently or economically by contracting              unable to explain why the SEC was paying a
                                 directly with a private source.”                         unit cost that was signiﬁcantly higher than the
                                                                                          estimated employee hourly rate and fringe
                                     We also judgmentally selected 21 IAAs                rate. When we analyzed the costs associated
                                 from the population of 133 IAAs to test the              with a judgmental sample of task orders, we
                                 completeness of the IAA documentation. Of                found that these costs contained a differential
                                 the 21 selected IAAs, ten were prepared on               of $281,000, which included overhead, gen-
                                 the SEC’s award forms, while the remaining               eral and administrative expenses, and proﬁt
                                 11 were prepared on other agencies’ forms.               on direct labor cost/fringe beneﬁts and repre-
                                 We found that while the SECIAA/A forms                   sented 27 percent of the total cost of the cor-
                                 included information required by the FAR,                responding task orders. We then compared
                                 the forms lacked the speciﬁc ﬁelds needed to             this percentage to the fees associated with
                                 identify delivery requirements, acquisition              other SEC IAAs, and found it to be high.
                                 authority, and the resolution of disagreements,          When we judgmentally selected a sample of
                                 as required by TFM Bulletin No. 2007-03. In              15 out of 269 small business contractors listed
                                 addition, ﬁve SECIAA/A forms appeared to                 on the GSA schedules used to provide admin-
                                 lack information entirely on either the acquisi-         istrative support to agencies, we found that
                                 tion authority or the resolution of disagree-            nine out of 15 contractors in our review listed
                                 ments. Also, the SECIAA/A form did not                   lower rates than the entity chosen by the SEC
                                 contain certain TFM bulletin requirements,               in at least one labor category.
                                 including the business event type code, the

                                                                                    29

SEMIANNUAL REPORT TO CONGRESS

                                     We also determined that in connection         sources management assistance for its staff.
                                 with an IAA for payroll services, OA failed to    The IAA consisted of a SOW that OHR in-
                                 provide the necessary input to ensure that the    cluded with its funding request. The IAA’s
                                 proposed contract prices were fair and rea-       period of performance was from October
                                 sonable. Moreover, in connection with a can-      2006 to September 2007, and the IAA was an
                                 celled Economy Act IAA, OA did not take           assisted acquisition, pursuant to which an
                                 appropriate steps to seek return of $50,000       OPM staff member served as the contracting
                                 that had been advanced under this IAA, in-        ofﬁcer for the IAA. Between September 2006
                                 stead allowing the $50,000 to be subsequently     and September 2007, according to OHR, ap-
                                 applied as a reduction to the cost estimate of    proximately an additional $3.1 million was
                                 an unrelated IAA for payroll services.            transferred to the OPM/TMA account for the
                                                                                   IAAs so the SEC could “lock in” a lower,
                                     Our audit further disclosed that the Ofﬁce    more favorable fee rate.
                                 of Human Resources’ (OHR’s) statement of
                                 work (SOW) for its IAA with the Ofﬁce of              The OPM/TMA program provides writ-
                                 Personnel Management Training and                 ten guidance on the information that agencies
                                 Management Assistance (OPM/TMA) pro-              should submit to transfer funds to OPM/
                                 gram for human resources management assis-        TMA. The OPM/TMA program guidance,
                                 tance did not speciﬁcally identify the required   which is posted on OPM’s website, describes a
                                 services or products, or include information      six-step process for agencies to follow when
                                 that was speciﬁed in the OPM/TMA pro-             entering into an IAA with OPM/TMA. Ac-
                                 gram’s guidance. The OPM/TMA program              cording to the guidance, the statement of ob-
                                 provides assistance to agencies in the areas of   jectives (SOO) (which is similar to an SOW)
                                 training and human capital management,            should clearly and concisely describe the
                                 workforce planning and restructuring, process     agency’s needs and expectations. Although
                                 improvement, and performance and compen-          the OPM/TMA guidance speciﬁcally de-
                                 sation systems. The OPM/TMA program               scribed the information that should typically
                                 provides agencies with access to its contracts    be included in the SOO, we found that
                                 with a number of private sector vendors with      OHR’s SOW for the IAA with OPM/TMA
                                 expertise in human capital management. The        did not include much of the necessary
                                 OPM/TMA issues task orders for the re-            information and did not even specify the serv-
                                 quired services and maintains funding re-         ices or products requested.
                                 ceived from external agencies in a revolving
                                 fund, which is used to pay for work done un-
                                 der the IAA.                                        Recommendations

                                     Between FYs 2006 and 2007, OHR trans-             The OIG issued its ﬁnal report of the re-
                                 ferred approximately $5.1 million into OPM/       sults of the audit on March 26, 2010. The
                                 TMA program’s revolving fund in connection        report included 15 recommendations intended
                                 with an IAA. Speciﬁcally, in June 2006, OHR       to enhance OA’s controls regarding oversight
                                 requested that $2 million be immediately          of IAAs and improve its procedures,
                                 transferred from its operating fund to the        compliance with applicable requirements, and
                                 OPM/TMA program account. In August                ability to identify cost saving opportunities.
                                 2006, OHR entered into an IAA for $2 mil-         These recommendations were as follows:
                                 lion with OPM/TMA to obtain human re-

                                                                                   30

SEMIANNUAL REPORT TO CONGRESS

                                 (1)		 OA, in coordination with the Ofﬁce of                should ensure that its written policies
                                       Financial Management (OFM),                          and procedures for interagency acqui-
                                       should identify its universe of open                 sitions include guidance for:
                                       interagency acquisitions and the cor-
                                       responding amounts obligated and                •	   ensuring that statements of work for in-
                                       expended on each interagency acqui-                  teragency acquisitions related to assisted
                                       sition. Once this is accomplished, OA                services meet the applicable requirements;
                                       should reconcile its universe of active
                                       and open interagency acquisitions               •	   ensuring the reasonableness of inter-
                                       with the ﬁnancial information main-                  agency acquisition costs;
                                       tained by OFM regarding open inter-
                                       agency acquisitions and the corre-              •	   including the appropriate documents in
                                       sponding amounts obligated and ex-                   interagency acquisition ﬁles;
                                       pended.
                                                                                       •	   recording and maintaining complete
                                 (2)		 OA should maintain its interagency                   information on interagency acquisitions;
                                       acquisition data in its centralized                  and
                                       automated system to ensure appropri-
                                       ate access to and accuracy of data              •	   closing expired interagency acquisitions.
                                       and to provide for report generation
                                       capabilities.                                   (6)	 OA should benchmark other federal
                                                                                             agencies’ written policies and proce-
                                 (3)		 OA should establish appropriate in-                   dures for interagency acquisitions
                                       ternal controls to provide reasonable                 when developing its IAA written poli-
                                       assurance that, in the future, IAA data               cies and procedures.
                                       is accurate, timely, complete and reli-
                                       able.                                           (7)	 OA should develop written policies
                                                                                             and procedures regarding interagency
                                 (4)	 OA should develop internal written                    acquisitions that include timeframes
                                       policies and procedures to guide it in                and procedures for closing out Econ-
                                       administering interagency acquisi-                    omy Act and non-Economy Act inter-
                                       tions. These policies and procedures                  agency acquisitions and deobligating
                                       should be based on appropriate risk                   funds for both assisted and direct ac-
                                       assessments, address both Economy                     quisitions. The closeout procedures
                                       Act and Non-Economy Act acquisi-                      should also identify the Commission’s
                                       tions, and incorporate FAR Subpart                    process for coordinating with servicing
                                       17.5, the OFPP’s guidance on inter-                   agencies.
                                       agency acquisitions, and other re-
                                       quirements regarding interagency ac-            (8)		 OA should promptly identify fully all
                                       quisitions as appropriate.                            IAAs that have expired but have not
                                                                                             been closed. OA should deobligate
                                 (5)		 In developing written policies and                    any funds that remain on the expired
                                       procedures for assisted interagency                   agreements.
                                       acquisitions, OA should incorporate
                                       the requirements of the Economy                 (9)		 OA should take action to close the
                                       Act, the OFPP guidance on inter-                      interagency acquisitions we identiﬁed
                                       agency acquisitions, and other con-                   for which the period of performance
                                       trolling authorities, and coordinate                  had expired and deobligate the $6.9
                                       with OFM to assure its minimum re-                    million in unused funds that remain
                                       quirements are also included. OA

                                                                                 31

SEMIANNUAL REPORT TO CONGRESS

                                     on the interagency acquisitions, in ac-     OIG’s report. We expressed our concern that
                                     cordance with the appropriate close-        OAS did not concur with the recommenda-
                                     out procedures.                             tion to provide additional training to its con-
                                                                                 tracting staff and customers regarding inter-
                                 (10)	OA should update its interagency ac-       agency acquisitions, including training de-
                                      quisition D&Fs and interagency ac-
                                                                                 signed to ensure the adequacy of statements
                                      quisition forms to include the
                                                                                 of work and statements of objectives accord-
                                      information required by the FAR,
                                      TFM Bulletin No. 2007-03 (in consul-       ing to applicable guidance and requirements.
                                      tation with OFM), and the OFPP             We remain convinced that OA should further
                                      guidance on interagency acquisitions.      provide guidance to its customers to help en-
                                                                                 sure the adequacy of statements of work and
                                 (11)	OA should develop and implement            statements of objectives.
                                      appropriate procedures to review in-
                                      teragency acquisition cost estimates to
                                      ensure they are reasonable and prop-
                                                                                 Assessment of the SEC Information
                                      erly supported.                            Technology Investment Process
                                                                                 (No. 466)
                                 (12)	OA should assess the Mid-Atlantic
                                      Cooperative Administrative Support              Background
                                      Unit (CASU) IAA to determine if the
                                      costs incurred are reasonable and the           The SEC has established a Capital Plan-
                                      CASU IAA is in the best interest of        ning and Investment Control (CPIC) process
                                      the Commission.                            and structure for the approval and oversight of
                                                                                 Information Technology (IT) investment pro-
                                 (13)	OA should consider sources of admin-       jects. The primary mission of the CPIC proc-
                                      istrative support services that charge
                                                                                 ess is to establish a strategic approach for how
                                      lower amounts if it determines that
                                      the CASU IAA does not provide the          the Commission uses its IT funds. This proc-
                                      best value to the Commission.              ess serves as a means of ensuring that the
                                                                                 SEC’s IT investments achieve speciﬁc out-
                                 (14)	OA should provide additional training      comes. The CPIC process provides for the
                                      to its contracting staff and customers     identiﬁcation, selection, control, and evalua-
                                      regarding interagency acquisitions.        tion of investments in IT resources. The
                                      This training should include develop-      process also addresses the decision criteria
                                      ing and ensuring the adequacy of           used to select IT investments, as well as the
                                      statements of work and statements of       use of deﬁned performance measures in as-
                                      objectives according to applicable
                                                                                 sessing an investment’s progress.
                                      guidance and requirements.

                                 (15)	OHR, in consultation with OA,                  Speciﬁcally, the CPIC process is controlled
                                      should ensure that future Memoranda        by three governing boards:
                                      of Understanding provide appropriate
                                      speciﬁcity with regard to the types of     1.		 The Information Technology Capital
                                      products and services required, in ac-          Planning Committee (ITCPC);
                                      cordance with applicable require-
                                      ments.                                     2.		 The Information Ofﬁcers Council
                                                                                      (IOC); and
                                     OAS management concurred with 14 of
                                 the 15 recommendations included in the          3.		 The Project Review Board (PRB).

                                                                                32

SEMIANNUAL REPORT TO CONGRESS

                                     Each board has a charter that outlines its          lem” for the Commission, and that the gov-
                                 role in the IT investment process, and the              ernance of this critical Commission function
                                 boards are charged with ensuring that all pro-          needed to be strengthened. The OIG rec-
                                 jects are adequately reviewed and approved at           ommended that the Commission assign spe-
                                 various levels of the investment process.               ciﬁc responsibility and delegate appropriate
                                                                                         authority for establishing a compliant and ef-
                                     The objectives of the audit were to exam-           fective IT decision-making process. The re-
                                 ine whether SEC divisions and ofﬁces have               port further recommended that the SEC en-
                                 established procedures to ensure that major             sure that the necessary changes were com-
                                 IT investments are properly approved by the             pleted in a timely manner by the implementa-
                                 CPIC boards, speciﬁcally, the PRB, IOC and/             tion of a performance accountability process.
                                 or the ITCPC. The audit was also designed               However, at the time we conducted our audit
                                 to:                                                     work for the current audit, several recommen-
                                                                                         dations in the 2004 OIG report were not
                                 •	    determine whether the CPIC process and            completely addressed, speciﬁcally, the recom-
                                       procedures and the PRB, IOC and                   mendations regarding the publishing of an
                                       ITCPC structures adhere to governing              IOC charter and establishing the Chief
                                       Commission policy and applicable federal          Information Ofﬁcer’s (CIO) authority. As of
                                       laws and regulations;                             the date of the issuance of our current audit
                                                                                         report, over ﬁve years later, we found that the
                                 •	    examine whether procedures exist to en-
                                                                                         CIO still lacked the necessary authority to
                                       sure that major IT investments are prop-
                                       erly approved within the CPIC process             manage the CPIC process adequately.
                                       and are presented to the PRB, IOC and/
                                       or ITCPC as appropriate; and
                                                                                           Results
                                 •	    assess whether major IT investment pro-
                                       jects are properly approved by the appro-              The audit found that although compre-
                                       priate CPIC board(s).                             hensive procedures are documented for major
                                                                                         IT investments, these procedures were not
                                                                                         consistently followed throughout the Commis-
                                      Prior OIG Audit Report                             sion. We found that although the SEC has
                                                                                         gone to great lengths, and expended signiﬁ-
                                     On March 29, 2004, the OIG issued a re-             cant resources, to develop an IT CPIC struc-
                                 port entitled, IT Capital Investment Decision-          ture, approval process and procedures, the
                                 Making Follow-up, Report No. 365, on the IT             Commission has not adequately implemented
                                 investment process, and the report included 25          all phases of the CPIC process and proce-
                                 recommendations. The report found that the              dures that are contained in its regulations and
                                 Commission’s process for IT investment                  implementing instructions.
                                 decision-making did not meet the minimum
                                 criteria of the Government Accountability                   Speciﬁcally, we found that two out of four
                                 Ofﬁce’s (GAO’s) Information Technology In-              investments we reviewed in a judgmentally-
                                 vestment Management Maturity Model and                  selected sample did not follow the process pre-
                                 was not in full compliance with applicable              scribed in the CPIC policies and procedures.
                                 laws and regulations. The report further                As a result, signiﬁcant decisions were made
                                 found that the SEC’s IT investment decision-            regarding IT investments without a meaning-
                                 making process remained a “signiﬁcant prob-

                                                                                   33

SEMIANNUAL REPORT TO CONGRESS

                                 ful review by the appropriate boards. In the          of his reporting relationship with the Execu-
                                 case of one of these investments, OAS made a          tive Director.
                                 decision to cancel a $3 million strategic acqui-
                                 sition project and began an entirely new,                 In addition, we found that the CPIC poli-
                                 nearly identical project for an additional $3.5       cies needed to be revised to create an enforce-
                                 million without formal approval. With regard          able mechanism that Commission divisions
                                 to the second investment, we found that a de-         and ofﬁces must follow. Further, based on the
                                 cision was made to cancel a project after ma-         results of an OIG survey concerning IT in-
                                 jor problems were discovered with the con-            vestments within SEC, we found the need for
                                 tractor’s performance without seeking appro-          more direct involvement from the divisions
                                 priate approvals from the IT Boards.                  and ofﬁces in connection with IT investments.

                                     The audit also found that IT investments
                                 were not being properly managed because the                Recommendations
                                 project managers were overloaded with as-
                                 signments, resulting in the SEC’s formalized              OIG issued the report for this audit on
                                 policies and procedures not being followed.           March 26, 2010. The report included nine
                                 We also found that OIT’s inability to provide         recommendations designed to improve the IT
                                 adequate technical assistance for IT projects         investment process. The recommendations
                                 forced the program ofﬁces to contract out the         were as follows:
                                 project management function, leading to in-
                                 creased projects costs.                               (1)	 Improve OIT’s oversight of IT in-
                                                                                             vestments to ensure the requirements
                                                                                             in the CPIC policies and procedures
                                     In addition, the audit determined that the
                                                                                             are followed.
                                 CIO’s control and effectiveness within the
                                 SEC was limited because he lacked the                 (2)		 Require that status updates on all on-
                                 authority required by statute to manage IT                  going projects be provided every six
                                 resources adequately. We found that although                months in order to manage resources
                                 federal statute and OMB guidance required                   for IT investments over a speciﬁed
                                 that the CIO report directly to the Chairman,               dollar amount.
                                 at the SEC, the Executive Director had ad-
                                 ministrative authority over the CIO and as a          (3)		 Immediately ﬁll a critical vacant pro-
                                 result, the CIO did not have authority to in-               ject management position with an ex-
                                 ﬂuence substantive IT decisions made by his                 perienced and qualiﬁed candidate.
                                 direct supervisor (the Executive Director).
                                                                                       (4)		 Perform an assessment of the project
                                 Furthermore, interviews conducted during the                management functions to ensure an
                                 audit revealed that there is a perception within            appropriate ratio of projects to project
                                 multiple Commission divisions and ofﬁces that               managers.
                                 several ofﬁces are able to evade the CPIC
                                 process without any consequences because the          (5)		 Delegate to the CIO authority neces-
                                 heads of these ofﬁces report directly to the                sary for the management and over-
                                 Executive Director. We found that although                  sight of the CPIC process, including
                                 the CIO is supposed to be the custodian of                  full authority to develop and execute
                                 the Commission’s IT resources, his ability to               all IT policies.
                                 perform this task effectively is limited by virtue

                                                                                      34

SEMIANNUAL REPORT TO CONGRESS

                                 (6)		 Revise the applicable Code of Federal              shared network drives. In a third investiga-
                                       Regulation provisions to give the CIO              tion, we learned that ﬁles pertinent to our in-
                                       full authority to develop IT policies.             vestigation had been deleted or removed from
                                                                                          an OCIE shared network drive and have not
                                 (7)	 Revise the SEC’s internal regulation               been recovered. Despite our conducting ex-
                                       pertaining to the CIPC process to add
                                                                                          tensive e-mail review and witness interviews,
                                       responsibility for senior ofﬁcials to en-
                                                                                          the sources of the release of non-public
                                       sure that IT investments adhere to the
                                       CIPC policies and procedures, and to               information and ﬁle removal have not been
                                       create an enforcement mechanism for                identiﬁed because OCIE’s intranet sites and
                                       the CPIC process.                                  shared network drives do not employ auditing
                                                                                          systems.
                                 (8)		 Conduct periodic internal reviews to
                                       ensure that requirements applicable to
                                       IT investment management are prop-                   Results
                                       erly enforced.
                                                                                               In our review, we found that the SEC does
                                 (9)	 Require that all SEC divisions and                 not have in place an auditing system for OCIE
                                       ofﬁces use OIT’s project management                intranet sites or its shared network drives.
                                       system, and update and maintain the
                                                                                          OCIE’s intranet sites and shared network
                                       data in the system for the investments
                                       within their program areas.                        drives store extensive non-public information,
                                                                                          including inspection and examination reports,
                                     Management concurred with all of the                 deﬁciency letters, and other documents con-
                                 report’s nine recommendations. The OIG                   taining conﬁdential registrant information.
                                 plans to follow up appropriately to ensure that          Approximately 2,000 employees have access
                                 these recommendations are implemented, and               to OCIE’s intranet sites or shared network
                                 that the Commission’s ability to comply with             drives. However, use of the OCIE intranet
                                 the mandates of statutes, regulations and                sites and shared network drives is not audited,
                                 guidance pertaining to the management and                which allows users to view, print, copy, down-
                                 oversight of IT capital investments is strength-         load, move, edit, or delete documents and ﬁles
                                 ened.                                                    without detection.



                                 Management Alert – Data Security                           Recommendations
                                 Vulnerabilities (No. 477)
                                                                                              The OIG issued a Management Alert
                                   Background                                             memorandum to OCIE and OIT on March
                                                                                          10, 2010, to advise these Ofﬁces of our con-
                                     We conducted a review of data security               cerns about data security vulnerabilities. The
                                 vulnerabilities within the SEC after three re-           memorandum requested that management
                                 cent investigations undertaken by the SEC                take prompt access to address the OIG’s con-
                                 OIG raised concerns about data security. In              cerns, including implementing a system for
                                 2008 and 2009, we undertook two                          auditing the access and use of OCIE’s intra-
                                 investigations involving the unauthorized re-            net and share network drives.
                                 lease of non-public documents and reports
                                 available on the OCIE intranet sites and/or


                                                                                    35

SEMIANNUAL REPORT TO CONGRESS
       Management’s responses provided on                   adequate agency privacy performance, and
                                 March 10 and 11, 2010, indicated that OCIE               assist in the development of the E-
                                 agreed with the need to have in place an                 Government scorecard under the President’s
                                 auditing system for its intranet sites and share         management agenda.
                                 network drives. The responses also indicated
                                 that OCIE technical staff was currently work-                C5i commenced work on this project in
                                 ing with OIT staff to review various audit so-           September 2009, after OMB promulgated the
                                 lutions and to determine the impact of the               ﬁnal FISMA questionnaires for FY 2009.
                                 solutions on OCIE’s current business prac-               C5i’s tasks included completing the OIG por-
                                 tices, and that OIT was analyzing the                    tion of the FISMA reporting template (Sec-
                                 technology aspects of the OIG’s request.                 tion C) and developing an Executive Sum-
                                                                                          mary Report that communicates the Inspector
                                                                                          General’s response to the SEC’s 2009 FISMA
                                 2009 FISMA Executive Summary                             submission.
                                 Report (No. 472)
                                                                                              The objective of the OIG’s FISMA as-
                                   Background                                             sessment was to independently evaluate and
                                     In August 2009, the OIG contracted with              report on how the Commission has imple-
                                 C5i Federal, Inc. (C5i) to assist with the com-          mented its mandated information security re-
                                 pletion and coordination of the OIG’s input              quirements. The assessment was also de-
                                 to the Commission’s response to Ofﬁce of                 signed to provide background information,
                                 Management and Budget (OMB) Memoran-                     clariﬁcation, and recommendations for the
                                 dum M-09-29, entitled, “Reporting Instruc-               OIG’s response and input to Section C of the
                                 tions for the Federal Information Security               OMB reporting template.
                                 Management Act and Agency Privacy
                                 Management.” The OMB memorandum
                                 provided instructions and templates for meet-                 Results
                                 ing the FY 2009 reporting requirements under
                                                                                             The OIG issued its ﬁnal FISMA Executive
                                 the Federal Information Security
                                                                                          Summary report on March 26, 2010. The
                                 Management Act of 2002 (FISMA), Title III
                                                                                          report found as follows:
                                 of Public Law No. 107-347.
                                                                                          •	    The Commission operates a total of 48
                                     FISMA provides the framework for secur-                    systems, of which 46 have been evaluated
                                 ing the federal government’s IT resources. All                 as having a moderate system impact level.
                                 federal agencies must implement the require-                   The remaining two systems were evalu-
                                 ments of FISMA and report annually to                          ated as having a low system impact level.
                                 OMB and Congress on the effectiveness of
                                 their privacy programs and privacy impact                •	    The SEC routinely performs oversight
                                 assessment processes. OMB uses the reported                    and evaluations to ensure information sys-
                                 information to evaluate agency-speciﬁc and                     tems used or operated by an agency con-
                                 government-wide privacy performance, de-                       tractor, or by other organizations on be-
                                                                                                half of the agency, meet applicable re-
                                 velop OMB’s annual security report to Con-
                                                                                                quirements.
                                 gress, assist in improving and maintaining



                                                                                    36

SEMIANNUAL REPORT TO CONGRESS
   •	   The Commission has developed an inven-                     language from FAR 2007-004, which
                                      tory of major information systems. Al-                     modiﬁed Part 39 - Acquisition of
                                      though performing a full inventory of all                  Information Technology, is now included
                                      systems exceeded the scope of our effort,                  in all contracts related to common secu-
                                      but through our interviews, document re-                   rity settings.
                                      views, and research, we ascertained that
                                      the inventory is approximately 90 to 100             •	    The Commission has robust incident pre-
                                      percent correct.                                           vention, detection, response, and report-
                                                                                                 ing capabilities and follows documented
                                 •	   The Commission’s plan of actions and                       policies and procedures for reporting inci-
                                      milestones process provides an effective                   dents internally, to the U. S. Computer
                                      roadmap for continuous security im-                        Emergency Readiness Team and to law
                                      provement, assists with prioritizing correc-               enforcement.
                                      tive action and resource allocation, and is
                                      a valuable management and oversight                  •	    As of November 15, 2009, cyber security
                                      tool.                                                      awareness training was successfully com-
                                                                                                 pleted by 4,101 of 4,383 (94 percent) us-
                                 •	   The Commission’s overall certiﬁcation                      ers.
                                      and accreditation program is assessed as
                                      excellent and in compliance with applica-            •	    The Commission has monitoring systems
                                      ble regulatory and statutory requirements.                 and policies regarding the use of collabo-
                                                                                                 rative web technologies and peer-to-peer
                                 •	   The SEC’s Privacy Ofﬁce has made sig-                      ﬁle sharing, which are included in IT se-
                                      niﬁcant progress in its development of                     curity awareness training, ethics training,
                                      privacy resources, outreach within Com-                    and other agency-wide training.
                                      mission and regional ofﬁces, and bench-
                                      marking externally with other agencies.
                                      However, the privacy policies are still in           Evaluation of the SEC Privacy Program
                                      draft form and, as a result, the program is          (No. 475)
                                      not fully implemented throughout the
                                      Commission.                                               Background

                                 •	   The Commission has developed and dis-                    As part of the work described in the
                                      seminated formal, documented, conﬁgu-                FISMA Executive Summary Report, C5i is-
                                      ration management policies, as well as               sued a separate report documenting the results
                                      implementing guidance that satisfactorily            of its evaluation of the Commission’s privacy
                                      addresses security conﬁguration                      program. During this evaluation, C5i re-
                                      management requirements. We found
                                                                                           viewed a broad range of issues covering poli-
                                      some areas of concern in the SEC’s en-
                                                                                           cies, implementation and other related aspects
                                      cryption policies and procedures that are
                                      further detailed in a separate report, al-           of the SEC’s privacy program.
                                      though this information did not pertain to
                                      a speciﬁc question in the conﬁguration
                                      management section of OMB’s reporting                     Results
                                      template.
                                                                                               The OIG’s evaluation found that in recent
                                 •	   Federal desktop core conﬁguration has                years, the SEC’s Privacy Ofﬁce within OIT
                                      been successfully implemented on all SEC             had made progress in acquiring resources,
                                      workstations and laptops, and appropriate            performing outreach within SEC headquar-

                                                                                     37

SEMIANNUAL REPORT TO CONGRESS
   ters and regional ofﬁces, and benchmarking              Recommendation
                                 best practices with external agencies. Further,
                                 the SEC’s Privacy Ofﬁce has devoted a signiﬁ-           The OIG issued a report summarizing the
                                 cant amount of time to drafting an agency           results of the evaluation on March 26, 2010.
                                 privacy policy and implementing guidance.           The report recommended that OIT should
                                 Speciﬁcally, the Privacy Ofﬁce issued draft         ﬁnalize its outstanding draft privacy related
                                 guidance covering the privacy program and           policies and procedures and implement them
                                 privacy incident management as follows:             throughout the agency by the end of FY 2010,
                                                                                     and management concurred with the recom-
                                 •	   draft SECR 24-08 (01.0), Management            mendation.
                                      and Protection of Privacy Act Records
                                      and Other Personally Identiﬁable
                                      Information; and                               Evaluation of the SEC Encryption
                                                                                     Program (No. 476)
                                 •	   draft OD 24-08.07 (01.0), Privacy Inci-
                                      dent Management.                                   Background

                                      According to the evaluation, the draft              Encryption is the process of transforming
                                 guidance documented the roles and responsi-         information (referred to as plaintext) using an
                                 bilities of the Chief Privacy Ofﬁcer and the        algorithm (i.e. a cipher) to make the
                                 Senior Agency Ofﬁcial for Privacy, identiﬁed        information unreadable to anyone except
                                 procedures and provided direction based on          those possessing special knowledge (usually
                                 governing guidance. The evaluation also             referred to as a key). The result of the process
                                 found that the Privacy Ofﬁce developed pri-         is encrypted information (referred to as ci-
                                 vacy policies regarding the management and          phertext). The reverse process of encryption
                                 protection of Privacy Act records and breach        is called decryption, whereby encrypted
                                 notiﬁcation, (i.e., incident management), which     information is transformed into readable
                                 are pending approval.                               form. Militaries and governments have long
                                                                                     used the process of encryption to facilitate se-
                                     However, the OIG’s evaluation found that        cret communication, and encryption is now
                                 the SEC’s privacy program has not been fully        commonly used to protect information in ci-
                                 implemented throughout the agency. There            vilian systems and in the private sector. En-
                                 remains signiﬁcant and critical guidance that       cryption may be used to protect data that is
                                 must be approved, some of which has been in         “at rest” (e.g., ﬁles on computers, portable me-
                                 draft form since 2008. Speciﬁcally, we found        dia and storage devices), as well as data in
                                 that draft privacy and privacy incident             transit (e.g., e-mail). Encrypting data at rest
                                 management program policies and procedures          helps protect the data in the event that physi-
                                 needed to be ﬁnalized, approved, and imple-         cal security measures fail.
                                 mented. Therefore, we could not state with
                                 assurance that the SEC is managing and op-                As is true with password strength (the
                                 erating its privacy program with the appropri-      more complex the password, the more difﬁcult
                                 ate internal controls.                              it is to guess), stronger encryption leads to
                                                                                     safer data.




                                                                                   38

SEMIANNUAL REPORT TO CONGRESS
       The use of forced encryption is the best             tices to safeguard the Commission’s
                                 approach for any organization to take, as it             information. However, there are some areas
                                 eliminates the element of human error.                   of concern related to mobile devices and
                                 Therefore, all laptops, e-mails, and portable            portable media that we found OIT should ad-
                                 media should be encrypted to ensure that                 dress, including the following:
                                 conﬁdential or sensitive data is not compro-
                                 mised, and staff should always ensure that any           •	    certain mobile devices have not been
                                 data that is being copied to portable media is                 properly encrypted throughout SEC
                                 encrypted.                                                     headquarters and regional ofﬁces; and

                                     As part of its FISMA work on behalf of               •	    OIT has not implemented a policy requir-
                                                                                                ing the encryption of portable media for
                                 the OIG, C5i conducted a separate evaluation
                                                                                                all Commission headquarters divisions
                                 of the Commission’s encryption program.                        and ofﬁces and regional ofﬁces.
                                 The objective of the encryption evaluation
                                 was to examine the SEC’s implementation of                   Our evaluation determined that OIT
                                 encryption technologies and processes.                   should take steps to ensure that the rollout of
                                                                                          new handheld devices with forced encryption
                                                                                          is completed on schedule. Until this rollout is
                                   Results
                                                                                          completed, the SEC runs the risk that conﬁ-
                                     The OIG’s evaluation found that the SEC              dential or privacy-protected information will
                                 has developed and implemented policies and               be exposed. Further, OIT’s current policy for
                                 procedures surrounding encryption                        encryption is optional, and we found that two
                                 technology and processes. The draft SEC en-              regional ofﬁces do not require its personnel to
                                 cryption policy encompassed the recommen-                encrypt data that is copied to or contained on
                                 dations and best practices contained in Na-              portable media. We determined that the cur-
                                 tional Institute of Standards and Technology             rent policy should be revised to require all re-
                                 800-53, “Recommended Security Controls for               movable media to be encrypted. The existing
                                 Federal Information Systems,” OMB M-06-                  policy of allowing encryption to be optional
                                 16, “Protection of Sensitive Agency                      exposes the SEC to potential breaches in the
                                 Information,” OMB M-07-16, “Safeguarding                 protection of personally identifying
                                 Against and Responding to the Breach of Per-             information and leakage or loss of sensitive
                                 sonally Identiﬁable Information,” and SEC                data. As our evaluation concluded, the best
                                 Regulation 23-2a, “Safeguarding Non-Public               way to protect the Commission’s data is to en-
                                 Information.”                                            sure it is encrypted.

                                     All tools either currently being used or be-
                                 ing considered for use by the SEC for the                     Recommendations
                                 purposes of encryption must be compliant
                                 with Federal Information Processing Stan-                    The OIG issued a report summarizing the
                                 dards (FIPS) 140-2 and 200. Overall, we                  results of the encryption evaluation on March
                                 found that the SEC has a comprehensive en-               26, 2010. The report included three recom-
                                 cryption program that uses “best of breed”               mendations to OIT to improve the
                                 technologies and employs industry best prac-             Commission’s security posture in order to pre-
                                                                                          vent the leakage or loss of sensitive data.


                                                                                    39

SEMIANNUAL REPORT TO CONGRESS
   Management concurred with the recommen-                   Form 13F must be ﬁled within 45 days after
                                 dation to encrypt handheld devices to ensure              the last day of such calendar year and within
                                 the protection of conﬁdential, proprietary or             45 days after the last day of each of the ﬁrst
                                 privacy information that may be contained on              three calendar quarters of the subsequent cal-
                                 the devices. Management, however, did not                 endar year. Section 13(f) mandates that the
                                 concur with the other two recommendations,                Commission tabulate the information con-
                                 which involved revising OIT’s current policy              tained in the quarterly reports and dissemi-
                                 to require all portable media to be encrypted             nate the information to the public.
                                 to eliminate the option for divisions and ofﬁces
                                 to determine if they will encrypt portable me-                The securities that must be reported under
                                 dia. We noted our disagreement with the                   Section 13(f) generally include equity
                                 SEC’s responses and requested that OIT re-                securities that are traded on an exchange or
                                 consider its position and agree to eliminate the          quoted on NASDAQ , equity options and war-
                                 option for divisions and ofﬁces to determine              rants, shares of closed-end investment com-
                                 whether or not they will encrypt portable me-             panies, and some convertible debt securities.
                                 dia, and to encrypt all relevant devices in the           Form 13F requires disclosure of the name and
                                 future.                                                   address of the institutional investment man-
                                                                                           ager ﬁling the report and, for each security
                                                                                           being reported, speciﬁc information, including
                                 PENDING AUDITS AND EVALUATIONS                            the name of the issuer, the class, the Commit-
                                                                                           tee on Uniform Security Identiﬁcation Proce-
                                 Review of the SEC’s Section 13(f)                         dures (CUSIP) number, the number of shares
                                 Reporting Requirements
                                                                                           or principal amount, and the aggregate fair
                                      In 1975, Congress enacted Section 13(f) of           market value.
                                 the Securities Exchange Act of 1934 (the
                                 Exchange Act), 15 U.S.C. § 78m(f), to increase                Pursuant to Commission Rule 24b-2 (17
                                 the public availability of information regard-            C.F.R. § 240.24b-2), an institutional invest-
                                 ing the purchase, sale and holdings of                    ment manager may request conﬁdential
                                 securities by institutional investors. Congress’s         treatment of information reported on Form
                                 intent was for Section 13(f) information to be            13F. Under Section 13(f)(3) of the Exchange
                                 promptly disseminated to the public through               Act, 15 U.S.C. § 78m(f)(3), the Commission
                                 the creation of a central depository of histori-          may prevent or delay the public disclosure of
                                 cal and current data about the investment ac-             the information reported on Form 13F in ac-
                                 tivities of institutional investment managers in          cordance with the Freedom of Information
                                 order to assist investors and government regu-            Act (FOIA), 5 U.S.C. § 552, and shall not dis-
                                 lators. Section 13(f) requires institutional in-          close information identifying securities held by
                                 vestment managers who exercise investment                 the account of a natural person or an estate or
                                 discretion with respect to accounts holding               trust (other than a business trust or investment
                                 certain equity securities having an aggregate             company).
                                 fair market value of $100 million or more on
                                 the last trading day in a calendar year to ﬁle                The OIG is conducting an audit of the
                                 quarterly reports of their holdings with the              Commission’s policies and procedures with
                                 SEC on Form 13F. Under Commission Rule                    respect to the requirements of Section 13(f) of
                                 13f-1, 17 C.F.R. § 240.13f-1, the reports on              the Exchange Act to examine whether the
                                                                                           Commission’s implementation and practices

                                                                                     40

                                 are consistent with Congress’s intent. We will             requirement that a registrant publicly ﬁle all
SEMIANNUAL REPORT TO CONGRESS

                                 also examine the sufﬁciency of the                         contracts material to its business other than
                                 Commission’s existing policies and procedures              those it enters into in the ordinary course of
                                 that implement Section 13(f) and whether the               business. To address the potential disclosure
                                 reporting by institutional investment managers             hardship, the Commission has implemented a
                                                                                            system for allowing companies to request con-
                                 covered by Section 13(f) is appropriately de-
                                                                                            ﬁdential treatment of information ﬁled under
                                 signed to comply with the requirements of
                                                                                            the Securities Act of 1933 (the Securities Act)
                                 that Section. The audit will also include an               and the Exchange Act.
                                 examination of whether the Commission’s
                                 policies and procedures for reviewing and                        Speciﬁcally, Rule 406 under the
                                 processing requests for conﬁdential treatment              Securities Act, 17 C.F.R. § 230.406, and Rule
                                 of information reported under Section 13(f)                24b-2 under the Exchange Act, 17 C.F.R. §
                                 are adequate or require improvement.                       240.24b-2, set forth the exclusive means for
                                                                                            obtaining conﬁdential treatment of
                                                                                            information that is contained in documents
                                 Assessment of the SEC Division of                          ﬁled under the Securities Act and the
                                 Corporation Finance’s Confidential                         Exchange Act, respectively, that would be ex-
                                 Treatment Processes and Procedures                         empt from disclosure under the FOIA.

                                       The federal securities laws generally re-                  The OIG is conducting an audit of the
                                 quire any company that is publicly held or is              Division of Corporation Finance’s policies
                                 registering its securities for public sale to dis-         and procedures pertaining to conﬁdential
                                 close a broad range of ﬁnancial and non-                   treatment requests. Speciﬁcally, the audit will
                                 ﬁnancial information in registration state-                examine the Commission’s procedures for
                                 ments, annual reports and other ﬁlings made                granting conﬁdential treatment requests to
                                 with the Commission.                                       determine whether improvements are needed
                                                                                            and best practices can be implemented for the
                                       Sometimes disclosure of the information              conﬁdential treatment process. We will also
                                 required to be disclosed by the applicable laws            examine whether registrants to which the Di-
                                 or implementing regulations can adversely                  vision of Corporation Finance granted conﬁ-
                                 affect a company’s business and ﬁnancial con-              dential treatment requests adhered to the ap-
                                 dition because of the competitive harm that                plicable rules and requirements.
                                 could result from the disclosure. Such a con-
                                 cern frequently arises in connection with the




                                                                                      41

42
U.S. Securities and Exchange Commission


                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           INVESTIGATIONS
                                           OVERVIEW                                                 The Ofﬁce of Investigations conducts
                                                                                                thorough and independent investigations into
                                               The OIG’s Ofﬁce of Investigations re-            allegations received in accordance with the
                                           sponds to allegations of violations of statutes,     Quality Standards for Investigations of the
                                           rules and regulations, and other misconduct by       Council the of Inspectors General on Integrity
                                           SEC staff and contractors. The misconduct            and Efﬁciency. In instances where it is deter-
                                           investigated ranges from criminal wrongdoing         mined that something less than a full investiga-
                                           and fraud to violations of SEC rules and poli-       tion is appropriate, the Ofﬁce of Investigations
                                           cies and the Government-wide standards of            conducts a preliminary inquiry into the allega-
                                           conduct. The OIG receives complaints                 tion. If the information obtained during the
                                           through the OIG Hotline, an ofﬁce electronic         inquiry indicates that a full investigation is
                                           mailbox or by mail, facsimile or telephone.          warranted, the Ofﬁce of Investigations will
                                                                                                commence an investigation of the allegation.
                                                The most common way complaints were
                                           received during this reporting period contin-            Upon the opening of an investigation, the
                                           ued to be through the OIG Hotline, which             primary OIG investigator assigned to the case
                                           consists of both telephone and web-based             prepares a comprehensive plan of investiga-
                                           complaint mechanisms. Complaints may be              tion that describes the focus and scope of the
                                           made anonymously by calling the Hotline,             investigation, as well as the speciﬁc investiga-
                                           which is staffed and answered 24 hours a day,        tive steps to be performed during the investi-
                                           seven days a week. Complaints may also be            gation. In all investigations, the OIG investi-
                                           made to the Hotline through an online com-           gator interviews the complainant whenever
                                           plaint form, which is accessible through the         feasible and conducts signiﬁcant interviews
                                           OIG’s website. In addition to a mechanism            under oath and on the record. When there is
                                           for the receipt of complaints, the OIG’s web-        any reason to believe a witness will not provide
                                           site also provides the public with an overview       truthful testimony, the OIG investigator pro-
                                           of the work of the Ofﬁce of Investigations, as       vides an appropriate perjury warning. In ad-
                                           well as links to some investigative memoranda        dition, the OIG investigator gives assurances
                                           and reports issued by the Ofﬁce.

                                                                                              43

SEMIANNUAL REPORT TO CONGRESS
   of conﬁdentiality to potential witnesses who              INVESTIGATIONS AND INQUIRIES
                                 have expressed a reluctance to come forward.              CONDUCTED

                                     Where allegations of criminal conduct are             Investigation of the SEC’s Response to
                                                                                           Concerns Regarding Robert Allen
                                 involved, the Ofﬁce of Investigations notiﬁes             Stanford’s Alleged Ponzi Scheme
                                 and works with the Department of Justice,                 (Report No. OIG-526)
                                 including the Federal Bureau of Investigation,
                                 as appropriate. The OIG also obtains neces-                 Opening of the Investigation
                                 sary investigative assistance from the SEC’s
                                                                                               On October 13, 2009, the OIG opened an
                                 Ofﬁce of Information Technology, including
                                                                                           investigation after receiving a letter dated Oc-
                                 the prompt retrieval of employee e-mail ac-
                                                                                           tober 9, 2009, from United States Senators
                                 counts as requested by the OIG investigators
                                                                                           David Vitter (R-Louisiana) and Richard
                                 and forensic analysis of computer hard drives.
                                                                                           Shelby (R-Alabama) requesting that the OIG
                                 The OIG investigative staff meets with the
                                                                                           review, inter alia, the “history of all of the
                                 Inspector General frequently to review the
                                                                                           SEC’s investigations and examinations (con-
                                 progress of ongoing investigations. The OIG
                                                                                           ducted either by the Division of Enforcement
                                 investigative unit also meets periodically with
                                                                                           or by the Ofﬁce of Compliance Inspections
                                 the Commission’s Ethics Counsel to coordi-
                                                                                           and Examinations) regarding [Robert Allen]
                                 nate activities.
                                                                                           Stanford.” The OIG’s investigation focused
                                                                                           on any indications that the SEC had received
                                     Upon completion of an investigation, the
                                                                                           prior to 2006 that Stanford was operating a
                                 OIG investigator prepares a comprehensive
                                                                                           Ponzi scheme or other similar fraud and what
                                 report of investigation that sets forth in detail
                                                                                           actions, if any, the SEC took in response.
                                 the evidence obtained during the investiga-
                                 tion. Investigative matters are referred to the
                                 Department of Justice and SEC management
                                                                                             Scope of the Investigation
                                 as appropriate. In the investigative reports
                                 provided to SEC management, the OIG                           Between October 13, 2009, and February
                                 makes speciﬁc ﬁndings and recommendations,                16, 2010, the OIG made numerous requests
                                 including whether the OIG believes discipli-              to the SEC’s Ofﬁce of Information
                                 nary or other action should be taken. The                 Technology for the e-mails of current and
                                 OIG requests that management report back                  former SEC employees for various periods of
                                 on the disciplinary action taken in response to           time pertinent to the investigation. The
                                 an OIG investigative report within 45 days of             e-mails were received, loaded onto computers
                                 the issuance of the report. The OIG follows               with specialized search tools and searched on
                                 up as appropriate with management to de-                  a continuous basis throughout the course of
                                 termine the status of disciplinary action taken           the investigation. In total, the OIG received
                                 in matters referred by the OIG.                           e-mails of 42 current and former SEC em-
                                                                                           ployees for time periods ranging from 1997 to




                                                                                     44

                                 2009. The OIG estimates that it obtained                Further, the OIG conducted 51 testimo-
SEMIANNUAL REPORT TO CONGRESS
   and searched over 2.7 million e-mails during        nies and interviews of 48 individuals with
                                 the course of its investigation.                    knowledge of facts or circumstances sur-
                                                                                     rounding the SEC’s examinations and/or
                                     On October 27, 2009, the OIG sent com-          investigations of Stanford and his companies.
                                 prehensive document requests to both
                                 Enforcement and OCIE, specifying the
                                 documents and records required to be pro-               Summary of the Results of the
                                 duced for the investigation. The OIG had                Investigation
                                 numerous e-mail and telephonic communica-
                                                                                         The OIG investigation found that the
                                 tions with Enforcement and OCIE regarding
                                                                                     SEC’s Fort Worth ofﬁce was aware since 1997
                                 the scope and timing of the document
                                                                                     that Robert Allen Stanford was likely operat-
                                 requests and responses, as well as meetings to
                                                                                     ing a Ponzi scheme, having come to that con-
                                 clarify and expand the document requests, as
                                                                                     clusion a mere two years after SGC registered
                                 necessary.
                                                                                     as an investment adviser with the SEC in
                                                                                     1995. We found that over the next eight
                                     We carefully reviewed and analyzed the
                                                                                     years, the SEC’s Fort Worth Examination
                                 information received as a result of our docu-
                                                                                     group conducted four examinations of Stan-
                                 ment production requests. These documents
                                                                                     ford’s operations, ﬁnding in each examination
                                 included, but were not limited to, those relat-
                                                                                     that the certiﬁcates of deposit (CDs) issued by
                                 ing to four SEC examinations and two SEC
                                 Enforcement inquiries of Stanford Group             the Antiguan-based Stanford International
                                                                                     Bank (SIB) could not have been “legitimate,”
                                 Company (SGC). In instances when docu-
                                                                                     and that it was “highly unlikely” that the re-
                                 ments were not available concerning a rele-
                                                                                     turns Stanford claimed to generate could have
                                 vant matter, the OIG sought testimony and
                                                                                     been achieved with the purported conserva-
                                 conducted interviews of current and former
                                 SEC personnel with possible knowledge of            tive investment approach.
                                 the matter.
                                                                                         Fort Worth examiners dutifully conducted
                                                                                     examinations of Stanford in 1997, 1998, 2002
                                     The OIG also requested documents from
                                                                                     and 2004, concluding in each case that Stan-
                                 the Financial Industry Regulatory Authority
                                                                                     ford’s CDs were likely a Ponzi scheme or a
                                 (FINRA), including documents concerning
                                                                                     similar fraud. The only signiﬁcant difference
                                 communications between FINRA or its
                                                                                     in the Examination group’s ﬁndings over the
                                 predecessor, the National Association of
                                                                                     years was that the potential fraud grew expo-
                                 Securities Dealers (NASD), and the SEC con-
                                                                                     nentially, from $250 million to $1.5 billion.
                                 cerning Robert Allen Stanford and his com-
                                                                                     While the Fort Worth Examination group
                                 panies (Stanford), and documents concerning
                                                                                     made multiple efforts after each examination
                                 the SEC’s examinations and inquiries of Stan-
                                                                                     to convince the Fort Worth Enforcement pro-
                                 ford. The OIG also received and reviewed
                                                                                     gram (Fort Worth Enforcement) to open and
                                 documents provided by the Stanford Victims
                                                                                     conduct an investigation of Stanford, the OIG
                                 Coalition, including the results of surveys of
                                 Stanford investors conducted by the Stanford        investigation concluded that no meaningful
                                                                                     effort was made by Fort Worth Enforcement
                                 Victims Coalition. The OIG also reviewed
                                                                                     to investigate the potential fraud until late
                                 numerous other publicly available documents.
                                                                                     2005.


                                                                                   45

SEMIANNUAL REPORT TO CONGRESS
       The ﬁrst SEC examination of Stanford                States.” She further concluded that it was
                                 occurred in 1997, two years after SGC regis-            “highly unlikely” that the returns Stanford
                                 tered as an investment adviser with the SEC,            claimed to generate could be achieved with the
                                 when the SEC Fort Worth Examination staff               purported conservative investment approach.
                                 identiﬁed SGC as a risk and target for exami-
                                 nation. After reviewing SGC’s annual audit in               The examiners also were concerned about
                                 1997, a former branch chief in the Fort Worth           the recurring annual “trailer” or “referral” fee
                                 Broker-Dealer Examination group noted that,             that SGC received from SIB for referring CD
                                 based simply on her review of SGC’s ﬁnancial            investors to SIB, which they viewed to be
                                 statements, she “became very concerned”                 “oddly high” and suspicious. This suspicion
                                 about the “extraordinary revenue” from the              was heightened because the examiners found
                                 CDs and immediately suspected the CD sales              that SGC did not maintain books and records
                                 were fraudulent.                                        for the CD sales, and purported to have no
                                                                                         actual information about SIB or the bases for
                                     In August 1997, after six days of ﬁeld work         the generous returns that the CDs generated,
                                 in an examination of Stanford, the Fort Worth           notwithstanding the fact that they were rec-
                                 examiners concluded that the statements made            ommending the CDs to their clients and re-
                                 by SIB in promoting the CDs appeared to be              ceiving these annual recurring fees for their
                                 misrepresentations. The examiners noted that            referrals.
                                 while the CD products were promoted as be-
                                 ing safe and secure, with investments in                     Further, the examiners made the surprising
                                 “investment-grade bonds, securities and Euro-           discoveries of a $19 million cash contribution
                                 dollar and foreign currency deposits” to “en-           that Robert Allen Stanford made personally to
                                 sure safety of assets,” the interest rate, com-         SGC in 1996, and of signiﬁcant loans from
                                 bined with referral fees of between 11 percent          SIB to Stanford personally. The branch chief
                                 and 13.75 percent annually, was simply too              testiﬁed that their discoveries were red ﬂags
                                 high to be achieved through the purported               that made her assume that Stanford “was pos-
                                 low-risk investments.                                   sibly stealing from investors.” In the SEC’s
                                                                                         internal examinations tracking system, the
                                     The branch chief concluded after the 1997           Broker-Dealer Examination group character-
                                 examination that the SIB CDs purported                  ized its conclusion from the 1997 examination
                                 above-market returns were “absolutely ludi-             of SGC as “Possible misrepresentations. Pos-
                                 crous,” and that the high referral fees SGC             sible Ponzi scheme.”
                                 was paid for selling the CDs indicated the in-
                                 vestments were not “legitimate CDs.” The                     The OIG investigation found that in 1997,
                                 Assistant District Administrator for the Fort           the examination staff determined that as a re-
                                 Worth Examination program concurred, not-               sult of their ﬁndings, an investigation of Stan-
                                 ing that there were “red ﬂags” about Stan-              ford by the Fort Worth Enforcement group was
                                 ford’s operations that caused her to believe it         warranted, and referred a copy of their ex-
                                 was a Ponzi scheme, speciﬁcally the fact that           amination report to Fort Worth Enforcement
                                 the “interest that they were purportedly paying         for review and disposition. In fact, when the
                                 on these CDs was signiﬁcantly higher than               former Fort Worth Examination Assistant Dis-
                                 what you could get on a CD in the United                trict Administrator retired in 1997, her parting



                                                                                   46

SEMIANNUAL REPORT TO CONGRESS
   words to the branch chief were, “[K]eep your             ford’s “extremely high interest rates and ex-
                                 eye on these people [referring to Stanford]              tremely generous compensation” in the form
                                 because this looks like a Ponzi scheme to me             of annual recurring referral fees, and the fact
                                 and some day it’s going to blow up.”                     that SGC was so “extremely dependent upon
                                                                                          that compensation to conduct its day-to-day
                                     Despite the examiners’ referral of their             operations,” very suspicious.
                                 serious concern that SGC was part of a Ponzi
                                 scheme, the Fort Worth Enforcement staff did                  The investment adviser examiners also
                                 not open a matter under inquiry (MUI) into               noted during the 1998 examination the com-
                                 the Stanford case until eight months later, in           plete lack of information SGC had regarding
                                 May 1998, and did so only after learning that            the CDs and the SIB investment portfolio that
                                 another federal agency suspected Stanford of             purportedly supported the CDs’ unusually
                                 laundering money. The OIG investigation                  high and consistent returns. The examiners
                                 further found that the only evidence of any              concluded that SGC had “virtually nothing”
                                 investigative action taken by Fort Worth                 that “would be a reasonable basis” for rec-
                                 Enforcement in connection with this MUI was              ommending the CDs to its customers. In fact,
                                 a voluntary request for documents that the               the examiners found that no one at SGC even
                                 SEC sent to SGC in May 1998. We found                    maintained a record of all advisory clients
                                 that after Stanford refused to voluntarily pro-          who invested in the CDs. Accordingly, the
                                 duce numerous documents relating to SGC’s                examiners identiﬁed possible violations of
                                 referrals of investors to SIB, no further inves-         SGC’s ﬁduciary duty as an investment adviser
                                 tigative steps were taken and, in August 1998,           to its clients, noting the afﬁrmative obligation
                                 after being opened for only three months, the            on the part of an investment adviser to em-
                                 MUI was closed.                                          ploy reasonable care to avoid misleading cli-
                                                                                          ents, and that any departure from this ﬁduci-
                                     Fort Worth Enforcement staff reasoned                ary standard would constitute fraud under
                                 that the inquiry was closed due to the lack of           Section 206 of the Investment Advisers Act of
                                 U.S. investors affected by the potential fraud           1940 (Investment Advisers Act).
                                 and the difﬁculty of conducting the investiga-
                                 tion because the staff would have to obtain                  The OIG investigation found, however,
                                 records from Antigua. However, we found                  that the Fort Worth Enforcement staff com-
                                 other, larger, SEC-wide reasons why the Stan-            pletely disregarded the investment adviser ex-
                                 ford matter was not pursued, including the               aminers’ concerns in deciding to close the
                                 preference for “quick hit” cases as a result of          Stanford MUI, and there was no evidence
                                 internal SEC pressure, and the perception                that the Fort Worth Enforcement staff even
                                 that Stanford was not a “quick hit” case.                read the investment advisers’ 1998 examina-
                                                                                          tion report. Notwithstanding this lack of Fort
                                     The OIG investigation also found that in             Worth Enforcement action, by the summer of
                                 June 1998, while the Stanford MUI was open,              1998, it was clear that both the investment
                                 the Fort Worth Investment Adviser Examina-               adviser and broker-dealer examiners knew
                                 tion group began another examination of                  that Stanford was a fraud.
                                 SGC. This investment adviser examination
                                 came to the same conclusions as the broker-                 In November 2002, the SEC’s Investment
                                 dealer examination had reached, ﬁnding Stan-             Adviser Examination group conducted yet


                                                                                    47

SEMIANNUAL REPORT TO CONGRESS
   another examination of SGC. In the 2002 ex-                annual three percent trailer
                                 amination, the investment adviser examiners                commissions paid to SGC.
                                 found that Stanford’s operations had grown
                                 signiﬁcantly in the four years since the 1998                When the investment adviser examiners
                                 examination, from $250 million in investments           raised this issue with SGC, SGC markedly
                                 in the purported fraudulent CDs in 1998, to             changed its representations to the SEC con-
                                 $1.1 billion in 2002. In 2002, the examiners            cerning its due diligence regarding SIB’s CDs.
                                 identiﬁed the same red ﬂags that had been               Previously, SGC represented that it essentially
                                 noted in the previous two examinations: “the            played no role in the investment decisions by
                                 consistent, above-market reported returns,”             SIB. When challenged, however, SGC ofﬁcials
                                 which were “very unlikely” to be able to be             changed their story, and stated that they regu-
                                 achieved with “legitimate” investments; and             larly visited the offshore bank, participated in
                                 the high commissions paid to SGC ﬁnancial               quarterly calls with the Chief Financial Ofﬁcer
                                 advisers for selling the SIB CDs without an             of the bank, and received quarterly
                                 understanding on the part of SGC as to what             information regarding the bank’s portfolio allo-
                                 they were referring.                                    cations (by sector and percentage of bonds/
                                                                                         equity), investment strategies, and top ﬁve eq-
                                     The investment adviser examiners also               uity and bond holdings. SGC also told the ex-
                                 found that the list of CD-holding investors             aminers that information regarding the portfo-
                                 provided by SGC was inaccurate, as the list did         lio allocations was included in SGC’s due dili-
                                 not match up with the total CDs outstanding,            gence ﬁles. Although the investment adviser
                                 based upon the referral fees SGC received in            examiners were surprised and suspicious about
                                 2001. The examiners noted that although they            this discrepancy, and actually contemplated an
                                 did follow up with SGC about this discrepancy,          unannounced visit to SGC to look at the pur-
                                 they never obtained “a satisfactory response,           ported documents, the OIG investigation
                                 and a full list of investors.”                          found that the SEC did not follow up to obtain
                                                                                         or review the newly-claimed due diligence
                                     The 2002 examination report concluded               information.
                                 that SGC was violating Section 206 of the In-
                                 vestment Advisers Act by failing to conduct any              After the examiners began this third ex-
                                 due diligence related to the SIB CDs. The               amination of Stanford, the SEC received mul-
                                 2002 examination report stated:                         tiple complaints from outside entities reinforc-
                                                                                         ing and bolstering the suspicions about Stan-
                                    A review of SGC’s “due diligence”                    ford’s operations. However, the SEC failed to
                                    ﬁles for the SIB [CDs] revealed that                 follow up on these complaints or take any ac-
                                    SGC had little more than the most                    tion to investigate them. On December 5,
                                    recent SIB ﬁnancial statements (year                 2002, the SEC received a complaint letter from
                                    end 2001) and the private offering                   a citizen of Mexico who raised concerns simi-
                                    memoranda and subscription                           lar to those the examination staff had raised.
                                    documents. There was no indication                   The October 28, 2002 complaint to the SEC
                                    that anyone at SGC knew how its                      Complaint Center raised several issues, includ-
                                    clients’ money was being used by SIB                 ing the considerably higher interest rate of the
                                    or how SIB was generating sufﬁcient                  Stanford CDs when compared with the rates
                                    income to support the above-market                   other banks were offering, the fact that Stan-
                                    interest rates paid and the substantial              ford’s returns were steady while other similar
                                                                                         investments were signiﬁcantly down, and the
                                                                                   48

SEMIANNUAL REPORT TO CONGRESS
   fact that SIB’s auditor was in Antigua without           a Ponzi scheme, but the OIG investigation
                                 signiﬁcant regulatory oversight.                         found that nothing was done to pursue either
                                                                                          of them. On August 4, 2003, the TSSB for-
                                      While the examiners characterized the               warded to the SEC a letter that discussed sev-
                                 complainant’s concerns as “legitimate,” the              eral similarities between another Ponzi scheme
                                 OIG investigation found that the SEC did not             and what was known at the time about Stan-
                                 respond to the complaint and did not take any            ford’s operations. Before sending the letter to
                                 action to investigate its claims. We found that          the SEC, the TSSB Director of Enforcement
                                 while an SEC examiner drafted a letter to the            called the SEC to discuss the matter and in-
                                 complainant asking for additional                        formed the SEC that because the Ponzi
                                 information, he was told that Enforcement                scheme the complainant was comparing to
                                 had instead decided to refer the complaint               Stanford was such a large fraud, he needed to
                                 letter to the Texas State Securities Board               bring the concerns regarding Stanford to the
                                 (TSSB) and, thus, the examiner never actually            SEC’s attention. Although the complaint was
                                 sent his draft letter to the complainant.                forwarded to a branch chief in Enforcement,
                                                                                          no action was taken to follow up on it.
                                     In addition, the OIG investigation found
                                 that although the examiners met with Fort                   On October 10, 2003, the NASD for-
                                 Worth Enforcement ofﬁcials in late 2002 to               warded a letter dated September 1, 2003,
                                 attempt to convince Fort Worth Enforcement               from an anonymous Stanford insider, to the
                                 to open an investigation or even an inquiry              SEC’s Ofﬁce of Investor Education and Assis-
                                 into the 2002 examination report’s ﬁndings,              tance (OIEA) which stated, in pertinent part:
                                 Fort Worth Enforcement staff declined to
                                 open a matter and likely never even read the                STANFORD FINANCIAL IS THE
                                 2002 examination report. Moreover, even                     SUBJECT OF A LINGERING
                                 though Fort Worth Enforcement informed the                  CORPORATE FRAUD SCANDAL
                                 examiners that the ﬁndings in the 2002 ex-                  PERPETUATED AS A “MASSIVE
                                 amination report were referred to the TSSB                  PONZI SCHEME” THAT WILL
                                 together with the complaint letter, after inter-            DESTROY THE LIFE SAVINGS
                                 viewing ofﬁcials from the Fort Worth                        OF MANY; DAMAGE THE
                                 Enforcement staff and the TSSB, we found                    REPUTATION OF ALL
                                 that no such referral was made.                             ASSOCIATED PARTIES,
                                                                                             RIDICULE SECURITIES AND
                                     Thus, by 2003, it had been approximately                BANKING AUTHORITIES, AND
                                 six years since the SEC Examination staff had               SHAME THE UNITED STATES
                                 concluded that the SIB CDs were likely a                    OF AMERICA.
                                 Ponzi scheme. During those six years, the
                                 SEC had conducted three examinations which                   The OIG investigation found that while
                                 concluded the Stanford fraud was ongoing                 this letter was minimally reviewed by various
                                 and growing signiﬁcantly, but no meaningful              Fort Worth Enforcement staff, Fort Worth
                                 effort was made to obtain evidence related to            Enforcement decided not to open an investiga-
                                 the potential Ponzi scheme.                              tion or even an inquiry, but to refer it to the
                                                                                          Examination group for yet another examina-
                                     In 2003, the SEC Enforcement staff re-               tion. The Fort Worth Enforcement branch
                                 ceived two new complaints that Stanford was              chief explained his rationale as follows:

                                                                                    49

SEMIANNUAL REPORT TO CONGRESS
      [R]ather than spend a lot of                         were improbable. The examination staff con-
                                    resources on something that could                    cluded that SGC’s sales of the SIB CDs vio-
                                    end up being something that we                       lated numerous federal securities laws and
                                    could not bring, the decision was                    rules, including NASD’s suitability rule; mate-
                                    made to – to not go forward at that                  rial misstatements and failure to disclose ma-
                                    time, or at least to – to not spend the              terial facts, in violation of Rule 10b-5 of the
                                    signiﬁcant resources and – and wait                  Securities Exchange Act of 1934 (Exchange
                                    and see if something else would                      Act); failure to disclose to customers its com-
                                    come up.                                             pensation for securities transactions, in viola-
                                                                                         tion of Rule 10b-10 of the Exchange Act; and
                                      It is not clear what the Fort Worth                possible unregistered distribution of securities
                                 Enforcement staff hoped to gain by “wait[ing]           in violation of Section 5 of the Securities Act
                                 [to] see if something else would come up” af-           of 1933.
                                 ter the SEC had conducted three
                                 examinations of SGC ﬁnding that the SIB                      The 2004 examination report advocated
                                 CDs were likely a Ponzi scheme and received             that the SEC act against SGC for these viola-
                                 three complaints about Stanford. It is also not         tions, in part, because of the difﬁculties in
                                 clear what purpose the Fort Worth                       proving that SIB was operating a Ponzi
                                 Enforcement staff thought would be served by            scheme. One examiner stated that after the
                                 having the examiners conduct a fourth exami-            2004 examination, he believed it was incum-
                                 nation of SGC.                                          bent on the SEC to do whatever it could to
                                                                                         stop the growing fraud, noting that “although
                                     However, the examiners ultimately did just          it may be difﬁcult to prove that the offering
                                 that. In October 2004, the Fort Worth Ex-               itself is fraudulent, SGC has nonetheless
                                 amination staff conducted its fourth examina-           committed numerous securities law violations
                                 tion of SGC. In fact, the broker-dealer Ex-             which can be proved without determining the
                                 amination staff initiated this fourth examina-          actual uses of the invested funds.”
                                 tion of Stanford solely for the purpose of
                                 making another Enforcement referral. By Oc-                 The Examination staff also conducted
                                 tober 2004, approximately seven years since             signiﬁcant investigative work during the seven
                                 the SEC’s ﬁrst examination of SGC, the SEC              months from October 2004 through April
                                 examiners found that SGC’s revenues had in-             2005 to bolster its anticipated Fort Worth
                                 creased four-fold, and sales of the SIB CDs             Enforcement referral. They reached out to
                                 accounted for over 70 percent of those reve-            the SEC’s Ofﬁce of Economic Analysis (OEA)
                                 nues. As of October 2004, SGC customers                 for assistance in expanding the Examination
                                 held approximately $1.5 billion of CDs, with            staff ’s quantitative analysis of Stanford’s his-
                                 approximately $227 million of these CDs be-             torical returns. However, OEA did not assist
                                 ing held by U.S. investors. The 2004 exami-             the examiners with any analysis of Stanford’s
                                 nation report concluded that the SIB CDs                returns. The examiners also contacted an at-
                                 were securities and part of a “very large Ponzi         torney in the SEC’s Ofﬁce of International
                                 scheme.”                                                Affairs (OIA) for information regarding Anti-
                                                                                         gua’s regulation of Stanford. In addition, the
                                     The examiners analyzed the SIB CD re-               examiners interviewed a former registered
                                 turns using data about the past performance             representative of SGC, who told them that
                                 of the equity markets and found that they               the sale of SIB’s CDs was a “Ponzi scheme.”

                                                                                   50

SEMIANNUAL REPORT TO CONGRESS
       However, in March 2005, senior Fort                      The Fort Worth Enforcement staff initially
                                 Worth Enforcement ofﬁcials learned of the                reacted enthusiastically to the referral and
                                 Examination staff ’s work on Stanford and told           opened a MUI (which subsequently converted
                                 them that it was not a matter that Fort Worth            to an investigation) “with [the] hope of bring-
                                 Enforcement would pursue. A Special Senior               ing [a] case quickly.” They also contacted
                                 Counsel in the Broker-Dealer Examination                 OIA to assist them in getting records from SIB
                                 group made a presentation about her ongoing              in Antigua. Further, the Fort Worth
                                 work on Stanford at a March 2005 quarterly               Enforcement staff sent questionnaires to U.S.
                                 summit meeting attended by the SEC, NASD,                and foreign investors in an attempt to identify
                                 and state regulators from Texas and Okla-                clear misrepresentations by Stanford to inves-
                                 homa. She recalled that, immediately after               tors. However, the Enforcement staff almost
                                 her presentation, she got “a lot of pushback”            immediately started raising concerns that the
                                 from both the head of the Fort Worth ofﬁce               matter was too difﬁcult to pursue for various
                                 and head of Fort Worth Enforcement who ap-               reasons. Regarding some of those concerns,
                                 proached her and told her that they were not             one member of the Examination staff
                                 interested in investigating Stanford. Speciﬁ-            e-mailed an Enforcement attorney, stating,
                                 cally, while she was “still standing in the room         “[W]e know the whole thing must be a fraud.
                                 where the presentation had been made,” the               As a result [of the difﬁculties], we’ve just sat
                                 head of the Fort Worth ofﬁce and head of Fort            around for ten years fussing about what is go-
                                 Worth Enforcement approached her and                     ing on at [Stanford].”
                                 “summarily told [her] … it was not something
                                 they were interested in.”                                    By June 2005, the Fort Worth Enforcement
                                                                                          staff had decided to refer the matter to the
                                     As the examiners were preparing a formal             NASD, apparently as a precursor to closing
                                 referral memorandum to the Fort Worth                    the inquiry. They had considered several op-
                                 Enforcement staff in an attempt to ﬁnally con-           tions to obtain further evidence, including a
                                 vince them to open an investigation, it was              request under the Mutual Legal Assistance in
                                 announced that the head of Fort Worth                    Criminal Matters Treaties, which were de-
                                 Enforcement was leaving the SEC. Since he                signed for the exchange of information in
                                 had made it clear that he was not going to in-           criminal matters and administered by the U.S.
                                 vestigate Stanford at the March 2005 meeting,            Department of Justice. However, after the
                                 the examiners waited until he left the SEC to            questionnaires revealed no valuable
                                 forward the referral to Enforcement.                     information, the only tangible action taken
                                                                                          was the sending of a voluntary request for
                                     The 2005 referral memorandum to Fort                 documents to Stanford.
                                 Worth Enforcement characterized the SIB CD
                                 returns as “too good to be true,” noting that                On August 29, 2005, the Fort Worth
                                 “from 2000 through 2002, SIB reported earn-              Enforcement staff sent SIB a voluntary re-
                                 ings on investments of between approximately             quest for documents. However, requesting
                                 12.4% and 13.3% … [while] [t]he indices we               voluntary document production from Stanford
                                 reviewed were down by an average of 11.05%               was a completely futile exercise. Moreover,
                                 in 2000, 15.22% in 2001 and 25.87% in                    the Fort Worth Enforcement staff sent the re-
                                 2002.”                                                   quest to SIB six days after SIB’s attorney
                                                                                          “made it clear that SIB would not be produc-
                                                                                          ing documents on a voluntary basis.” The

                                                                                    51

SEMIANNUAL REPORT TO CONGRESS
   only reason for the staff ’s document request to          based on what they deemed circumstantial
                                 Stanford was apparent in a July 2005 e-mail               evidence that it was a Ponzi scheme. They
                                 from the branch chief, which stated as follows:           also decided that attacking Stanford’s alleged
                                                                                           Ponzi scheme indirectly by ﬁling an action
                                    I feel strongly that we need to make                   against SGC for violations of the NASD’s
                                    voluntary request for docs from                        suitability rule, disclosure failures, or misrepre-
                                    bank. If we don’t and close case,                      sentations would not be worthwhile. Most
                                    and later Stanford implodes, we will                   signiﬁcantly, the Fort Worth Enforcement staff
                                    look like fools if we didn’t even                      did not even consider bringing an action
                                    request the relevant documents.                        against Stanford under Section 206 of the In-
                                                                                           vestment Advisers Act, which establishes fed-
                                    The Enforcement staff sent the request                 eral ﬁduciary standards to govern the conduct
                                 even though it recognized that its efforts to             of investment advisers. Such an action
                                 obtain the requested documents voluntarily                against SGC could have been brought for its
                                 were moot.                                                admitted failure to conduct any due diligence
                                                                                           regarding Stanford’s investment portfolio
                                     After Stanford refused to voluntarily pro-            based upon the complete lack of information
                                 duce documents that would evidence it was                 produced by SGC regarding the SIB portfolio
                                 engaging in fraud, the Fort Worth                         that supposedly generated the CDs returns.
                                 Enforcement staff was poised to close the
                                 Stanford investigation. However, the Exami-                   Had the SEC successfully prosecuted an
                                 nation staff fought to keep the Stanford inves-           injunctive action against SGC for violations of
                                 tigation open. They appealed to the new                   Section 206, it could have completely stopped
                                 head of Fort Worth Enforcement and consid-                the sales of the SIB CDs though the SGC in-
                                 erable time was spent over the next few                   vestment adviser. Further, the ﬁling of such
                                 months in an internal debate in the Fort                  an action against SGC could have potentially
                                 Worth ofﬁce concerning whether to close the               given investors and prospective investors no-
                                 Stanford matter without further investigation.            tice that the SEC considered SGC’s sales of
                                 While the two sides debated whether to con-               the CDs to be fraudulent. A Stanford Victims
                                 duct additional investigation, all agreed that            Coalition survey indicated that approximately
                                 Stanford was probably operating a Ponzi                   95 percent of 211 responding Stanford inves-
                                 scheme. One senior ofﬁcial noted that “[i]t               tors stated that knowledge of an SEC inquiry
                                 was obvious for years that [Stanford] was a               would have affected their decision to invest.
                                 Ponzi scheme.” Another ofﬁcial testiﬁed,                  One Stanford victim said that had she “known
                                 “[E]verybody believed that this was probably              that Stanford Group was ever under investiga-
                                 a Ponzi scheme.”                                          tion by the SEC, [she] would not have bought
                                                                                           at all.” Indeed, a questionnaire that was sent
                                     Finally, in November 2005, the new head               out by Fort Worth Enforcement in June 2005
                                 of Fort Worth Enforcement overruled her                   raised signiﬁcant concerns among Stanford
                                 staff ’s and predecessor’s objections to continu-         investors. A former vice president and ﬁnan-
                                 ing the Stanford investigation and decided to             cial adviser at Stanford from 2004 through
                                 seek a formal order in furtherance of that in-            2007, who later contacted the SEC with con-
                                 vestigation. However, the Fort Worth                      cerns about Stanford, said his phone “lit up
                                 Enforcement staff rejected the possibility of             like a Christmas tree the morning [the SEC
                                 ﬁling an “emergency action” against SIB                   questionnaire] went out.” However, after in-

                                                                                     52

SEMIANNUAL REPORT TO CONGRESS
   vestors received the questionnaire about Stan-          ofﬁces were “heavily judged” by the number
                                 ford, many continued to invest because ﬁnan-            of cases they brought and that it was very im-
                                 cial advisers told them that the fund had been          portant for the Fort Worth ofﬁce to bring a
                                 given “a clean bill of health” by the SEC.              high number of cases. This same person spe-
                                 Stanford ofﬁcials were able to persuasively             ciﬁcally noted that he personally had been
                                 represent that Stanford had been given this             “very outspoken” while at the SEC, but felt he
                                 “clean bill of health” because Stanford had             was “bullet proof ” because of the high num-
                                 been examined on multiple occasions and                 ber of cases that Fort Worth brought and, as a
                                 only been issued routine deﬁciency letters,             result, the Commission “could not get rid of
                                 which it purportedly addressed. However,                him.” The former head of Fort Worth
                                 had a Section 206 action been commenced in              Enforcement also concurred that the “number
                                 2005, it could have put many of Stanford’s              of cases [brought] were extremely important.”
                                 victims on notice that there were regulatory            A Fort Worth Assistant Director who worked
                                 concerns about their investments.                       on the Stanford matter stated:

                                     The OIG investigation found that the de-               Everybody was mindful of stats. …
                                 cision not to even consider a Section 206 ac-              Stats were recorded internally by the
                                 tion was based at least partially on the fact              SEC in Washington. … I think
                                 that the new head of Enforcement was un-                   when I was assistant director, there
                                 aware that the investment adviser Examina-                 was a lot of pressure to bring a lot of
                                 tion staff had done examinations of SGC in                 cases. I think that was one of the
                                 1998 and 2002, and was unaware that SGC                    metrics that was very important to
                                 was a registered investment adviser when the               the home ofﬁce and to the regions.
                                 staff briefed her on the matter in November
                                 2005. In fact, she only learned that SGC had                 The former head of the Fort Worth Ex-
                                 been a registered investment adviser in Janu-           amination program testiﬁed that the former
                                 ary 2010, during her OIG testimony in the               head of Fort Worth Enforcement “was pretty
                                 course of this investigation. Because the               upfront” with the Fort Worth Enforcement
                                 Enforcement staff was not familiar with the             staff about the pressure to produce numbers
                                 ﬁndings of the 1998 and 2002 investment ad-             and communicated to the staff, “I want num-
                                 viser examinations, they were not aware that            bers. I want these things done quick.” The
                                 this option had been documented by the ex-              former head of the Examination program also
                                 aminers on more than one occasion.                      testiﬁed that this pressure for numbers incen-
                                                                                         tivized the Fort Worth Enforcement staff to
                                     The OIG investigation also found evi-               focus on “easier cases” – “quick hits.” Ac-
                                 dence of larger SEC-wide reasons that the               cordingly, as a result of this pressure to pro-
                                 Stanford matter was not pursued over the                duce numbers, anything that did not appear
                                 years. We found that the Fort Worth                     likely to produce a number in a very short pe-
                                 Enforcement program’s decisions not to un-              riod of time got less priority. A former Fort
                                 dertake a full and thorough investigation of            Worth Examination branch chief also testiﬁed
                                 Stanford were due, at least in part, to En-             that the Fort Worth Enforcement staff “were
                                 forcement’s perception that the Stanford case           concerned about the number of cases that
                                 was difﬁcult, novel and not the type favored by         they were making and that perhaps if it wasn’t
                                 the Commission. The former head of the                  a slam-dunk case, they might not want to take
                                 Fort Worth ofﬁce told the OIG that regional             it because they wanted to make sure they had

                                                                                   53

SEMIANNUAL REPORT TO CONGRESS
   enough numbers because that’s what they felt            ciﬁcally recalled that in November 2000, after
                                 the Commission wanted them to do.” The                  Fort Worth brought several Ponzi scheme
                                 OIG investigation found that because Stan-              cases, a senior Enforcement ofﬁcial at head-
                                 ford “was not going to be a quick hit,” Stan-           quarters told him, “[Y]ou know you got to
                                 ford was not considered as high priority of a           spend your resources and time on ﬁnancial
                                 case as easier cases. The former Fort Worth             fraud. What are you bringing these cases
                                 Broker-Dealer Examination group branch                  for?”
                                 chief testiﬁed that the Fort Worth
                                 Enforcement Assistant Director working on                   The OIG investigation also found that the
                                 the Stanford matter “only wanted to bring               SEC bureaucracy may have discouraged the
                                 cases that were slam dunk, easy cases.” At              staff from pursuing novel legal cases. The
                                 one point, the former Fort Worth Broker-                former head of the Fort Worth ofﬁce con-
                                 Dealer Examination group branch chief                   ﬁrmed that the arduous process of getting the
                                 vented her frustration with the Enforcement             SEC staff ’s approval in Washington, D.C., to
                                 staff ’s reluctance to pursue the matter in an          recommend an Enforcement action to the
                                 e-mail as follows:                                      Commission was a factor in deciding which
                                                                                         investigations to pursue. A former branch
                                    I love this stuff. We all are conﬁdent               chief in the examination program stated that
                                    that there is illegal activity but no                she believed that the desire of the Fort Worth
                                    easy way to prove. Before I retire the               Enforcement staff to avoid difﬁcult cases was
                                    Commission will be trying to explain                 partly due to the challenges in dealing with
                                    why it did nothing. Until it falls                   the Commission’s bureaucracy.
                                    apart all we can do is ﬂag it every few
                                    years.                                                   Finally, the OIG investigation revealed
                                                                                         that the former head of Fort Worth
                                     In addition, according to the former head           Enforcement, who played a signiﬁcant role in
                                 of the Fort Worth ofﬁce, senior management              numerous decisions by the Fort Worth ofﬁce to
                                 in Enforcement at headquarters expressed                deny investigations of Stanford, sought to rep-
                                 concern to Fort Worth that they were bringing           resent Stanford on three separate occasions
                                 too many temporary restraining order, Ponzi             after he left the SEC, and represented Stan-
                                 scheme, and prime bank cases, which they re-            ford brieﬂy in 2006 before he was informed by
                                 ferred to as “kick in the door and grab” cases,         the SEC Ethics Ofﬁce that it was improper to
                                 or “mainstream” cases. Fort Worth was told              do so.
                                 to bring more Wall Street types of cases, like
                                 accounting fraud. The former head of Fort                   This former head of Fort Worth
                                 Worth Enforcement told the OIG that when                Enforcement was responsible for: (1) in 1998,
                                 he was hired for his position, Enforcement              deciding to close a MUI opened regarding
                                 management in Washington, D.C., told him to             Stanford after the 1997 broker-dealer exami-
                                 clean up Fort Worth’s inventory and repeat-             nation; (2) in 2002, deciding to forward the
                                 edly told him that Fort Worth’s emphasis                complaint letter to the TSSB and deciding not
                                 should be on accounting fraud cases. He was             respond to the complaint or investigate the
                                 cautioned that Fort Worth was spending way              issues it raised; (3) in 2002, deciding not to act
                                 too much of its resources on “mainstream”               on the Examination staff ’s referral of Stanford
                                 cases, and that those resources would be better         for investigation after its investment adviser
                                 deployed on accounting fraud cases. He spe-             examination; (4) in 2003, participating in a

                                                                                   54

SEMIANNUAL REPORT TO CONGRESS
   decision not to investigate Stanford after re-          matter, asked him during the conversation,
                                 ceiving the complaint letter comparing Stan-            “[C]an you work on this?” and in fact told
                                 ford’s operations to a known Ponzi scheme               him, “I’m not sure you’re able to work on
                                 fraud; (5) in 2003, participating in a decision         this.” Near the time of this call, he belatedly
                                 not to investigate Stanford after receiving the         sought permission from the SEC’s Ethics Of-
                                 complaint letter from an anonymous insider              ﬁce to represent Stanford. The SEC Ethics
                                 alleging that Stanford was engaged in a “mas-           Ofﬁce replied that he could not represent
                                 sive Ponzi scheme;” and (6) in 2005, inform-            Stanford for the same reasons given a year
                                 ing senior Examination staffer that Stanford            earlier and he discontinued his representation.
                                 was not a matter Fort Worth Enforcement
                                 planned to investigate.                                      In February 2009, immediately after the
                                                                                         SEC sued Stanford, this same former head of
                                      Yet, in June 2005, a mere two months af-           Fort Worth Enforcement contacted the SEC
                                 ter leaving the SEC, this former head of the            Ethics Ofﬁce a third time about representing
                                 Fort Worth Enforcement program e-mailed                 Stanford in connection with the SEC matter –
                                 the SEC Ethics Ofﬁce that he had been “ap-              this time to defend Stanford against the law-
                                 proached about representing [Stanford] … in             suit ﬁled by the SEC. An SEC Ethics ofﬁcial
                                 connection with (what appears to be) a pre-             testiﬁed that he could not recall another occa-
                                 liminary inquiry by the Fort Worth ofﬁce” and           sion on which a former SEC employee con-
                                 requested clearance to represent Stanford.              tacted his ofﬁce on three separate occasions
                                 He further stated, “I am not aware of any               trying to represent a client in the same matter.
                                 conﬂicts and I do not remember any matters              After the SEC Ethics Ofﬁce informed him for
                                 pending on Stanford while I was at the Com-             a third time that he could not represent Stan-
                                 mission.”                                               ford, the former head of Fort Worth
                                                                                         Enforcement became upset with the decision,
                                      After the SEC Ethics Ofﬁce denied his              arguing that the matter pending in 2009 “was
                                 June 2005 request, in September 2006, Stan-             new and was different and unrelated to the
                                 ford retained this former head of Fort Worth            matter that had occurred before he left.”
                                 Enforcement to assist with inquiries Stanford           When asked why he was so insistent on repre-
                                 was receiving from regulatory authorities, in-          senting Stanford, he replied, “Every lawyer in
                                 cluding the SEC. He met with Stanford Fi-               Texas and beyond is going to get rich over this
                                 nancial Group’s General Counsel in Stan-                case. Okay? And I hated being on the side-
                                 ford’s Miami ofﬁce and billed Stanford for his          lines.”
                                 time. Following the meeting, he billed 6.5
                                 hours to Stanford on October 4, 2006, for,
                                 inter alia, “review[ing] documentation received           Recommendations in the Report of
                                 from company about SEC and NASD inquir-                   Investigation
                                 ies.” On October 12, 2006, he billed Stanford
                                                                                             The OIG investigation found that the
                                 0.7 hours for a “[t]elephone conference with
                                                                                         former head of Fort Worth Enforcement’s
                                 [Stanford Financial Group’s General Coun-
                                                                                         representation of Stanford appeared to violate
                                 sel] regarding status of SEC and NASD mat-
                                 ters.” In late November 2006, he called his             state bar rules that prohibit a former govern-
                                                                                         ment employee from working on matters in
                                 former subordinate, the Fort Worth Assistant
                                                                                         which that individual participated as a gov-
                                 Director who was working on the Stanford
                                                                                         ernment employee. Accordingly, the OIG

                                                                                   55

SEMIANNUAL REPORT TO CONGRESS
   referred the report of investigation to the               (3)		 the signiﬁcance of the presence or ab-
                                 Commission’s Ethics Counsel for referral to                     sence of United States investors in
                                 the Ofﬁce of Bar Counsel for the District of                    determining whether to open an in-
                                 Columbia and the Chief Disciplinary Counsel                     vestigation or bring an enforcement
                                 for the State Bar of Texas, the states in which                 action that otherwise meets jurisdic-
                                                                                                 tional requirements;
                                 he is admitted to practice law.
                                                                                           (4)		 coordination between the
                                     The OIG also recommended that the                           Enforcement and OCIE on
                                 Chairman carefully review this report’s ﬁnd-                    investigations, particularly those
                                 ings and share with Enforcement management                      investigations initiated by a referral to
                                 the portions of this report of investigation that               the Enforcement by OCIE;
                                 relate to the performance failures by those
                                 employees who still work at the SEC, so that              (5)		 the factors determining when referral
                                 appropriate action (which may include                           of a matter to state securities regula-
                                 performance-based action, if applicable) is                     tors, in lieu of an SEC investigation, is
                                                                                                 appropriate;
                                 taken, on an employee-by-employee basis, to
                                 ensure that future decisions about when to                (6)		 training of Enforcement staff to
                                 open an investigation and when to recom-                        strengthen their understanding of the
                                 mend that the Commission take action are                        laws governing broker-dealers and
                                 made in a more appropriate manner.                              investment advisers; and

                                     The OIG further recommended that the                  (7)		 emphasizing the need to coordinate
                                 Chairman and Director of Enforcement give                       with the Ofﬁce of International Af-
                                 consideration to promulgating and/or clarify-                   fairs and the Division of Risk, Strat-
                                 ing procedures with regard to seven speciﬁc                     egy, and Financial Innovation, as ap-
                                                                                                 propriate, early in the course of
                                 areas of concerns that we identiﬁed in the re-
                                                                                                 investigations.
                                 port. Speciﬁcally, these recommendations in-
                                 cluded that the Chairman and the Director of                  As the OIG’s report of investigation was
                                 Enforcement give consideration to promulgat-              issued just prior to the end of the semiannual
                                 ing and/or clarifying procedures with regard              reporting period, no action had yet been taken
                                 to:                                                       by management with respect to the OIG’s
                                                                                           recommendations.
                                 (1)		 the consideration of the potential
                                       harm to investors if no action is taken
                                       as a factor when deciding whether to
                                       bring an enforcement action, includ-                Allegations of Conflict of Interest,
                                                                                           Improper Use of Non-Public
                                       ing consideration of whether this fac-              Information and Failure to Take
                                       tor, in certain situations, outweighs               Sufficient Action Against Fraudulent
                                       other factors such as litigation risk;              Company (Report No. OIG-496)

                                 (2)		 the signiﬁcance of bringing cases that                  On July 10, 2008, the OIG opened an in-
                                       are difﬁcult, but important to the pro-             vestigation after the former SEC Chairman’s
                                       tection of investors, in evaluating the             Chief of Staff asked the OIG to review alle-
                                       performance of an Enforcement staff                 gations outlined in a Wall Street Journal article
                                       member or a regional ofﬁce;                         about a then soon-to-be released book. The
                                                                                           article outlined several complaints raised in
                                                                                     56

SEMIANNUAL REPORT TO CONGRESS
   the book about the SEC. Speciﬁcally, a for-                  The OIG investigation further found that
                                 mer Enforcement attorney, who aggressively               the author submitted several letters to the
                                 questioned the book’s author about his short-            SEC detailing evidence of the company’s
                                 selling of a company’s stock, began working              overvalued investments and requesting an in-
                                 for that company after he left the SEC. In               vestigation of the company. We found that
                                 addition, the article noted that the company             although OCIE had begun an examination of
                                 obtained a purloined copy of the author’s                the company based upon these allegations,
                                 telephone records. Further, there were con-              Enforcement staff was unaware of the exami-
                                 cerns that the former Enforcement attorney               nation. The OIG investigation also deter-
                                 may have engaged in illegal activity and taken           mined that very soon after Enforcement began
                                 non-public SEC investigatory materials, in-              looking at the allegations against the author,
                                 cluding the author’s telephone records.                  they concluded that there was no credible evi-
                                                                                          dence to demonstrate that his activities vio-
                                     The OIG conducted a comprehensive in-                lated any federal securities laws. However,
                                 vestigation of the allegations outlined in the           although the investigation was, as a practical
                                 book. Speciﬁcally, the OIG obtained and re-              matter, completed by mid-2003, the investiga-
                                 viewed voluminous documents related to this              tion was not formally closed until December
                                 matter, including staff e-mails, work papers             2006, and the author was never notiﬁed that
                                 from an OCIE examination of the company                  he was no longer a subject of investigation
                                 identiﬁed above, and Enforcement documents               despite his request for such notiﬁcation.
                                 pertaining to two relevant investigations. The
                                 OIG took the sworn, on-the-record testimony                  We further found that in 2003, while su-
                                 of eight former and current SEC employees                pervising the investigation against the author
                                 and ofﬁcials, as well as the author of the book.         and others, the former Enforcement attorney
                                 The OIG also conducted on-the-record inter-              was asked to leave Enforcement because of
                                 views of two other SEC ofﬁcials, as well as              performance problems. In October 2004, the
                                 telephone interviews of the former                       former Enforcement attorney began to work
                                 Enforcement attorney.                                    for the company that the author was alleging
                                                                                          had engaged in wrongdoing. The OIG inves-
                                     The OIG investigation revealed that the              tigation disclosed that the former Enforcement
                                 above-referenced company successfully lob-               attorney obtained clearance from the
                                 bied the SEC to begin investigating the author           Commission’s Ethics Ofﬁce to do this work
                                 without speciﬁc evidence of wrongdoing, after            based on representations he made that he had
                                 the author gave a negative speech about the              not worked on any related matters while work-
                                 company. We found that the investigation of              ing at the SEC. However, the evidence
                                 the author was supervised by the former                  showed that he had worked on the investiga-
                                 Enforcement attorney, who went to work for               tion of the author for which the company had
                                 the company a year after he left the SEC. We             lobbied and, in the course of this investiga-
                                 also found that the former Enforcement attor-            tion, learned a substantial amount of sensitive,
                                 ney made numerous, successful efforts to learn           non-public information regarding the author
                                 about the company during the course of that              and the company for which he ended up
                                 investigation.                                           working. On the other hand, the OIG found
                                                                                          no evidence that the former Enforcement at-
                                                                                          torney took any non-public or case-related


                                                                                    57

SEMIANNUAL REPORT TO CONGRESS
   documents with him when he left the SEC.                    The examiner on the examination of the
                                 Nor did we obtain evidence that he received             company testiﬁed that she received consider-
                                 any non-public information from any SEC                 able “pushback” from the Associate Director
                                 employee after he left the SEC.                         with regard to her ﬁndings against the com-
                                                                                         pany. Speciﬁcally, the examiner expressed
                                     The OIG investigation revealed that in              concerns about the method the company util-
                                 March 2005, the author raised concerns that             ized to raise cash to pay dividends, noting that
                                 the company illegally gained access to his              the company had not had sufﬁcient cash from
                                 telephone records. In 2007, after a grand jury          earnings to pay dividends for several years
                                 was convened, the company’s counsel in-                 without the issuance of additional stock. The
                                 formed the SEC and the applicable United                examiner was concerned that the manner in
                                 States Attorney’s Ofﬁce that the former                 which the company was ﬁnancing its divi-
                                 Enforcement attorney had engaged in the of-             dends was akin to a “Ponzi scheme.” Moreo-
                                 fense of pretexting (i.e., impersonating some-          ver, all of the work papers from that examina-
                                 one to obtain his or her telephone records)             tion were later inexplicably deleted from the
                                 against the author on behalf of the company.            OCIE shared computer drive.
                                 The company then ﬁled with the SEC a form
                                 acknowledging that one of its agents had ille-              In April 2004, the record shows that
                                 gally obtained the author’s telephone records,          OCIE referred three ﬁndings from its exami-
                                 although it claimed not to have authorized the          nation of the company to Enforcement, in-
                                 pretexting. The OIG found that the SEC took             cluding the concern about how the company
                                 no action against the company related to the            ﬁnanced its dividends with which the Associ-
                                 pretexting.                                             ate Director disagreed. The OIG determined
                                                                                         that the issue of how the company ﬁnanced its
                                     Moreover, although Enforcement found                dividends was never investigated by
                                 no evidence of wrongdoing against the author            Enforcement. In May 2004, Enforcement ﬁ-
                                 based upon the company’s unsupported alle-              nally began its investigation of the claims
                                 gations, the author’s claims against the com-           raised by the author beginning in May and
                                 pany were validated to a great extent by                June 2002. We found that Enforcement de-
                                 OCIE’s examination. However, the record                 termined by mid-2006 that more than a dozen
                                 shows that OCIE’s examination, which was                of the company’s investments had signiﬁcant
                                 prolonged by delays, was unusual in many                problems with the calculation of their value
                                 ways. Speciﬁcally, it was conducted primarily           and the company had materially overstated its
                                 by only one headquarters examiner with very             net book income in its ﬁlings with the SEC for
                                 close supervision by an Associate Director in           several years.
                                 OCIE. In addition, although the examination
                                 lasted for 18 months, there was no visit to the             However, after investigating the matter for
                                 company’s ofﬁces, even though they were lo-             three years, in June 2007, just after the com-
                                 cated just blocks from the SEC. We also                 pany told the SEC its agent engaged in pre-
                                 found that the Associate Director supervising           texting, the Commission entered into a settle-
                                 the examination knew a company ofﬁcial, who             ment agreement with the company. In that
                                 formerly worked at the SEC, and indicated               agreement, the company agreed to continue
                                 that he trusted her and had the view that any-          to employ a Chief Valuation Ofﬁcer to over-
                                 one who had worked at the SEC was “not go-              see its quarterly valuation process and third-
                                 ing to be doing anything illegal.”                      party valuation consultants to assist in its

                                                                                   58

SEMIANNUAL REPORT TO CONGRESS
   quarterly valuation process for two years. No           (3)		 ensuring that other than traditional
                                 penalties were assessed against the company                   Wells meetings are not utilized by ag-
                                 or any of its ofﬁcers or directors. The OIG                   gressive counsel to inﬂuence decisions
                                 investigation further disclosed that company’s                in Enforcement actions;
                                 counsel had requested and obtained a “pre-
                                                                                         (4)		 incorporating provisions in
                                 Wells” meeting with Enforcement. We found
                                                                                               Enforcement settlement agreements
                                 that during this meeting, a former SEC
                                                                                               that ensure requirements are ade-
                                 Enforcement Director, and other attorneys                     quately monitored for compliance;
                                 representing the company, successfully lobbied
                                 Enforcement not to bring fraud charges                  (5)		 limiting the ability of OCIE personnel
                                 against the company or a company ofﬁcer                       to delete examination work papers
                                 who Enforcement found had overvalued some                     from OCIE computer systems;
                                 of the company’s investments, but instead to
                                 have the company accept a “books and re-                (6)		 ensuring that OCIE management is
                                 cords” charge. We further found that under                    not unduly inﬂuenced by the presence
                                                                                               of former SEC employees in
                                 the settlement with the company, there were
                                                                                               examinations and that all issues iden-
                                 no efforts made by the Commission, or even
                                                                                               tiﬁed as potential federal securities law
                                 any provisions included in the settlement or-                 violations be carefully considered for
                                 der, to monitor compliance by the company                     referral to Enforcement;
                                 with the settlement agreement.
                                                                                         (7)		 documenting the reasons speciﬁc is-
                                     The OIG issued its report of investigation                sues referred to Enforcement from
                                 to management on January 8, 2010. In its                      OCIE are not investigated; and
                                 report, the OIG recommended that the Direc-
                                 tors of OCIE and Enforcement carefully re-              (8)		 ensuring there is no appearance of
                                                                                               impropriety where former SEC staff
                                 view the report of investigation and the his-
                                                                                               attorneys represent a company shortly
                                 tory of the examination and investigations
                                                                                               after their work at the SEC provided
                                 that were described in the report. In addition,               them with speciﬁc and sensitive
                                 the OIG recommended that the Commission                       information related to that company.
                                 give serious consideration to promulgating
                                 and/or clarifying procedures with regard to:                 In response to this report, the agency has
                                                                                         indicated publicly that it intends to implement
                                 (1)		 how examinations and investigations               all of the recommendations outlined in the
                                       are initiated where there are requests            report. As of the end of the semiannual re-
                                       from outside persons or entities, in-             porting period, the agency has submitted for
                                       cluding whether speciﬁc allegations of            OIG review the corrective actions it has com-
                                       wrongdoing have been provided, in
                                                                                         pleted, or plans to complete in the near future.
                                       determining whether to commence an
                                                                                         The OIG is in the process of determining
                                       examination or investigation;
                                                                                         whether the corrective actions fully address
                                 (2)		 informing individuals and entities un-            the OIG’s recommendations.
                                       der investigation that they are no
                                       longer subjects of an investigation in a
                                       timely manner, as required by the
                                       Enforcement Manual;


                                                                                   59

SEMIANNUAL REPORT TO CONGRESS
   Failure to Timely Investigate                               In addition, the OIG investigation found
                                 Allegations of Financial Fraud (Report                  that from February 2005 through September
                                 No. OIG-505)
                                                                                         2007, at least sixteen of the complainant’s al-
                                     On November 16, 2008, the OIG opened                legations were provided to current or former
                                 an investigation into whether the SEC had               staff in Enforcement. However, the OIG in-
                                 vigorously enforced the securities laws with            vestigation further found that the complain-
                                 regard to complaints received from a regis-             ant’s allegations were not reviewed, analyzed,
                                 tered representative about a media company              or investigated over this two-and-a-half-year
                                 registered with the SEC at the time of the              period due to multiple instances of mishan-
                                 complaints.                                             dling and mismanagement.

                                                                                             SEC records and witness testimony
                                      The OIG obtained and reviewed volumi-
                                 nous documents related to this matter, includ-          showed that the complainant’s ﬁrst two com-
                                 ing: (1) the e-mails of 11 current and former           plaints were referred to Enforcement’s Ofﬁce
                                 SEC employees; (2) relevant records main-               of Chief Accountant (Enforcement Account-
                                 tained by the SEC Ofﬁce of Investor Educa-              ing Group), but were not reviewed. The ﬁrst
                                 tion and Advocacy (OIEA); (3) documents                 complaint was received by a legal advisor in
                                 produced by Enforcement related to                      the Enforcement Accounting Group. The le-
                                 investigations of the company from 2002 to              gal advisor sent it to an Enforcement branch
                                 2009; (4) relevant information from Enforce-            chief, who was listed in Enforcement’s data-
                                 ment’s internal case tracking systems;                  base as having an open investigation of the
                                                                                         company. Although the legal advisor speciﬁ-
                                 (5) documents submitted to the OIG by the
                                 complainant; and (6) the ofﬁcial personnel              cally asked the branch chief to let him know if
                                 folders of four current SEC employees. The              his branch was not going to be pursuing the
                                 OIG took sworn, on-the-record testimony of              complaint and the branch chief immediately
                                 the complainant, twelve current SEC employ-             e-mailed back, “I know my branch will not be
                                                                                         pursuing this,” the legal advisor did not take
                                 ees, and one former SEC employee. In addi-
                                 tion, the OIG conducted interviews of four              any further action on the complaint and did
                                 current SEC employees with knowledge of                 not forward it to anyone else in the SEC for
                                 relevant facts in the investigation.                    review or investigation.

                                                                                             The complainant’s second complaint was
                                     The OIG investigation revealed that from
                                 February 2005 through November 2007, the                also received by the legal advisor, who for-
                                 SEC received more than twenty complaints                warded it to the Enforcement Accounting
                                 from the complainant raising serious allega-            Group’s administrative assistant and requested
                                 tions of ﬁnancial fraud about the company.              that this second complaint be added “to the
                                                                                         referral ﬁle.” However, no “referral ﬁle” was
                                 The complaints primarily focused on allega-
                                 tions that the company’s ﬁnancial reporting             created and, although the procedure was for
                                 was delinquent and erroneous, the company’s             the administrative assistant to log complaints
                                 assets were being sold at below market prices,          into the Enforcement Accounting Group’s Fi-
                                 and the company’s management had engaged                nancial and Accounting Referrals Tracking
                                                                                         System, the complainant’s ﬁrst two complaints
                                 in self-dealing. The complainant repeatedly
                                 requested that the SEC stop the proposed ac-            were not entered into the system and were not
                                 quisition of the company by an investor group           reviewed or analyzed.
                                 until the SEC had investigated his allegations.

                                                                                   60

SEMIANNUAL REPORT TO CONGRESS
        SEC records indicated that the complain-           that he had reviewed other complaints during
                                 ant’s third complaint was referred to a former          that time period and that the complainant’s
                                 Enforcement branch chief who had recently               complaints were “always one at the bottom of
                                 left Enforcement to join another SEC ofﬁce.             the pile.” We found that the accountant’s su-
                                 The former branch chief did not recall receiv-          pervisors received periodic updates showing
                                 ing the complaint, and there is no evidence             that the accountant’s review was not com-
                                 that the complainant’s third complaint was              pleted, but took no action to follow up with
                                 ever reviewed.                                          him.

                                     Similar to the complainant’s ﬁrst and sec-              We also found that the Enforcement Ac-
                                 ond complaints, his fourth and ﬁfth com-                counting Group’s referral procedures for
                                 plaints were referred to the Enforcement Ac-            monitoring the progress of referrals of com-
                                 counting Group. The OIG investigation                   plaints like those submitted by the complain-
                                 found that while these complaints were en-              ant were not followed in the 2005-2007 time
                                 tered into the Accounting Group’s tracking              period. For example, regular meetings to de-
                                 system and assigned to an accountant for re-            cide the disposition of referrals were not being
                                 view, they sat unreviewed with the accountant           held and no timelines were established for the
                                 for more than two years.                                triage review process.

                                     The OIG investigation further found that                 Despite the lack of action on his prior
                                 the Enforcement Accounting Group employed               complaints, we found that the complainant
                                 a “referral triage process,” which was intended         continued to submit complaints to the SEC in
                                 to be only a swift initial review to determine          2006. According to SEC records, the com-
                                 whether the complaint was worthy of further             plainant’s sixth, seventh, eighth, and ninth
                                 investigation. For instance, the complainant’s          complaints were submitted to the SEC in
                                 fourth and ﬁfth complaints were assigned to             2006 and 2007 and referred to an
                                 an accountant for triage in or about Septem-            Enforcement staff attorney who had left an
                                 ber 2005. We found that the accountant                  investigative position to assume another posi-
                                 never reviewed or analyzed these complaints.            tion within Enforcement. The staff attorney
                                 The accountant remarked that his impression             testiﬁed that all of the complainant’s com-
                                 was that the complaints “looked real compli-            plaints that the attorney received were for-
                                 cated, like it would require some work,” but            warded to the Assistant Director of the attor-
                                 the work was not performed. One year later,             ney’s former Enforcement group. The OIG
                                 in September 2006, the accountant reported              investigation revealed that these complaints
                                 to his supervisor that the complainant’s com-           were not reviewed, analyzed, or investigated
                                 plaints were one of three uncompleted refer-            by anyone.
                                 rals that he had outstanding at that time and
                                 that he would complete his review of them “as               We found that a failure to properly close
                                 soon as possible.” However, the OIG investi-            an earlier, unrelated investigation of the com-
                                 gation found that over a year after informing           pany or to update staff information in
                                 his supervisor that he would complete his re-           Enforcement databases contributed to the
                                 view “as soon as possible” and two years after          SEC’s failure to review the complainant’s sixth
                                 receiving the complaints, he had still not com-         through ninth complaints. The OIG investi-
                                 pleted his review. The accountant explained             gation revealed that after working in


                                                                                   61

SEMIANNUAL REPORT TO CONGRESS
   Enforcement for years, the staff attorney and             plainant’s sixth complaint (along with his ﬁrst
                                 the Assistant Director working on the unre-               ﬁve complaints) had not been referred to the
                                 lated investigation did not know the proce-               appropriate people within the SEC and, not
                                 dures necessary to close an investigation. We             only was it not being considered very seriously,
                                 also found that it could take up to two years             it was not being considered at all.
                                 for Enforcement’s Ofﬁce of Chief Counsel to
                                 complete the investigation closing process after              SEC records further reﬂected that the
                                 the staff submitted the proper paperwork to               complainant sent his tenth through sixteenth
                                 close an investigation. Moreover, the status of           complaints to the SEC in August and Sep-
                                 investigations and the identity of the staff as-          tember 2007, but the complaints were not
                                 signed to investigations were often not up-               immediately referred for review. In late Sep-
                                 dated in Enforcement databases causing com-               tember 2007, the complainant sent his seven-
                                 plaints to be sent to the wrong SEC personnel.            teenth complaint to an ofﬁcial in the former
                                                                                           SEC Chairman’s Ofﬁce, complaining about
                                     Thus, while the Assistant Director, branch            the SEC’s failure to investigate the company.
                                 chief, and staff attorney working on the unre-            This complaint was then circulated among
                                 lated 2002 investigation of the company had               senior Enforcement personnel, and it was de-
                                 decided to close that investigation, they failed          termined that the complainant’s complaints
                                 to take the necessary steps to formally close it.         should be reviewed. The complainant’s tenth
                                 As a result, the complainant’s sixth, seventh,            through sixteenth complaints were then re-
                                 eighth and ninth complaints were mistakenly               ferred to the Enforcement Assistant Director
                                 sent to the Enforcement attorneys who worked              who had received his earlier complaints (and
                                 on this unrelated, and not formally closed, in-           not reviewed them) and whose group was
                                 vestigation of the company. Because these                 tasked with evaluating the complainant’s alle-
                                 Enforcement attorneys were not actively work-             gations. In October and November 2007,
                                 ing on the unrelated investigation of the com-            staff assigned to the investigation received at
                                 pany, they did not review the complainant’s               least ﬁve additional complaints from the com-
                                 complaints that were sent to them. In addi-               plainant.
                                 tion, the Assistant Director did not inform
                                 anyone that his group was not going to review                 Thus, the OIG investigation found that by
                                 or consider the complaints and, accordingly,              late September 2007, no Enforcement group
                                 the complainant’s complaints were never sent              had reviewed, analyzed, or investigated any of
                                 or referred to another ofﬁce for review or in-            the at least sixteen complaints that the com-
                                 vestigation.                                              plainant had submitted to the SEC from Feb-
                                                                                           ruary 2005 through September 2007.
                                     Meanwhile, despite the fact that no one at
                                 the SEC was reviewing or investigating the                     The OIG investigation also found that af-
                                 complainant’s complaints, the SEC’s Ofﬁce of              ter the complainant contacted the former
                                 Investor Education and Advocacy responded                 Chairman’s Ofﬁce and multiple members of
                                 to the complainant’s sixth complaint in March             Congress, Enforcement ﬁnally conducted an
                                 2006, with a letter stating, “We are taking               appropriate review of the complainant’s com-
                                 your complaint very seriously and have re-                plaints. The OIG investigation found, how-
                                 ferred it to the appropriate people within the            ever, that soon after Enforcement began its
                                 SEC.” In actuality, at that time, the com-                review of the complainant’s complaints, the


                                                                                     62

SEMIANNUAL REPORT TO CONGRESS
   Enforcement attorneys assigned to the investi-           investigation was not closed at that time, at
                                 gation determined that, even if the complain-            least in part, because the supervisory account-
                                 ant’s allegations were true, it was too late to          ant assigned to the investigation, who had
                                 take meaningful action against the company.              been the supervisor responsible for the com-
                                 The Enforcement attorneys determined that                plainant’s unreviewed fourth and ﬁfth com-
                                 the company was no longer a public company               plaints, would not agree that the investigation
                                 registered with the SEC and many of the po-              should be closed. The Enforcement Account-
                                 tential claims would fall outside the statute of         ing Group, which had been tasked with re-
                                 limitations.                                             viewing the complainant’s complaints since
                                                                                          2005, requested even more time to consider
                                     The OIG investigation found that begin-              the complainant’s allegations and to review
                                 ning in late 2007, Enforcement attorneys as-             the company’s ﬁlings. The supervisory ac-
                                 signed to the investigation ﬁnally performed             countant assigned to the investigation of the
                                 the extensive work analyzing the complain-               company agreed in November 2008 that the
                                 ant’s complaints that should have been done              investigation should be closed.
                                 years earlier. Work performed by the staff in-
                                 cluded interviewing the complainant, analyz-                 In January 2009, the Associate Director
                                 ing his complaints, reviewing the company’s              responsible for the investigation requested that
                                 ﬁlings, interviewing the complainant’s ac-               an Enforcement Deputy Director provide a
                                 countant, speaking to other law enforcement              second review of the issues the complainant
                                 organizations familiar with the complainant’s            had raised and determine whether closing the
                                 allegations, and reviewing documents from                investigation was appropriate. After the Dep-
                                 private litigation involving the company.                uty Director independently reviewed the
                                                                                          complainant’s allegations and supporting
                                     The OIG investigation also found that                documentation and interviewed him, the
                                 there were additional investigative steps that           Deputy Director supported the staff ’s decision
                                 the Enforcement staff did not undertake, in-             to close the investigation due to the age of the
                                 cluding requesting the company’s audit work              conduct and the difﬁculty in obtaining evi-
                                 papers and interviewing the company’s execu-             dence. In October 2009, the investigation of
                                 tives. The Associate Director in Enforcement             the company was ofﬁcially closed.
                                 responsible for the investigation testiﬁed that
                                 the additional steps would have been under-                  In summary, the OIG identiﬁed signiﬁcant
                                 taken if they had concluded that a full investi-         ﬂaws in the processes Enforcement used to
                                 gation of the company should have been pur-              handle complaints and to close cases. The
                                 sued.                                                    OIG investigation concluded that from Febru-
                                                                                          ary 2005 through September 2007, multiple
                                     In April 2008, the Enforcement attorneys             complaints by the complainant were mishan-
                                 assigned to the investigation determined that            dled and mismanaged and, consequently,
                                 the investigation of the company should be               these complaints were simply not reviewed,
                                 closed due to the age of the alleged conduct,            analyzed or investigated. The OIG also con-
                                 the fact that the company was no longer a                cluded that by late 2007 and early 2008, when
                                 public company registered with the SEC, and              the complainant’s allegations were ﬁnally re-
                                 a lack of evidence that the company or its ex-           viewed by Enforcement staff, a full investiga-
                                 ecutives had committed fraud. However, the               tion of the company was no longer meaning-


                                                                                    63

SEMIANNUAL REPORT TO CONGRESS
   ful because many of the complainant’s allega-                  As of the end of the semiannual reporting
                                 tions were stale and the company was no                    period, no action had yet been taken by
                                 longer a public company registered with the                management with respect to the OIG’s rec-
                                 Commission.                                                ommendations.

                                     The OIG issued its report of investigation
                                 to management on February 26, 2010. The                    Unauthorized Disclosure of Non-Public
                                 OIG recommended that SEC management                        Information by Regional Office
                                 carefully review the portions of the report that           Attorneys (Report No. OIG-512)
                                 related to performance deﬁciencies by those                    The OIG conducted this investigation fol-
                                 employees who still work at the SEC, so that               lowing disclosure in a criminal trial that two
                                 appropriate action (which may include                      SEC Regional Ofﬁce Enforcement attorneys
                                 performance-based action, as appropriate)                  had communications with a former Federal
                                 could be taken, on an employee-by-employee                 Bureau of Investigation Special Agent (FBI
                                 basis, to ensure that future complaints are bet-           Agent) about ongoing SEC Enforcement
                                 ter handled and that the mistakes outlined in              investigations. The OIG had received a com-
                                 the report are not repeated.                               plaint on January 11, 2008, alleging that a
                                                                                            known ﬁnancial analyst and short-seller (Fi-
                                      In its report of investigation, the OIG also          nancial Analyst) had obtained non-public
                                 made speciﬁc recommendations with respect                  information about ongoing SEC investigations
                                 to the Enforcement complaint-handling sys-                 from employees of the SEC. In addition, the
                                 tem and case-closing process to ensure that                OIG received a subsequent complaint on July
                                 the ﬂaws identiﬁed in our report are remedied.             27, 2009, alleging that certain SEC employees
                                 Speciﬁcally, the OIG recommended that as                   had released non-public information without
                                 part of the ongoing changes being made to                  authorization to the Financial Analyst and his
                                 the SEC’s complaint-handling system and En-                associates.
                                 forcement’s case-closing system, the SEC and
                                 Enforcement ensure that: (1) the databases                     Beginning on November 2, 2004, the FBI
                                 used to refer complaints are updated to accu-              Agent and the Financial Analyst were tried in
                                 rately reﬂect the status of investigations and             the U.S. District Court for the Eastern District
                                 the identity of the staff handling such                    of New York on a variety of criminal charges
                                 investigations; (2) complaints are reviewed,               including fraud, theft, racketeering and con-
                                 responded to, and referred for investigation in            spiracy in connection with short selling of
                                 a timely and appropriate manner; (3) referrals             stocks orchestrated by the Financial Analyst.
                                 are monitored to ensure that they are being                In the course of the criminal trial, the two
                                 actively investigated and that complainants                Regional Ofﬁce Enforcement attorneys were
                                 are being provided with accurate information;              called to testify for the government concerning
                                 (4) cases that are not actively being pursued              their interactions with the FBI Agent and the
                                 are closed promptly; (5) Enforcement staff                 Financial Analyst. During their testimony, the
                                 have access to accurate information about the              two Regional Ofﬁce Enforcement attorneys
                                 status of investigations and the status of staff           both stated they had frequent contacts with
                                 requests to close investigations; and (6) staff at         the FBI Agent concerning ongoing SEC
                                 all levels be appropriately trained in case-               Enforcement investigations.
                                 closing procedures.


                                                                                      64

SEMIANNUAL REPORT TO CONGRESS
        During its investigation, the OIG took             Agent’s inquiries. Moreover, in at least one
                                 sworn testimony of the two Regional Ofﬁce               instance, Enforcement Attorney One ac-
                                 Enforcement attorneys. The OIG also re-                 knowledged that his discussions with the FBI
                                 viewed transcripts of testimony from the                Agent “would have included information
                                 criminal trial of the FBI Agent and the Finan-          about the progress of [an] investigation.”
                                 cial Analyst. The OIG further reviewed:                 These investigations, however, had not yet
                                 (1) online chat transcripts among the Financial         been made public by the Commission. There-
                                 Analyst and his associates; (2) transcripts of          fore, by disclosing information to the FBI
                                 taped telephone conversations among the Fi-             Agent about whether certain companies and
                                 nancial Analyst, his associates, and various            individuals were under investigation,
                                 SEC employees; (3) e-mails between the Fi-              Enforcement Attorney One released non-
                                 nancial Analyst and various SEC employees;              public information to the FBI Agent. The
                                 and (4) telephone logs and notes of conversa-           FBI Agent would then provide this
                                 tions among the Financial Analyst, the FBI              information to the Financial Analyst and his
                                 Agent, and various SEC employees. In addi-              associates, and they would sell short the com-
                                 tion, the OIG extensively reviewed internal             panies’ stock in order to earn illegal proﬁts.
                                 database search histories of the two Regional
                                 Ofﬁce Enforcement attorneys from January                    The OIG investigation found that by re-
                                 2001 through December 2002.                             leasing non-public information to the FBI
                                                                                         Agent, Enforcement Attorney One violated
                                     The OIG investigation found that one of             SEC policy. Under 17 C.F.R. § 203.2,
                                 the Regional Ofﬁce Enforcement attorneys                information obtained relating to investigations
                                 (Enforcement Attorney One) released non-                is deemed non-public unless the Commission
                                 public Commission information to the FBI                makes the information a matter of public re-
                                 Agent. In his testimony before the OIG inves-           cord. Pursuant to17 C.F.R. §§ 203.2 and
                                 tigator, Enforcement Attorney One acknowl-              200.30-4(a)(7), an access request must be in
                                 edged that non-public information included              place or an employee must obtain express
                                 “anything that’s not out in the public domain           authorization from an Assistant Director or
                                 … [and] anything that’s part of an investiga-           above before releasing non-public information
                                 tive record.” Despite Enforcement Attorney              to individuals outside the agency, including
                                 One’s general insistence that he only released          other law enforcement agents. Enforcement
                                 non-public information to the FBI Agent                 Attorney One explicitly acknowledged the
                                 related to one SEC investigation of a publicly-         prohibition against disclosure of non-public
                                 traded company, the OIG found that                      information to unauthorized individuals, but
                                 Enforcement Attorney One disclosed non-                 nonetheless released non-public information
                                 public information to the FBI Agent on multi-           to the FBI Agent because the FBI Agent was
                                 ple other occasions. In fact, Enforcement At-           “a good source” and a “fellow law
                                 torney One testiﬁed that he informed the FBI            enforcement agent.”
                                 Agent on numerous occasions about the exis-
                                 tence of ongoing SEC investigations upon                    The OIG also found that numerous events
                                 requests from the FBI Agent. In addition,               and pieces of information should have raised
                                 Enforcement Attorney One admitted that he               Enforcement Attorney One’s suspicions and
                                 “at least provided the name and telephone               indicated that the FBI Agent did not merely
                                 number of the staff and the fact that it was an         desire to aid Enforcement Attorney One in
                                 open investigation” in response to the FBI              investigating securities fraud. For example,

                                                                                   65

SEMIANNUAL REPORT TO CONGRESS
   the FBI Agent told Enforcement Attorney                lyst and the FBI Agent without an access re-
                                 One that he had traded in the company’s                quest. Although Enforcement Attorney Two
                                 stock and that he had not disclosed this               recognized that “investigations are non-
                                 information to the FBI or the U.S. Attorney in         public,” he admitted telling the Financial Ana-
                                 order to “continue to investigate” the com-            lyst, on at least one occasion, “that the SEC
                                 pany. Enforcement Attorney One also                    was conducting an inquiry of certain people
                                 learned that the FBI Agent worked closely              and a certain company.” Similarly,
                                 with the Financial Analyst, a known short-             Enforcement Attorney Two admitted that he
                                 seller who had been convicted of mail fraud,           disclosed non-public information to the FBI
                                 and that the Financial Analyst ran a website           Agent by informing him that another Re-
                                 that the FBI Agent suggested Enforcement               gional Ofﬁce had an investigation to which the
                                 Attorney One use to ﬁnd potential future SEC           Financial Analyst was “somehow connected.”
                                 investigations. We found that Enforcement              In fact, although Enforcement Attorney Two
                                 Attorney One’s familiarity with the website            stated that he did not recall numerous aspects
                                 should have made him suspicious of the FBI             of his conversations with the FBI Agent, he
                                 Agent’s recommendation because the website             conceded that he knew the information dis-
                                 contained negative information about various           cussed was non-public, insisting that he re-
                                 companies and made short-selling recom-                leased it to the FBI Agent because the Finan-
                                 mendations based upon this negative                    cial Analyst was “not somebody that should be
                                 information.                                           trusted.”

                                      In addition, Enforcement Attorney One                 The OIG investigation concluded that
                                 admitted observing a correlation between the           Enforcement Attorney Two’s release of non-
                                 stocks recommended as short sales on the Fi-           public information to the Financial Analyst
                                 nancial Analyst’s website and those stocks             and the FBI Agent in the absence of an access
                                 about which the FBI Agent requested                    request violated SEC policy. In his OIG tes-
                                 information from Enforcement Attorney One.             timony, Enforcement Attorney Two acknowl-
                                 Despite these suspicious events, Enforcement           edged the SEC policy prohibiting disclosure of
                                 Attorney One believed the FBI Agent “wasn’t            non-public information to unauthorized indi-
                                 just ﬁshing” for information about                     viduals, noting that he would not “go out of
                                 investigations and continued to inform the             [his] way to share non-public information
                                 FBI Agent if there was another investigation           with … the public.” He also explained that he
                                 open for a stock about which the FBI Agent             would require an access request before releas-
                                 inquired. By disregarding the suspicious na-           ing substantive information to law
                                 ture of his communications with the FBI                enforcement ofﬁcials. However, despite these
                                 Agent, Enforcement Attorney One released               statements, Enforcement Attorney Two admit-
                                 non-public information to the FBI Agent,               ted that he disclosed non-public information
                                 which the FBI Agent and the Financial Ana-             to both the Financial Analyst and the FBI
                                 lyst were able to use to generate proﬁts from          Agent without having an access request in
                                 short-selling.                                         place. In doing so, Enforcement Attorney
                                                                                        Two violated the agency’s policy prohibiting
                                     The OIG investigation also found that a            disclosure of non-public information to unau-
                                 second Regional Ofﬁce Enforcement Attorney             thorized persons.
                                 (Enforcement Attorney Two) released non-
                                 public information to both the Financial Ana-

                                                                                  66

SEMIANNUAL REPORT TO CONGRESS
       The OIG issued its report of investigation           views and reviewing many relevant documents
                                 to management on January 12, 2010. In its                provided by the SEC OIG investigators, the
                                 report, the OIG referred these matters to                USAO declined prosecution of the matter in
                                 management for consideration of disciplinary             September 2009, due to the lack of speciﬁc
                                 action against the two Regional Ofﬁce                    evidence of fraud. After the USAO declined
                                 Enforcement attorneys. The OIG also rec-                 prosecution, the other federal agency OIG
                                 ommended that the Regional Ofﬁce conduct                 closed its investigation of the matter. During
                                 training of its Enforcement attorneys on the             our investigation, we obtained and reviewed
                                 prohibitions of providing non-public                     thousands of e-mails of former SEC and con-
                                 information to ofﬁcials outside of the Com-              tractor employees, as well as e-mails for two
                                 mission without an access request.                       current OIT ofﬁcials. In addition, we ob-
                                                                                          tained and reviewed relevant contract and
                                     The OIG has been informed that, as of                award fee documents. The SEC OIG then
                                 March 31, 2010, both Regional Ofﬁce                      completed its investigation, focusing on the
                                 Enforcement attorneys were issued written                SEC’s oversight and management of this con-
                                 counseling memoranda and were required to                tract.
                                 attend training.
                                                                                              The OIG issued its report of investigation
                                                                                          to management on March 29, 2010. Al-
                                 Whistleblower Allegations of                             though the OIG found insufﬁcient evidence
                                 Fraudulently Obtained Award Fees by                      substantiating the allegation that documents
                                 SEC Contractor (Report No. OIG-491)                      were intentionally falsiﬁed, the OIG found
                                      On May 23, 2008, the OIG opened an                  there were serious questions about whether
                                 investigation into allegations of misconduct by          the over $6 million of award fees given to the
                                 a contractor. The SEC awarded a multi-year,              contractor over the contract period were le-
                                 performance-based contract, valued at over               gitimate and properly earned. The OIG de-
                                                                                          termined that for more than ﬁve years of the
                                 $100 million, to the contractor beginning in
                                 2001 through an interagency acquisition                  contract, the contractor’s self-evaluations of its
                                 agreement (IAA) with another federal agency.             performance were largely accepted by the
                                 We commenced our investigation after being               SEC without any veriﬁcation, resulting in the
                                 contacted by the OIG from the other federal              contractor obtaining nearly all of the maxi-
                                 agency, which had already opened an investi-             mum obtainable award fees. The evidence
                                 gation into allegations that the contractor fal-         further showed that the original computer sys-
                                 siﬁed documents in order to obtain higher                tem utilized by the SEC failed to properly
                                 award fees under the contract. The SEC OIG               track data used to determine the contractor’s
                                 initially worked jointly on this investigation           performance and did not allow the SEC to
                                                                                          verify the contractor’s self-evaluations.
                                 with a Special Agent from the other federal
                                 agency OIG and an attorney from the United               Moreover, the OIG found that the contrac-
                                 States Attorney’s Ofﬁce (USAO) for the Dis-              tor’s managers and employees received bo-
                                 trict of Columbia for more than a year.                  nuses tied to the amount of award fees the
                                                                                          contractor received, thereby creating an extra
                                                                                          incentive for the contractor and its employees
                                      The OIG, along with the Special Agent
                                 and USAO attorney, conducted interviews of               to report above-average performance under
                                 six former and current SEC and other federal             the contract.
                                 agency ofﬁcials. After conducting these inter-
                                                                                    67

SEMIANNUAL REPORT TO CONGRESS
       The OIG investigation determined that                 the contractor was altering the metrics to
                                 because of the failure on the part of the SEC             show better compliance with contract re-
                                 to verify the contractor’s self-evaluations, over         quirements, the SEC began to analyze the
                                 the course of the ﬁrst six years of the contract,         data under the new tracking system to deter-
                                 the contractor received $6,139,910 (over 93               mine if this was true. The SEC performed an
                                 percent) of the potential $6,599,325 of total             “audit” in May 2008, which seemed to verify
                                 award fees available. We further found that               the whistleblower’s claims. In August 2008,
                                 there was reason to believe that these award              the SEC announced that the next multi-year
                                 fees were severely inﬂated and not fully earned           contract for outsourced IT services was not
                                 by the contractor. For example, there was evi-            awarded to this contractor.
                                 dence that the contractor excluded unfavor-
                                 able performance data that resulted in skew-                   In all, the OIG found that the SEC failed
                                 ing the data in the contractor’s favor to show a          to adequately manage this contract. The OIG
                                 near perfect performance by the contractor,               investigation revealed that this $150 million
                                 thus generating signiﬁcant award fees. In ad-             contract, which was an essential element of
                                 dition, we discovered that the contractor                 the SEC’s operations, was not given sufﬁcient
                                 changed certain ﬁelds toward improving over-              or high-level attention. For example, no SEC
                                 all metrics on a signiﬁcant portion of reported           Senior Ofﬁcer played any role in overseeing
                                 incidents after they were opened, creating a              the contract; instead, a branch chief was as-
                                 strong suspicion that the contractor was inten-           signed duties as the project manager of the
                                 tionally manipulating data in an attempt to               contract for the ﬁrst several years. In addition,
                                 increase the award fees it received from the              the Ofﬁce of Acquisitions within the SEC’s
                                 SEC.                                                      Ofﬁce of Administrative Services, which gen-
                                                                                           erally oversees contracts and IAAs, had no
                                     The OIG investigation further found that              role in the oversight of this contract, other
                                 after a new, full-time SEC project manager                than initially signing contract documents.
                                 was appointed in late 2006, problems were                 Moreover, insufﬁcient attention was paid to
                                 quickly identiﬁed with the metrics the contrac-           the performance of the contractor for several
                                 tor was reporting. Those metrics were used to             years and its self-evaluations were largely ac-
                                 evaluate how well the contractor was meeting              cepted at face value without veriﬁcation.
                                 the contract requirements, and resulted in the            While the SEC did not have a computer
                                 contractor obtaining the maximum available                tracking system that allowed veriﬁcation of
                                 award fees in numerous cases. Although we                 the contractor’s self-reported performance, the
                                 found that the SEC transitioned to a new                  evidence showed that the contractor’s alleged
                                 computer system six years after the contract              performance was so contrary to industry stan-
                                 began, there were problems with the transi-               dards it should have raised red ﬂags much ear-
                                 tion. Speciﬁcally, the OIG discovered that,               lier in the contract. The lack of sufﬁcient,
                                 until 2008, the SEC was unable to generate                high-level attention by the SEC likely resulted
                                 data to verify the contractor’s self-reported             in the contractor being improperly awarded at
                                 data. It also appears there was no procedures             least some of the more than $6 million addi-
                                 manual until late 2007, after transitioning to            tional fees from SEC funds.
                                 the new system.
                                                                                              The OIG recommended that
                                    The OIG found that after a whistleblower               management ofﬁcials carefully review the re-
                                 came forward in mid-2008 and alleged that                 port of investigation, as well as a recent OIG

                                                                                     68

SEMIANNUAL REPORT TO CONGRESS
   audit on IAAs, Report No. 460, to identify              behavior at certain self-regulatory organiza-
                                 improvements in the manner in which the                 tions (SROs). The OIG interviewed a third
                                 SEC manages and supervises its contracts and            individual, a then-SEC employee who worked
                                 agreements. In addition, the OIG recom-                 under the same supervisor, who corroborated
                                 mended that the SEC:                                    the allegations of the ﬁrst two employees. The
                                                                                         former employee also alleged that he was in-
                                 (1)		 make efforts to recapture the portion             structed, via e-mail, not to communicate with
                                       of additional award fees the contrac-             the Ethics Ofﬁce without ﬁrst contacting his
                                       tor obtained based on potentially in-             supervisor.
                                       accurate information;
                                                                                             Less than three months after the OIG
                                 (2)		 assign staff at the level of the equiva-
                                                                                         opened its investigation, the former em-
                                       lent of Assistant Director or higher, as
                                       well as the Ofﬁce of Acquisitions                 ployee’s supervisor, along with an Assistant
                                       which provides oversight for various              Director and another supervisor, visited the
                                       SEC acquisitions, to all incentive con-           OIG to report that the former employee had
                                       tracts with a value of over $1 million;           conducted an unauthorized scan of 255 com-
                                       and                                               puters at an SRO the week before in possible
                                                                                         violation of federal criminal law. Later that
                                 (3)		 ensure there is a process to validate             same day, the supervisors: (1) transferred the
                                       any additional award fees awarded                 employee to another group; (2) removed his
                                       under contracts.                                  access to the group’s security lab; and (3) re-
                                                                                         trieved his secure laptop and Blackberry. The
                                     As the report was issued just prior to the
                                                                                         employee subsequently resigned from the
                                 end of the semiannual reporting period, no
                                                                                         SEC.
                                 action had yet been taken by management
                                 with respect to the OIG’s recommendations.
                                                                                             During the course of this investigation, the
                                                                                         OIG reviewed numerous e-mails, correspon-
                                                                                         dence, statutes, regulations, and other support-
                                 Inappropriate Conduct by a Current                      ing materials, and also conducted sworn, on-
                                 SEC Employee and Unauthorized
                                 Computer Access by a Former SEC                         the-record testimony of several SEC employ-
                                 Employee (Report No. OIG-508)                           ees. The OIG also consulted with other indi-
                                                                                         viduals, including an SRO employee and the
                                      On December 12, 2008, the OIG opened               SEC Ethics Counsel.
                                 an investigation into a complaint from two
                                 SEC employees, alleging inappropriate con-
                                                                                             After conducting a thorough investigation
                                 duct by an SEC supervisor. The two employ-              into the complainants’ allegations of supervi-
                                 ees speciﬁcally alleged that the supervisor in-         sory misconduct and management’s allega-
                                 structed a former employee not to communi-              tions of misconduct by the former employee,
                                 cate with the SEC Ethics Ofﬁce without ﬁrst             the OIG issued its report of investigation on
                                 notifying him. The employees further alleged
                                                                                         March 29, 2010. In the report, the OIG
                                 that the same supervisor provided inappropri-           found that the supervisor acted inappropri-
                                 ate instructions to his employees before an in-         ately by: (1) instructing his employee not to
                                 spection by suggesting that each inspector              contact the Ethics Ofﬁce, or any other division
                                 strive for a certain minimum number of ﬁnd-             within the SEC or an outside agency, without
                                 ings, and that he engaged in unprofessional             contacting him ﬁrst; and (2) telling his em-

                                                                                   69

SEMIANNUAL REPORT TO CONGRESS
   ployee that he liked to stay “under the radar”                 Finally, the OIG found that the former
                                 of the Ethics Ofﬁce. Speciﬁcally, the OIG                 employee admittedly conducted an unauthor-
                                 found that the supervisor’s instruction not only          ized scan of an SRO’s computer system and
                                 prevented the former employee from obtain-                knew he was in breach of protocol. However,
                                 ing an answer to his legitimate ethics concern,           the OIG determined there was no further ac-
                                 but ran afoul of ethics rules and regulations.            tion that could be taken in the matter because:
                                 This direction could also have the effect of              (1) the former employee declined to speak to
                                 discouraging employees from seeking ethics                the OIG upon advice of the union; (2) he then
                                 advice, which, according to the SEC Ethics                left the SEC before the OIG could complete
                                 Counsel, is contrary to the very purpose for              its investigation; and (3) the OIG contacted
                                 the Ethics Ofﬁce. The supervisor’s instruction            federal criminal authorities, who declined to
                                 was clear, in writing, and undisputed, as was             pursue the matter. The former employee also
                                 his statement that he liked to stay under the             claimed that management’s complaint against
                                 Ethics Ofﬁce’s radar. Further, the supervisor             him to the OIG was in retaliation for his re-
                                 acknowledged that, although he did not in-                porting the ethics incident to management.
                                 tend to discourage his employee from going to             While mindful of the deteriorated work rela-
                                 the Ethics Ofﬁce, it was reasonable for that              tionship between the former employee and his
                                 employee to feel discouraged from doing so.               supervisor, the OIG did not ﬁnd conclusive
                                 Finally, the supervisor informed the OIG that             evidence of retaliation against the former em-
                                 he: (1) gave this instruction; (2) understood             ployee.
                                 that the instruction was inappropriate; (3) no-
                                 tiﬁed management about it and was instructed                  In light of the foregoing, the OIG referred
                                 not to do it again; and (4) apologized to the             the matter to management for consideration
                                 former employee, which the former employee                of disciplinary action against the supervisor.
                                 acknowledged.                                             As the report was issued just prior to the end
                                                                                           of the semiannual reporting period, no action
                                     The OIG found also that, prior to an in-              had yet been taken by management with re-
                                 spection at a stock exchange, the supervisor              spect to the OIG’s recommendation.
                                 instructed certain employees to strive for a cer-
                                 tain minimum number of ﬁndings in each in-
                                 spection area, stating that these were his ex-            Disclosures of Non-Public
                                 pectations. The OIG found that these pre-                 Procurement Information and Lack of
                                                                                           Candor at Headquarters (Report No.
                                 inspection instructions suggesting that em-               OIG-515)
                                 ployees strive for a certain minimum number
                                 of ﬁndings inappropriate because they could                   On April 13, 2009, we opened an investi-
                                 have the effect of impairing an inspector’s ob-           gation as a result of information received from
                                 jectivity, which is required by generally ac-             several anonymous complaints made through
                                 cepted government auditing standards. The                 the OIG’s hotline. The complaints alleged
                                 OIG also obtained, and found credible, the                that an Ofﬁce of Financial Management
                                 accounts of certain SEC employees, as well as             (OFM) manager disclosed non-public pro-
                                 an SRO employee, that the supervisor may                  curement information relating to the contract
                                 have taken certain disagreements with SRO                 bids for a support project to an SEC contrac-
                                 personnel too far and may have, at times, lost            tor. The complaints further alleged that cer-
                                 his composure.                                            tain OFM staff had been awarding contracts
                                                                                           to their friends at various consulting ﬁrms.

                                                                                     70

SEMIANNUAL REPORT TO CONGRESS
       During the course of this investigation, the         for the OFM manager and removal from the
                                 OIG took sworn testimony of ﬁve SEC em-                  contract for the SEC contractor. As of the
                                 ployees, including two senior managers (one              end of the reporting period, no action had yet
                                 who is no longer employed at the SEC) and an             been taken by management with respect to the
                                 SEC contractor. In addition, the OIG inter-              OIG’s recommendations. In addition, be-
                                 viewed an OFM manager.                                   cause the OFM manager’s disclosure of non-
                                                                                          public procurement information appeared to
                                     After conducting a thorough investigation            violate a criminal statute, we referred his con-
                                 into the complainant’s allegations, the OIG              duct to the United States Attorney’s Ofﬁce for
                                 issued its report of investigation on November           the District of Columbia, and that referral
                                 24, 2009, ﬁnding that that the OFM manager               was pending at the end of the reporting pe-
                                 had disclosed non-public information to an               riod.
                                 SEC contract employee regarding the support
                                 project. The OIG found that the OFM em-
                                 ployee violated 41 U.S.C. § 423 by disclosing            Misuse of Government Resources and
                                 contractor bid or proposal information. We               Official Time at Headquarters (Report
                                 further found that the OFM manager was not               No. OIG-517)
                                 completely truthful in his testimony to the                  The OIG opened this investigation on
                                 OIG.                                                     June 8, 2009, after receiving information that
                                                                                          an employee in the Ofﬁce of Administrative
                                      Moreover, the OIG found that the SEC                Services (OAS) was using substantial SEC re-
                                 contractor disclosed the non-public                      sources and ofﬁcial time in support of a non-
                                 information he had learned from the OFM                  proﬁt business.
                                 manager to his wife, who was the general
                                 counsel for one of the bidders in the pro-                    The OIG obtained, searched and re-
                                 curement, and that this information provided             viewed the employee’s e-mails for the relevant
                                 the SEC contractor’s wife’s company an op-               period. The OIG also took the on-the-record
                                 portunity to recompete for the contract. Ac-             testimony or interviewed ﬁve SEC employees,
                                 cordingly, the OIG investigation found that              including the subject of the investigation. In
                                 the SEC contractor violated provisions of a              addition, the OIG reviewed the applicable
                                 non-disclosure agreement he had signed, in               Government-wide standards of conduct and
                                 which he expressly agreed to be bound by the             SEC rules and guidance regarding employees’
                                 Commission’s Conduct Regulation, 17 C.F.R.               use of SEC e-mail and other government re-
                                 § 200.753(b)(7), and not disclose any conﬁden-           sources.
                                 tial or non-public information to which he had
                                 access during the performance of his duties                  The OIG investigation found that for sev-
                                 under his contract to any unauthorized per-              eral years, the OAS employee used substantial
                                 son. The OIG’s investigation did not substan-            Commission resources and ofﬁcial time in
                                 tiate additional allegations that OFM staff              support of her non-proﬁt business. The
                                 members improperly awarded contracts to                  OIG’s review of her SEC e-mail records dur-
                                 their friends.                                           ing the relevant period revealed that approxi-
                                                                                          mately 1,500 of her e-mails related to that
                                     In light of the foregoing ﬁndings, the OIG           business. In fact, the employee admitted un-
                                 referred this matter to management for disci-            der oath that she had used her SEC computer
                                 plinary action, up to and including removal              “a lot” for her non-proﬁt business. Addition-
                                                                                    71

SEMIANNUAL REPORT TO CONGRESS
   ally, the OIG learned that she also received            the edges” of the case, and continued to con-
                                 numerous faxes at the SEC regarding the non-            trol it. According to the complainant, this at-
                                 proﬁt business.                                         torney “afﬁrmatively went out of his way to
                                                                                         manipulate the situation” against the com-
                                     The investigation further found that, al-           plaint, creating a “poisonous record” in the
                                 though she has been repeatedly admonished               case.
                                 by her supervisors to stop doing so, the em-
                                 ployee continued to operate her non-proﬁt                   The complainant’s speciﬁc allegations in-
                                 business during her duty hours and using gov-           cluded that: (1) at court-ordered settlement
                                 ernment resources. Moreover, the OIG found              discussions before a mediator, the
                                 that the employee’s devotion of time to her             Enforcement attorney refused to recommend
                                 non-proﬁt business contributed to inadequate            the proposed settlement to his superiors, lead-
                                 job performance on her part.                            ing the mediator to accuse the attorney of not
                                                                                         negotiating in good faith and wasting every-
                                     Accordingly, the OIG concluded that, for            one’s time; (2) the Enforcement attorney re-
                                 years, the OAS employee knowingly and re-               fused to be in the room during the complain-
                                 peatedly violated SEC and Executive Branch              ant’s deposition, but controlled what was oc-
                                 policies and regulations regarding appropriate          curring in the deposition from behind the
                                 use of government ofﬁce equipment and                   scenes by speaking with the staff attorney dur-
                                 information technology resources. The OIG               ing long breaks in the deposition; (3) Enforce-
                                 issued its report of investigation to                   ment attorneys improperly failed to provide a
                                 management on December 16, 2009, and                    previous transcript of a witness’s testimony
                                 recommended disciplinary action against the             until the night before the witness’s deposition;
                                 employee, up to and including dismissal.                (4) Enforcement attorneys mishandled a
                                 Management had proposed a suspension of                 document at trial and falsely accused the
                                 the employee, but it was not ﬁnalized by the            complainant of fabricating the document; and
                                 end of the semiannual reporting period.                 (5) Enforcement unfairly charged the com-
                                                                                         plainant, while not charging a more culpable
                                                                                         party. The complainant subsequently raised
                                 Allegations of Conflict of Interest and                 an additional claim that OCIE had conducted
                                 Investigative Misconduct (Report No.                    an unauthorized examination of the com-
                                 OIG-470)                                                plaint’s investment advisory ﬁrm because it
                                     During the reporting period, the OIG                was not a registered entity.
                                 completed a comprehensive investigation into
                                 allegations that a supervisory SEC                          During its investigation, the OIG took ex-
                                 Enforcement attorney participated in an inves-          tensive sworn testimony of the complainant,
                                                                                         interviewed the complainant over the tele-
                                 tigation notwithstanding a personal conﬂict of
                                 interest that required his recusal from the in-         phone and in person, and had numerous addi-
                                 vestigation and that various misconduct oc-             tional communications with the complainant
                                 curred during the course of the investigation           by telephone and e-mail. The OIG also took
                                 and subsequent litigation. The complainant              the sworn testimony of three current or for-
                                                                                         mer Enforcement attorneys, and interviewed
                                 alleged that, despite the conﬂict of interest,
                                 the Enforcement attorney continued to be in-            nine other witnesses, including three former
                                 volved in the investigation, “working around            Enforcement supervisory attorneys and the


                                                                                   72

SEMIANNUAL REPORT TO CONGRESS
   complainant’s former counsel. The OIG also              These included allegations that the
                                 consulted with the SEC Ofﬁce of Ethics                  Enforcement attorney with the alleged conﬂict
                                 Counsel and OCIE. In addition, the OIG                  of interest improperly and secretly controlled
                                 obtained and reviewed e-mails of seven cur-             what was occurring during the complainant’s
                                 rent or former Enforcement attorneys for the            deposition by speaking with the staff attorney
                                 pertinent time periods, and reviewed relevant           during long breaks in the deposition;
                                 documents, including numerous court plead-              Enforcement attorneys improperly withheld a
                                 ings and documents provided by the com-                 witness’s investigative transcript until the night
                                 plainant. Further, the OIG reviewed and ana-            before the witness’s deposition; Enforcement
                                 lyzed the pertinent provisions of the Stan-             attorneys mishandled a document at trial and
                                 dards of Ethical Conduct for Employees of               falsely accused the complainant of fabricating
                                 the Executive Branch, the Commission’s Can-             this document; and OCIE conducted an un-
                                 ons of Ethics and the Commission’s Conduct              authorized examination of the complainant’s
                                 Regulation.                                             ﬁrm.

                                     On February 24, 2010, the OIG issued a                   Finally, the OIG’s investigation did ﬁnd
                                 76-page report of investigation, ﬁnding that            evidence showing that Enforcement never
                                 the supervisory Enforcement attorney who                made any actual decision as to whether it
                                 allegedly had the conﬂict of interest had made          should recommend charges against another
                                 disclosures to an Enforcement ethics ofﬁcial            party, although we did not ﬁnd this necessarily
                                 and his supervisors concerning his previous             meant it was unfair for the SEC to charge the
                                 history with the complainant. Further, the              complainant. The evidence showed that the
                                 OIG found that the Enforcement attorney’s               Enforcement staff continued to investigate the
                                 supervisors considered and addressed on more            other party after the case was ﬁled against the
                                 than one occasion whether he should continue            complainant, but became occupied with other
                                 to participate in the matter. We also found             cases and the matter was dropped. Accord-
                                 insufﬁcient evidence to substantiate the claim          ingly, we recommended that Enforcement in-
                                 of actual animosity towards or bias against the         stitute appropriate procedures to ensure that,
                                 complainant on the part of the Enforcement              where Enforcement has indicated to the
                                 attorney. Nonetheless, because of the percep-           Commission that it is continuing to consider
                                 tion by the complainant and his counsel of              recommending charges against an individual
                                 animosity on the Enforcement attorney’s part,           or entity, a decision on the matter be made,
                                 which was based in large part on the attor-             documented, and approved at an appropriate
                                 ney’s conduct at the mediation that took place          supervisory level. Management action on the
                                 in the Enforcement case, the OIG concluded              OIG’s recommendations was pending as of
                                 that it would have been better if the attorney          the end of the semiannual reporting period.
                                 had not participated in the matter. Therefore,
                                 the OIG’s report recommended that
                                 Enforcement attorneys be instructed to exer-            Allegations of Enforcement Failure to
                                 cise caution in these types of decisions in the         Investigate (Report No. OIG-521)
                                 future.
                                                                                            The OIG opened an investigation on
                                                                                         August 6, 2009, after receiving an investor
                                     The OIG investigation further found in-
                                                                                         complaint from the ofﬁce of Senator Charles
                                 sufﬁcient evidence to support other allegations
                                                                                         E. Grassley (R-Iowa), alleging that a “bear
                                 of staff misconduct made by the complainant.

                                                                                   73

SEMIANNUAL REPORT TO CONGRESS
   raid” against a manufacturer that took place              mined that the complainant’s allegations that
                                 in 2009, resulting in a 65 percent drop in the            conﬂicts of interest tainted the product ap-
                                 company’s stock price within 75 seconds. Ac-              proval process were not within the OIG’s ju-
                                 cording to the complainant, an Internet mes-              risdiction to investigate. Finally, the OIG pro-
                                 sage board posting warned of the bear raid in             vided Enforcement staff with the complain-
                                 advance of the precipitous fall in the stock              ant’s numerous materials, and will continue to
                                 price. The complainant further alleged that               monitor the progress of Enforcement’s inves-
                                 the SEC failed to investigate this bear raid, as          tigation of possible market manipulation
                                 well as additional instances of misconduct in             related to the Internet message board posting.
                                 connection with the review, and eventual non-
                                 approval, of a company product. The com-
                                 plainant also alleged that certain non-SEC                Allegations of Retaliatory Action by
                                 government employees were responsible for                 Enforcement Staff (Report No.
                                 serious improprieties in the product approval             OIG-487)
                                 process and, due to conﬂicts of interest,                     On April 6, 2008, the OIG opened an in-
                                 should never have been allowed to participate             vestigation into allegations received from a
                                 in the process. The focus of the OIG’s inves-
                                                                                           shareholder of a publicly-traded company.
                                 tigation was to determine whether the SEC                 The trading of this company’s securities was
                                 had, in fact, failed to investigate the possible          the subject of an SEC Enforcement investiga-
                                 manipulation of the company’s stock, in the               tion. The complainant alleged that: (1) the
                                 form of a bear raid, as alleged.                          Enforcement staff ’s investigation of this com-
                                                                                           pany’s former CEO for improprieties in the
                                      During the course of this investigation, the         trading of its stock was conducted in retalia-
                                 OIG reviewed numerous pages of correspon-                 tion for the complainant and the CEO having
                                 dence and supporting materials provided by                complained about naked short selling in the
                                 the complainant, including approximately 200              company’s stock; and (2) the Enforcement staff
                                 e-mails and many attachments thereto. The                 improperly sought the disbarment of an at-
                                 OIG also reviewed internal SEC case tracking              torney in retaliation for the attorney having
                                 reports for evidence of SEC investigative ac-             assisted the CEO in transferring the com-
                                 tivity. Finally, the OIG interviewed the com-             pany’s stock.
                                 plainant, as well as two Enforcement staff
                                 members in an effort to determine whether
                                                                                                During the course of this investigation, the
                                 there was an investigation into the alleged               OIG took the sworn, on-the-record testimony
                                 bear raid on the company’s stock.                         of the complainant and the Enforcement staff
                                                                                           attorney who conducted the investigation into
                                     After conducting a thorough investigation             the trading of the company’s securities. The
                                 into the complainant’s allegations against the            OIG also interviewed a representative of a
                                 SEC, the OIG issued its report to                         state legal bar. In addition, the OIG reviewed
                                 management on December 9, 2009. In the                    numerous items, including: (1) the memoran-
                                 report, we determined that the SEC was, in                dum seeking formal order authority for the
                                 fact, actively investigating the speciﬁc instance         Enforcement staff to investigate trading in the
                                 of market manipulation identiﬁed by the
                                                                                           company’s securities; (2) the memorandum
                                 complainant, namely, the alleged bear raid                recommending that the Commission accept a
                                 against the company’s stock. We also deter-               settlement offer from the CEO; (3) a docu-


                                                                                     74

SEMIANNUAL REPORT TO CONGRESS
   ment subpoena from the Enforcement staff to              Allegation of Preferential Treatment of
                                 the company’s transfer agent; (4) Enforcement            a Former SEC Attorney (Report No.
                                 database records concerning the investigation;           OIG-528)
                                 (5) the Commission’s litigation release pertain-             The OIG opened an inquiry on Novem-
                                 ing to its civil action against the CEO; (6)             ber 18, 2008, after receiving an investor com-
                                 news articles and a public ﬁling concerning              plaint alleging that over 50,000 investors of a
                                 the company’s actions against short sellers;
                                                                                          publicly-traded company had been defrauded
                                 and (7) on-line databases of state legal bars.           by the company, suffering losses of $250 mil-
                                                                                          lion. The complainant also questioned why
                                     The OIG investigation did not ﬁnd evi-               SEC ofﬁcials had failed to name the com-
                                 dence substantiating the allegation that the             pany’s former outside counsel, who was a
                                 naked short selling complaints made by the               former SEC Enforcement attorney, as a de-
                                 complainant and the CEO led to, or inﬂu-                 fendant in the SEC’s civil complaint ﬁled in
                                 enced, the SEC Enforcement staff ’s investiga-           U.S. District Court. The complainant speciﬁ-
                                 tion of trading in the company’s securities. In          cally alleged that during the former
                                 fact, the OIG found evidence that the investi-           Enforcement attorney’s tenure as the com-
                                 gation was opened because of a referral by the           pany’s attorney, he signed off on opinion let-
                                 National Association of Securities Dealers               ters that resulted in the fraudulent issuance of
                                 Regulation (NASDR) (which is now the Fi-                 over 300 billion shares of the company’s stock,
                                 nancial Industry Regulatory Authority).                  but that he was not charged in the SEC’s law-
                                 Moreover, the OIG found that the NASDR                   suit. After conducting an initial inquiry into
                                 referral and the opening of the Enforcement              the allegations, the OIG opened an investiga-
                                 staff ’s investigation in 1999 predated the              tion of the matter on November 25, 2009.
                                 complainant’s and the CEO’s earliest com-
                                 plaints about naked short selling of the com-                During the course of this investigation, the
                                 pany’s stock.                                            OIG obtained, searched and reviewed nearly
                                                                                          2,000 e-mails and supporting materials. The
                                     Further, the OIG investigation found no              OIG also conducted sworn, on-the-record tes-
                                 evidence to substantiate the allegation that the         timony of the Enforcement attorneys who
                                 Enforcement staff attempted to have an attor-            conducted the Enforcement investigation of
                                 ney disbarred in connection with its investiga-          the company to determine whether the former
                                 tion. The records of the state legal bar evi-            Enforcement attorney received preferential
                                 denced the fact that the lawyer’s license was            treatment.
                                 suspended for reasons unrelated to the
                                 Enforcement staff ’s investigation long before                After conducting a thorough investigation
                                 the staff contacted the state bar in connection          into the complainant’s allegation of preferen-
                                 with the lawyer’s testimony to the staff.                tial treatment by Enforcement, the OIG issued
                                                                                          its report of investigation to management on
                                     The OIG issued its report of investigation           March 16, 2010. In the report, the OIG
                                 to management on November 20, 2009. In                   found no evidence to suggest that the former
                                 the report, we determined that there was no              Enforcement attorney’s employment with the
                                 evidence that Enforcement staff committed                SEC, which lasted a total of only 15 months,
                                 the alleged wrongdoing.                                  had any bearing on Enforcement’s decision
                                                                                          not to charge him in the federal lawsuit


                                                                                    75

SEMIANNUAL REPORT TO CONGRESS
   against the company. To the contrary, the                     The OIG conducted an investigation of
                                 evidence demonstrated that Enforcement staff             the complainant’s allegations to the extent
                                 seriously considered the question of whether             they fell within the OIG’s jurisdiction. The
                                 to charge the attorney, weighing the pros and            OIG met with the complainant and his attor-
                                 cons of bringing an action against him in an             ney, and interviewed ofﬁcials in Enforcement’s
                                 attempt to resolve what could fairly be consid-          Ofﬁce of Collections, Distributions and Fi-
                                 ered a “tough call.” The OIG found that                  nancial Management (Ofﬁce of Collections)
                                 Enforcement investigated the matter in good              regarding the complainant’s claim that the
                                 faith and made its charging decisions on rea-            SEC was attempting to collect more than he
                                 sonable grounds. In light of these ﬁndings,              owed. The OIG also interviewed the
                                 the OIG closed the matter without making                 Enforcement trial attorney who had litigated
                                 any referral to management.                              the SEC’s action against the complainant, and
                                                                                          conducted follow-up interviews with both the
                                                                                          trial attorney and Ofﬁce of Collections ofﬁ-
                                 Allegations of Improper Staff Conduct                    cials. In addition, the OIG contacted an ac-
                                 During Litigation and Collection                         count executive from the U.S. Department of
                                 (Report No. OIG-527)                                     the Treasury (Treasury). Further, the OIG
                                      On September 17, 2007, the ofﬁce of                 reviewed numerous pages of correspondence
                                 Senator Bill Nelson (D-Florida) forwarded to             and supporting materials provided by the
                                 the OIG a letter from a complainant alleging             complainant, as well as the civil and criminal
                                 that SEC staff had engaged in misconduct                 court records for the complainant’s various
                                                                                          civil, criminal and appellate actions, including
                                 during the course of civil proceedings and
                                 related criminal proceedings against the com-            the numerous pleadings and orders ﬁled
                                 plainant. In March 2000, the SEC was                     therein.
                                 granted summary judgment in a civil action
                                 brought against the complainant for operating                 After conducting a thorough investigation
                                                                                          into the complainant’s allegations against the
                                 a Ponzi scheme. Pursuant to that judgment,
                                 the complainant was ordered, inter alia, to dis-         SEC, the OIG issued its report of investiga-
                                 gorge approximately $24 million in ill-gotten            tion on November 20, 2009. The OIG found
                                 gains. The complainant then pled guilty in a             no evidence substantiating the complainant’s
                                 related criminal matter and was sentenced to             allegations of SEC staff misconduct and, simi-
                                                                                          larly, found no evidence that the staff at-
                                 ﬁve years in prison with three years supervised
                                 probation. The OIG responded to the com-                 tempted to collect more from the complainant
                                 plainant’s letter and continued to receive addi-         than he owed. However, the OIG did ﬁnd
                                 tional letters from the complainant forwarded            that the complainant received a series of let-
                                 by members of Congress. The complainant’s                ters that, collectively, were confusing with re-
                                                                                          spect to how much he actually owed. Conse-
                                 letters alleged that: (1) SEC and non-SEC
                                 employees engaged in misconduct in connec-               quently, the OIG recommended that the Of-
                                 tion with the SEC’s case against him and                 ﬁce of Collections contact the complainant’s
                                 companies he once controlled; and (2) the                counsel to: (1) clarify the amount of debt re-
                                 aforementioned misconduct resulted in a                  ferred to Treasury for collection and the date
                                                                                          of the referral; (2) clarify what portion of the
                                 fraud upon the federal courts that adjudicated
                                 his civil and criminal cases.                            debt consisted of penalties and interest;
                                                                                          (3) explain how penalties and interest were


                                                                                    76

SEMIANNUAL REPORT TO CONGRESS
   calculated on the debt; and (4) provide any                management in all three matters on March 8,
                                 available information regarding penalties and              2010.
                                 interest that continued to accrue while Treas-
                                 ury attempted to collect the debt. In response                 In one matter (PI 10-20), an SEC attorney
                                 to the OIG’s recommendation, the Ofﬁce of                  received 99 access request denials for websites
                                 Collections contacted the complainant’s coun-              classiﬁed as pornography in a two-week pe-
                                 sel by letter dated March 23, 2010, and pro-               riod. This same attorney had received 528
                                 vided the salient information.                             access request denials for websites classiﬁed as
                                                                                            pornography for a previous one-month pe-
                                                                                            riod. The information provided by OIT
                                 Inquiries Conducted                                        showed that this attorney had attempted to
                                                                                            access blocked websites during normal Com-
                                      During this semiannual reporting period,              mission work hours. Further, a review of the
                                 the OIG completed a total of 35 inquiries into             information provided by OIT revealed nu-
                                 complaints received by the OIG. Of these                   merous instances in which the attorney had
                                 inquiries, seven were converted to, or included            successfully accessed sexually explicit or sexu-
                                 in, investigations, three resulted in the issuance         ally suggestive photographs, some during
                                 of reports recommending disciplinary action,               normal Commission work hours.
                                 and two resulted in investigative memoranda
                                 on management issues. The investigative                        In a second matter (PI 10-21), an SEC at-
                                 memoranda are described in the Advice and                  torney received 51 access request denials for
                                 Assistance Provided to the Agency section of               websites classiﬁed as pornography in a two-
                                 this report. Several of the most signiﬁcant of             week period. A review of the information
                                 the inquiries completed during the period are              provided by OIT revealed that the attorney
                                 described below.                                           had also successfully accessed sexual explicit
                                                                                            or sexually suggestive photographs on several
                                                                                            occasions. The OIT data indicated that some
                                   Misuse of Computer Resources                             of these photographs were accessed during
                                   (PIs 10-20, 10-21 and 10-22)                             normal Commission work hours. Moreover,
                                     During the semiannual reporting period,                in some instances, the attorney saved inappro-
                                 the OIT provided the OIG with a report of                  priate images to his government-issued com-
                                                                                            puter hard drive.
                                 employees who had received a substantial
                                 number of access request denials for websites
                                 classiﬁed as pornography by the SEC’s Inter-                   In the third matter (PI 10-22), an SEC at-
                                 net ﬁlter. In reviewing the information pro-               torney received 66 access request denials for
                                 vided by OIT, the OIG learned that three of                websites classiﬁed as pornography in a two-
                                 the employees who had received a large num-                week period. A review of the information
                                 ber of access request denials had also success-            provided by OIT also revealed numerous in-
                                 fully accessed sexually explicit or sexually sug-          stances in which the attorney successfully ac-
                                 gestive websites from their government-                    cessed sexually explicit or sexually suggestive
                                 assigned computers. The OIG conducted in-                  photographs, some of which were accessed
                                                                                            during normal Commission work hours.
                                 quiries into the Internet activities of these
                                 three employees, all of whom are attorneys,
                                 and issued memorandum reports to                               In all three matters, the OIG concluded
                                                                                            that the attorneys’ inappropriate use of the

                                                                                      77

SEMIANNUAL REPORT TO CONGRESS
   Internet violated Commission policy and                  that she was reviewing OIEA’s templates for
                                 rules, as well as the Government-wide Stan-              responding to complaints and would ensure
                                 dards of Ethical Conduct. The OIG referred               that those templates were appropriately re-
                                 all three attorneys to management for consid-            vised. The OIG will continue to monitor the
                                 eration of disciplinary action. As of the end            process to ensure the appropriate changes are
                                 of the semiannual reporting period,                      made.
                                 management indicated to the OIG that it
                                 planned to take disciplinary action in all three
                                 matters.                                                   Complaint of Improper Use of
                                                                                            Appropriated Funds for Employee
                                                                                            Awards (PI 09-07)
                                   Failure to Respond to Complaint                            The OIG conducted an inquiry into a
                                   Appropriately (PI 09-36)
                                                                                          complaint that a former Regional Ofﬁce ofﬁ-
                                      The OIG reviewed an allegation that the             cial had improperly purchased inscribed glass
                                 SEC had not responded appropriately to                   trophies to give to favorite employees using
                                 complaints submitted on behalf of the Whis-              ofﬁce supply funds. The OIG’s inquiry re-
                                 tleblowing United Pilots Association. During             viewed: (1) whether using appropriated funds
                                 its inquiry, the OIG carefully reviewed the              to purchase the trophies was permissible un-
                                 correspondence received from the complain-               der the Government Employee Incentive
                                 ant and focused on the issues that fell within           Awards Act (GEIAA) and Comptroller Gen-
                                 the OIG’s jurisdiction. The OIG also spoke               eral opinions; (2) whether the awards were
                                 with staff within the Ofﬁce of Investor Educa-           authorized under the SEC’s Employee Recog-
                                 tion and Advocacy (OIEA) with respect to a               nition plan; (3) who could authorize an ex-
                                 response OIEA had sent to the complainant in             penditure of this nature; (4) whether the ap-
                                 November 2007. Based upon its review, the                propriate Budget Object Class (BOC) was
                                 OIG concluded that OIEA had not taken suf-               used for the purchase; and (5) whether the use
                                 ﬁcient action to address the complainant’s               of a government purchase card (GPC) for the
                                 concerns.                                                purchase of the trophies was appropriate.

                                     In order to ensure that the complainant’s                During its inquiry, the OIG took the
                                 concerns were appropriately reviewed, the                sworn testimony of the Regional Ofﬁce ofﬁ-
                                 Inspector General personally referred his                cial who purchased the trophies and inter-
                                 complaints directly to an Enforcement Senior             viewed several staff members in the Ofﬁces of
                                 Counsel and requested that senior                        Administrative Services, Human Resources
                                 Enforcement attorneys carefully scrutinize the           and Financial Management. The OIG also
                                 complainant’s allegations and concerns for               contacted a Government Accountability Of-
                                 possible action. The Enforcement Senior                  ﬁce (GAO) senior attorney, an Ofﬁce of Per-
                                 Counsel assured the OIG that such careful                sonnel Management (OPM) manager, as well
                                 scrutiny would take place. The Inspector                 as attorneys in the SEC’s Ofﬁce of General
                                 General also met with the Director of OIEA               Counsel, to obtain information on the perti-
                                 regarding the OIG’s concerns about the in-               nent legal and policy requirements. The OIG
                                 sufﬁcient action taken by OIEA with regard to            also researched and reviewed applicable GAO
                                 the complainant’s correspondence. The                    guidance, Comptroller General decisions,
                                 OIEA Director advised the Inspector General

                                                                                    78

SEMIANNUAL REPORT TO CONGRESS
   OPM regulations and guidance, and SEC                   discovered in time for the complainant to par-
                                 policies.                                               ticipate in the lump-sum distribution, but that
                                                                                         he did receive the salary increase.
                                     The OIG’s inquiry concluded that the Re-                 The OIG inquiry further disclosed that
                                 gional Ofﬁce ofﬁcial’s use of appropriated              the error that led to the complainant’s exclu-
                                 funds to purchase the trophies for employee             sion from the lump-sum settlement may not
                                 awards was not permissible under Comptrol-              have been an isolated occurrence, and that at
                                 ler General decisions and OPM guidance be-              least one other employee was improperly ex-
                                 cause the awards were not part of an agency-            cluded from the lump-sum settlement. The
                                 sponsored awards program under the GEIAA.               OIG concluded that while OHR and the
                                 The OIG inquiry also found that the SEC’s               NTEU jointly identiﬁed the employees who
                                 policies and procedures authorizing the                 were eligible to receive the distribution, more
                                 agency’s award program had not been up-                 proactive efforts could have been made to en-
                                 dated for over 15 years. In addition, the OIG           sure that all eligible employees were aware of
                                 concluded that the use of the supplies BOC              the deadline for objecting to non-inclusion on
                                 for the awards was not proper, although the             the list of employees who were eligible to par-
                                 use of the GPC to purchase the trophies was             ticipate in the settlement. Accordingly, the
                                 not itself problematic. In order to address the         OIG referred certain speciﬁc issues identiﬁed
                                 deﬁciencies identiﬁed in this inquiry, the OIG          during its inquiry to its Ofﬁce of Audits for
                                 issued an investigative memorandum making               consideration in connection with future inter-
                                 speciﬁc recommendations for improvements                nal audits of OHR.
                                 regarding any awards and use of BOCs,
                                 which is discussed in detail in the Advice and
                                 Assistance Provided to the Agency section of              Disclosure of Personally Identifiable
                                 this semiannual report.                                   Information on SEC’s Website
                                                                                           (PI 09-49)

                                                                                             In this inquiry, the OIG reviewed a com-
                                   Improper Exclusion from Settlement                    plaint that a court order posted on the SEC’s
                                   Payment (PI 09-68)
                                                                                         website included social security and bank ac-
                                      The OIG performed an inquiry into a                count numbers for two individuals whom the
                                 complaint ﬁled by a bargaining unit employee            SEC had sued for securities law violations.
                                 that he had been improperly excluded from a             The OIG conﬁrmed that the court order con-
                                 lump-sum settlement payment due to an ad-               taining the personally identiﬁable information
                                 ministrative error. During its inquiry, the OIG         (PII) was, in fact, posted on the SEC’s website
                                 interviewed and obtained pertinent documen-             under litigation documents from the case
                                 tation from Ofﬁce of Human Resources                    against the complainants and was misidenti-
                                 (OHR) staff members, as well as a National              ﬁed as a “complaint.” The OIG also learned
                                 Treasury Employees Union (NTEU) ofﬁcer.                 during its inquiry that the full, unredacted
                                 The OIG’s inquiry disclosed that the com-               court order was accessible through publicly
                                 plainant’s name was erroneously omitted from            available databases, as a result of the court’s
                                 the list of employees who were eligible to par-         order that the redaction requirements of Fed-
                                 ticipate in a settlement reached between the            eral Rule of Civil Procedure 5.2 should not
                                 SEC and the NTEU, which provided for both               apply to the order.
                                 a lump-sum settlement and a salary increase.
                                 The OIG was informed that the error was not
                                                                                   79

SEMIANNUAL REPORT TO CONGRESS
       The OIG brought the information learned             ﬁce’s administrative personnel, reminding
                                 during its inquiry to the attention of the              them of the importance of ensuring that all
                                 Commission’s Secretary, who directed that the           documents containing personal information
                                 misidentiﬁed order immediately be removed               are secured, are not in public view, and are
                                 from the Commission’s website. The OIG                  not left in ofﬁce mail slots.
                                 conﬁrmed that the court order was removed
                                 from the website. In addition, the Secretary
                                 indicated that the order would only be re-              PENDING INVESTIGATIONS
                                 posted after the PII was redacted. In addition,
                                 the OIG recommended to the Secretary that               Allegation of Enforcement Conflict of
                                 court documents that are not complaints be              Interest
                                 labeled correctly in the future.
                                                                                              The OIG is continuing its investigation at
                                                                                         the request of Congressman Elijah E. Cum-
                                                                                         mings (D-Maryland) into the circumstances
                                   Improper Handling of Sensitive                        surrounding an Enforcement action brought
                                   Personnel Information (PI 09-40)
                                                                                         against a prominent banking institution. The
                                     The OIG reviewed a complaint that an                OIG is carefully scrutinizing the circum-
                                 SEC Regional Ofﬁce failed to adequately                 stances within the SEC that led to the decision
                                 safeguard employee PII in accordance with               for the SEC to recommend a settlement in its
                                 SEC requirements. During its inquiry, the               action against the banking institution that the
                                 OIG interviewed the complainant, Regional               presiding Judge rejected on September 14,
                                 Ofﬁce administrative personnel, an OHR staff            2009. During the course of the semiannual
                                 member and the agency’s Chief Privacy Ofﬁ-              reporting period, the SEC presented a revised
                                 cer. The OIG also reviewed e-mails provided             settlement with the banking institution that
                                 by the complainant reﬂecting his communica-             the Judge accepted on February 22, 2010.
                                 tions with the Chief Privacy Ofﬁcer regarding           The OIG is expanding its investigation to ana-
                                 the alleged improper treatment of PII.                  lyze the circumstances surrounding the revised
                                                                                         settlement, as well as those pertaining to the
                                      The OIG’s inquiry disclosed that despite           previous settlement that was rejected.
                                 reminders from the Chief Privacy Ofﬁcer to
                                 all SEC administrative contacts regarding the               During the reporting period, the OIG re-
                                 proper treatment of PII, there may have been            viewed over 500,000 e-mails of 15 current
                                 inadequate safeguarding of personnel forms              and former employees in ﬁve different ofﬁces
                                 containing PII in the Regional Ofﬁce in ques-           and divisions within the SEC to obtain e-mails
                                 tion, as well as in other SEC Divisions and             related to the Enforcement investigation. The
                                 Ofﬁces. However, we learned that OHR was                OIG has also conducted several informal in-
                                 developing a new electronic personnel ﬁle sys-          terviews of individuals both within and out-
                                 tem (which was announced on March 30,                   side the SEC who have knowledge of the facts
                                 2010) that is expected to improve the safe-             underlying the Enforcement investigation. In
                                 guards for sensitive personnel documents. In            addition, we also conducted sworn, on-the-
                                 the meantime, based upon the ﬁndings of our             record testimony of an important whistle-
                                 inquiry, an administrative supervisory ofﬁcial          blower in this matter and began to schedule
                                 in the Regional Ofﬁce about which the com-              numerous additional sworn testimonies of
                                 plaint was lodged sent an e-mail to that Of-

                                                                                   80

SEMIANNUAL REPORT TO CONGRESS
   current SEC employees who worked on the                the investigation that led to the ﬁling of the
                                 investigation.                                         action. Early during the reporting period, the
                                                                                        OIG took the sworn, on-the-record testimony
                                     The OIG hopes to complete this investiga-          of the defendant and two other witnesses in
                                 tion and issue a report of its ﬁndings in the          the matter. In connection with the dismissal
                                 next semiannual reporting period.                      of the Enforcement action, on August 28,
                                                                                        2009, the defendant ﬁled a motion requesting
                                                                                        attorneys’ fees and litigation expenses. In
                                 Allegation of Procurement Violations                   support of this motion, the defendant made
                                                                                        similar allegations as those contained in the
                                     The OIG continued its investigation into           initial complaint to the OIG, i.e., that the SEC
                                 allegations made by a whistleblower that a             had insufﬁcient evidence to support its claims
                                 senior management ofﬁcial awarded contracts            against the defendant, made factual misstate-
                                 to a company in violation of the governing             ments in its complaint in the Enforcement ac-
                                 laws, rules, and/or policies governing con-            tion, and engaged in investigative misconduct.
                                 tracting procedures. In particular, it was al-         On December 4, 2009, the District Court is-
                                 leged that the senior management ofﬁcial has           sued an order permitting discovery in connec-
                                 a close relationship with the company to               tion with the defendant’s motion and directing
                                 which he awarded the contracts. In addition,           the parties to provide supplemental brieﬁng
                                 the product purchased by the SEC in connec-            following the discovery period. Because the
                                 tion with these contracts has allegedly not            Court had direct jurisdiction over these similar
                                 been used for the purpose described at the             claims, and was in a position to grant the relief
                                 time the contracts were awarded, resulting in          sought by the defendant, the OIG deferred
                                 wasted agency resources. As of the end of the          further investigation of this matter pending a
                                 reporting period, the OIG had taken the                determination by the Court on these claims.
                                 sworn testimony of the whistleblower and ob-           Once the Court has ruled on these claims, the
                                 tained and reviewed numerous documents                 OIG will determine what further investigative
                                 relating to this matter. The OIG plans to re-          steps should be taken as appropriate.
                                 quest further relevant documents and to take
                                 the testimony of several SEC employees and
                                 managers with knowledge of this matter. The            Allegation of Negligence in the
                                 OIG expects to complete this investigation             Conduct of an Enforcement
                                 and issue a report of investigation during the         Investigation
                                 next semiannual reporting period.
                                                                                             The OIG is continuing its investigation
                                                                                        into a complaint received from a former
                                                                                        Enforcement attorney that Enforcement
                                 Complaint of Investigative Misconduct
                                 by Various Enforcement Attorneys                       committed acts of negligence in the conduct
                                                                                        of an insider trading investigation. The com-
                                     The OIG is continuing its investigation of         plaint was based upon recently-discovered
                                 a complaint received from counsel for a de-            information that purportedly demonstrated
                                 fendant in an SEC Enforcement action that              that Enforcement had access to speciﬁc evi-
                                 was dismissed by the District Court, alleging          dence showing that insider trading had oc-
                                 numerous instances of misconduct by                    curred prior to the time Enforcement closed
                                 Enforcement attorneys during the course of             its investigation. The OIG has taken the


                                                                                  81

SEMIANNUAL REPORT TO CONGRESS
   sworn testimony of the complainant and has                Allegation of Failure to Maintain Active
                                 reviewed documentation provided by the                    Bar Membership
                                 complainant and reviewed additional docu-
                                                                                               During the reporting period, the OIG
                                 mentation in its possession.
                                                                                           continued its investigation into a complaint
                                                                                           that the state bar license of an SEC headquar-
                                      Additionally, during the reporting period,
                                                                                           ters attorney had been suspended, but that
                                 the OIG took the sworn testimony of the
                                                                                           this individual continued to work as an SEC
                                 Enforcement branch chief and staff attorney
                                                                                           attorney. The OIG has conducted testimony
                                 assigned to the insider trading investigation.
                                                                                           and interviews of people with knowledge rele-
                                 The OIG plans to continue its investigation of
                                                                                           vant to the investigation and reviewed perti-
                                 the allegations and conduct additional testi-
                                                                                           nent information from state court ofﬁcials re-
                                 mony or interviews. The OIG hopes to ﬁnal-
                                                                                           garding the attorney’s bar status. Further, we
                                 ize the investigation and issue its report of in-
                                                                                           searched and reviewed over 2,000 e-mails for
                                 vestigation during the next semiannual report-
                                                                                           the relevant time period. The review of this
                                 ing period.
                                                                                           information uncovered additional potential
                                                                                           misconduct pertaining to conﬂicts of interest,
                                                                                           misuse of government resources, and abuse of
                                 Complaint of Misuse of Leave Without
                                 Pay by OCIE Managers                                      leave.

                                      The OIG opened an investigation into an                  The OIG plans to take additional testi-
                                 anonymous complaint that certain managers                 mony of relevant parties and complete this
                                 with full-time positions in OCIE are abusing              investigation during the next semiannual re-
                                 the SEC’s time and attendance system by                   porting period.
                                 working part-time schedules and taking leave
                                 without pay (LWOP) for the one to two days
                                 per week that they do not work. The OIG is                Allegation of Failure to Conduct an
                                 investigating whether it is permissible for               Adequate Investigation by Regional
                                 OCIE supervisors who have full-time positions             Office
                                 to perform their duties on a de facto part-time                The OIG conducted an investigation into
                                 schedule. The OIG is also inquiring into                  a complaint alleging that Regional Ofﬁce
                                 whether these supervisors are receiving full-             Enforcement ofﬁcials failed to vigorously and
                                 time beneﬁts to which they would not be enti-             diligently investigate the ofﬁcers of a publicly
                                 tled if they were ofﬁcially part-time employ-             traded corporation for securities fraud. The
                                 ees.                                                      complaint further alleged that the
                                                                                           Enforcement investigation was unduly de-
                                      During the reporting period, the OIG re-             layed, relevant evidence was not examined
                                 viewed pertinent documents, including e-                  and management improperly removed staff
                                 mails, personnel records, and time and atten-             during the investigation.
                                 dance records. The OIG also took the sworn
                                 testimony of witnesses who work in OCIE and                    During the reporting period, we took the
                                 interviewed several staff members in the                  testimony of the supervising attorney and four
                                 SEC’s Ofﬁce of Human Resources. The OIG                   staff attorneys and accountants who con-
                                 intends to ﬁnalize the investigation and issue            ducted the investigation. The OIG also re-
                                 its report of investigation during the next               viewed Enforcement memoranda, staff work
                                 semiannual reporting period.
                                                                                     82

SEMIANNUAL REPORT TO CONGRESS
   papers and meeting notes relating to the inves-           the past and could do so again. The OIG also
                                 tigation. Further, the OIG searched and re-               obtained and reviewed relevant documents,
                                 viewed approximately one thousand e-mails of              including e-mails, obtained from the SEC and
                                 Enforcement and Ofﬁce of Chief Accountant                 relevant outside entities. The OIG worked
                                 personnel, pertaining to the Enforcement in-              with other federal law enforcement agencies in
                                 vestigation.                                              the course of this investigation. Subsequent to
                                                                                           the opening of this investigation, the original
                                    The OIG has completed its investigative                source of the information recanted his story.
                                 work and plans to issue a report of its ﬁndings           The OIG has completed its investigative work
                                 during the next semiannual reporting period.              and plans to issue its report of investigation
                                                                                           during the next semiannual reporting period.

                                 Complaint of Unprofessional Conduct
                                 on Examination and Harassment                             Complaint of Failure to Conduct
                                                                                           Adequate Enforcement Investigation
                                      During the reporting period, the OIG
                                 opened an investigation into a complaint that                 The OIG opened an investigation into a
                                 a supervisor on an investment adviser exami-              complaint that Enforcement failed to properly
                                 nation acted unprofessionally by entering the             and vigorously enforce the federal securities
                                 ﬁrm’s premises on two separate occasions                  laws in the course of an investigation of ac-
                                 without showing identiﬁcation or properly                 counting rule and insider trading violations by
                                 identifying himself. The complaint further                a publicly-traded corporation. The complaint
                                 alleged that subsequent to these incidents, the           also alleged speciﬁc acts of misconduct by an
                                 supervisor harassed the examiner who he be-               SEC Enforcement attorney during the course
                                 lieved had reported the incidents to                      of the investigation.
                                 management ofﬁcials. The OIG has taken the
                                 sworn testimony of the subject and three                      During the course of this investigation, the
                                 other witnesses. The OIG has also inter-                  OIG obtained and reviewed copies of each of
                                 viewed six individuals, including the com-                the detailed complaints that the complainant
                                 plainant. In addition, the OIG obtained and               had previously sent to the SEC, as well as cop-
                                 reviewed pertinent procedures and numerous                ies of several memoranda Enforcement had
                                 other documents and e-mails. The OIG plans                submitted to the Commission concerning the
                                 to issue its report of investigation in this mat-         investigation. The OIG plans to take on-the-
                                 ter prior to the end of the next semi-annual              record testimony of the complainant and
                                 reporting period.                                         other relevant parties and complete its investi-
                                                                                           gative work prior to the end of the next re-
                                                                                           porting period.
                                 Complaint Concerning Obstruction of
                                 Justice
                                                                                           Complaint of Unauthorized Disclosure
                                     The OIG continued its investigation into              of Non-Public Information
                                 information received that an SEC employee
                                 may have offered to obstruct an SEC investi-                 During the reporting period, the OIG
                                 gation. The OIG took the sworn testimony of               opened an investigation into an allegation that
                                 an individual who stated that he learned of an            non-public information provided to OCIE
                                 SEC employee who had removed SEC ﬁles in                  during the examination of a registrant was

                                                                                     83

SEMIANNUAL REPORT TO CONGRESS
   leaked to a major newspaper. During the re-              With regard to the speciﬁc allegation being
                                 porting period, the OIG analyzed the systems         investigated, the OIG requested, obtained and
                                 in place at the SEC that were supposed to            reviewed over 500,000 e-mails for the relevant
                                 guard against the improper release of this type      period from over 20 employees who may have
                                 of information. As discussed more fully in the       viewed the non-public information shortly be-
                                 Audits and Evaluations Conducted section of          fore that information was published in a
                                 this report, the OIG issued a management             newspaper article. The OIG also assembled a
                                 alert to the SEC discussing its ﬁndings that the     timeline of ﬁndings based on the e-mails re-
                                 SEC does not have an auditing system for             viewed. The OIG will continue to search for
                                 OCIE intranet sites or its shared network            and review pertinent e-mails and plans to
                                 drives, thus allowing users to view, print, copy,    conduct testimony of witnesses with
                                 download, move, edit, or delete documents            information relevant to the investigation dur-
                                 and ﬁles without detection. In the                   ing the next reporting period.
                                 management alert memorandum, the OIG
                                 recommended that prompt action should be
                                 taken to address these vulnerabilities.




                                                                                84

U.S. Securities and Exchange Commission


                                                                       SEMIANNUAL
                                                                       REPORT TO
                                                                       CONGRESS
                                                 Ofﬁce of
                                                Inspector
                                                 General




                                           REVIEW OF LEGISLATION
                                           AND REGULATIONS
                                               During the reporting period, the OIG re-                  In its assessment of the SEC’s Information
                                           viewed legislation and proposed and ﬁnal                 Technology Investment Process (Report No.
                                           rules and regulations relating to the programs           466), the OIG reviewed and analyzed the
                                           and operations of the SEC, pursuant to Sec-              statutory provisions specifying the responsibili-
                                           tion 4(a)(2) of the Inspector General Act.               ties of, and reporting requirements for, agency
                                                                                                    Chief Information Ofﬁcers (CIOs). See, e.g.,
                                                In particular, the OIG reviewed statutes,           44 U.S.C. § 3506. The OIG assessment found
                                           rules, regulations and requirements, and their           that the current CIO reporting structure
                                           impact on Commission programs and opera-                 within the SEC violated the statutory re-
                                           tions, within the context of audits and reviews          quirements, and that the SEC regulation de-
                                           conducted during the period. For example, in             scribing the responsibilities and functions of
                                           the assessment performed of the SEC’s pro-               the SEC’s Executive Director, 17 C.F.R. §
                                           gram for awarding bounties to whistleblowers             200.133, required revision in order to meet
                                           (Report No. 474), the OIG reviewed the exist-            the statutory requirements. Further, during its
                                           ing statutory authority for the SEC’s bounty             review of allegations of an improper use of
                                           program, Section 21A(e) of the Securities                appropriated funds to purchase trophies for
                                           Exchange Act of 1934, 15 U.S.C. § 78u-1(e),              employee awards (PI 09-07), the OIG re-
                                           and the regulations promulgated hereunder,               viewed the provisions of the Government
                                           17 C.F.R. §§ 201.61-201.68. The OIG’s as-                Employee Incentive Awards Act, 5 U.S.C. §
                                           sessment identiﬁed limitations and shortcom-             4501, et seq., and the implementing Ofﬁce of
                                           ing in the existing authorities for the program,         Personnel Management regulations, including
                                           and the OIG reviewed proposed legislation                5 C.F.R. § 451.104.
                                           included in H.R. 3817, the Investor Protec-
                                           tion Act of 2009, which would signiﬁcantly                   During the period, the OIG also reviewed,
                                           expand the SEC’s authority to award boun-                tracked and provided comments and views on
                                           ties.                                                    pending legislation that would impact the
                                                                                                    SEC. For example, the OIG reviewed and

                                                                                              85

SEMIANNUAL REPORT TO CONGRESS
   provided comment on a proposed whistle-                 ous legislation of interest to the Inspector
                                 blower provision contained in the regulatory            General community and, in particular, the
                                 reform bill of the Chairman of the Senate               ﬁnancial regulatory agency Inspectors Gen-
                                 Committee on Banking, Housing and Urban                 eral. This legislation included H.R. 885, the
                                 Affairs. In addition, the OIG also carefully            Improved Financial and Commodity Markets
                                 reviewed the pending ﬁnancial reform legisla-           Oversight and Accountability Act; H.R. 4173,
                                 tion for impact on the SEC as a whole and the           the Wall Street Reform and Consumer Protec-
                                 OIG in particular. Speciﬁcally, the OIG per-            tion Act of 2009; S. 372, the Whistleblower
                                 formed a detailed review of various provisions          Protection Enhancement Act of 2009; H.R.
                                 of H.R. 4173, the Wall Street Reform and                3848, the Inspector General Authority Im-
                                 Consumer Protection Act of 2009, including              provement Act of 2009; and a proposed
                                 sections that would establish a Council of the          amendment to H.R. 3996, the Financial Sta-
                                 Inspectors General on Financial Oversight,              bility Improvement Act of 2009. On Febru-
                                 elevate certain ﬁnancial regulatory Inspectors          ary 22, 2010, the SEC Inspector General,
                                 General to Presidential appointees, provide for         jointly with the Inspectors General of the
                                 various reforms regarding credit rating agen-           Commodity Futures Trading Commission, the
                                 cies, and amend the Securities Exchange Act             National Credit Union Administration, the
                                 of 1934 to provide for whistleblower awards.            Pension Beneﬁt Guaranty Corporation and
                                 Further, as discussed in the Congressional and          the Board of Governors of the Federal Re-
                                 Other Related Brieﬁngs and Requests section             serve System, provided letters to Senator
                                 of this report, the Inspector General provided          Christopher J. Dodd (D-Connecticut), Chair-
                                 detailed legislative recommendations to Sena-           man, and Senator Richard Shelby (R-
                                 tor Christopher J. Dodd (D-Connecticut),                Alabama), Ranking Member, of the Senate
                                 Chairman of the U.S. Senate Committee on                Committee on Banking, Housing and Urban
                                 Banking, Housing and Urban Affairs, on Oc-              Affairs, setting forth their views on Subtitle C
                                 tober 29, 2009. These proposed reforms in-              of H.R. 4173, which, like H.R. 885, would
                                 cluded suggested amendments to the Invest-              require Presidential appointments and Senate
                                 ment Advisers Act of 1940, 15 U.S.C. § 80b-1,           conﬁrmations for these Inspectors General.
                                 et seq., and the Securities Exchange Act of
                                 1934, 15 U.S.C. § 78a, et seq.

                                     Finally, in coordination with the Legisla-
                                 tion Committee of the Council of Inspectors
                                 General on Integrity and Efﬁciency and the
                                 Inspectors General from several other Federal
                                 ﬁnancial regulatory agencies, the OIG closely
                                 reviewed, tracked and provided views on vari-




                                                                                   86

U.S. Securities and Exchange Commission


                                                              SEMIANNUAL
                                                              REPORT TO
                                                              CONGRESS
                                              Ofﬁce of
                                             Inspector
                                              General




                                                          STATUS OF RECOMMENDATIONS WITH
                                                              NO MANAGEMENT DECISIONS

                                            Management decisions have been made on all audit reports issued
                                                    before the beginning of this reporting period.


                                                           REVISED MANAGEMENT DECISIONS

                                                 No management decisions were revised during the period.


                                               AGREEMENT WITH SIGNIFICANT MANAGEMENT DECISIONS

                                           The Office of Inspector General agrees with all significant management
                                                        decisions regarding audit recommendations.



                                                    INSTANCES WHERE INFORMATION WAS REFUSED

                                                         During this reporting period, there were no
                                                         instances where information was refused.




                                                                             87

88
SEMIANNUAL REPORT TO CONGRESS
                                Table 1
                                List of Reports: Audits and Evaluations


                                      Audit /
                                                                          Title                        Date Issued
                                Evaluation Number
                                                      Review of the Commission’s Processes for
                                      470            Selecting Investment Advisers and Investment      Nov 19, 2009
                                                              Companies for Examination

                                      477           Management Alert - Data Security Vulnerabilities   Mar 1, 2010



                                      460             Management and Oversight of Interagency          Mar 26, 2010
                                                         Acquisition Agreements at the SEC

                                      466           Assessment of the SEC Information Technology       Mar 26, 2010
                                                                Investment Process

                                      472              2009 FISMA Executive Summary Report             Mar 26, 2010



                                      475               Evaluation of the SEC Privacy Program          Mar 26, 2010



                                      476             Evaluation of the SEC Encryption Program         Mar 26, 2010



                                      474              Assessment of the SEC’s Bounty Program          Mar 29, 2010




                                                                        89

90
                                Table 2
SEMIANNUAL REPORT TO CONGRESS


                                Reports Issued with Costs Questioned
                                or Funds Put to Better Use
                                (including disallowed costs)

                                                                                                 Number of
                                                                                                               Value
                                                                                                  Reports
                                A. REPORTS ISSUED PRIOR TO THIS PERIOD

                                  For which no management decision had been made on any issue
                                     at the commencement of the reporting period                     3        $416,550.00
                                  For which some decisions had been made on some issues at the
                                     commencement of the reporting period                            1        $129,336.00


                                B. REPORTS ISSUED DURING THIS PERIOD                                 1       $6,945,831.00



                                TOTAL OF CATEGORIES A AND B                                          5       $7,491,717.00


                                C. For which final management decisions were made during this
                                      period                                                         2        $515,574.00


                                D. For which no management decisions were made during this
                                      period                                                         3       $6,976,143.00


                                E. For which management decisions were made on some
                                                                                                     0              $0.00
                                     issues during this period
                                TOTAL OF CATEGORIES C, D AND E                                       5       $7,491,717.00




                                                                                91

92
SEMIANNUAL REPORT TO CONGRESS

                                 Table 3
                                 Reports With Recommendations on
                                 Which Corrective Action Has Not Been
                                 Completed
                                                 RECOMMENDATIONS OPEN 180 DAYS OR MORE

                                    Audit/Inspection/           Issue Date            Summary of Recommendation
                                      Evaluation or
                                 Investigation # and Title
                                 412 - Oversight of the         09/28/2006    Develop procedures for several PCAOB oversight
                                 Public Company                               issues.
                                 Accounting Oversight
                                 Board (PCAOB)
                                 428 - Electronic Documents     07/25/2007    Issue program guidance.
                                 Program
                                                                              Develop written procedures for loading data work
                                                                              from the regional offices.
                                                                              *Consider a larger forensics lab.
                                 430 - Contract Ratifications   09/25/2007    *Reevaluate procurement in the regional offices.
                                                                              Develop procurement procedures and provide
                                                                              training for the regional offices.
                                 433 - Corporation Finance      09/30/2008    *Develop a centralized tracking system for
                                 Referrals                                    Divisions of Enforcement and Corporation Finance
                                                                              staff regarding non-delinquent filer referrals.
                                 438 - Self-Regulatory          03/31/2008    Enhance the Self-Regulatory Organization Rule
                                 Organization Rule Filing                     Tracking System by identifying comment letters,
                                 Process                                      improving speed, retaining proposed rule changes
                                                                              in inbox, and ensuring upload of all comment
                                                                              letters.
                                 439 - Student Loan             03/27/2008    In consultation with the Union, develop a detailed
                                 Program                                      distribution plan.
                                 442 - Enterprise               03/31/2008    Develop EA metrics to assess or track the SEC's
                                 Architecture (EA)                            performance in implementing, and tracking
                                 Assessment                                   performance of, the SEC's Federal EA program.
                                                                              Through the Information Technology Capital
                                                                              Planning and Investment Control Board, require
                                                                              periodic reports on EA progress overall, including
                                                                              specifically how EA can help to make strategic
                                                                              purchasing decisions.
                                 446A - SEC's Oversight of      09/25/2008    Require compliance with existing rule requiring
                                 Bear Stearns and Related                     external auditors to review the CSE firms' risk
                                 Entities: Consolidated-                      management control systems, or seek
                                 Supervised Entity (CSE)                      Commission approval for deviation from this
                                 Program                                      requirement.


                                                                             93

                                   Audit/Inspection/           Issue Date           Summary of Recommendation
SEMIANNUAL REPORT TO CONGRESS

                                     Evaluation or
                                Investigation # and Title
                                                                            *Develop internal guidelines for timely Corporation
                                                                            Finance (CF) filing reviews, and track and monitor
                                                                            compliance with these guidelines.
                                                                            Establish a policy outlining when firms are
                                                                            expected to respond substantively to issues raised
                                                                            in CF comment letters, and track and monitor
                                                                            compliance with this policy.
                                446B - SEC's Oversight of      09/25/2008   Establish a timeframe to update and finalize rules
                                Bear Stearns and Related                    17h-1T and 17h-2T within six months.
                                Entities: Broker-Dealer Risk
                                Assessment (BDRA)
                                Program
                                                                            Ensure the BDRA system includes financial
                                                                            information, staff notes and other written
                                                                            documentation and is used to generate
                                                                            management reports.
                                                                            Resolve technological problems with the BDRA
                                                                            system.
                                448 - 2008 Sensitive           03/27/2009   *Keep an account of prohibited gifts that are
                                Payments                                    returned of which the Ethics Office has knowledge.
                                450 - Practices Related to     03/08/2009   Develop written in-depth triage analysis steps for
                                Naked Short Selling                         naked short selling complaints.
                                Complaints and Referrals
                                                                            Revise written guidance to Enforcement Complaint
                                                                            Center (ECC) staff to ensure proper scrutiny and
                                                                            referral of naked short selling complaints.
                                                                            Add naked short selling to categories of complaints
                                                                            on public webpage and develop tailored online
                                                                            complaint form.
                                                                            Improve analytical capabilities of the ECC's e-mail
                                                                            complaint system.
                                                                            Improve CTR database to include additional
                                                                            information about and better track complaints.
                                                                            Ensure the Office of Internet Enforcement updates
                                                                            and resumes using previous complaint referral
                                                                            tracking system or develops a new system.
                                452 - Enforcement's            02/03/2009   Ensure staff comply with procedures and consider
                                Disgorgement Waivers                        payment plans and partial waivers.
                                                                            Ensure the review of financial information for
                                                                            accuracy prior to recommending a disgorgement
                                                                            waiver.
                                                                            Clarify policies and procedures regarding when
                                                                            supporting documentation should be obtained and
                                                                            retained.




                                                                             94

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/           Issue Date            Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                             Ensure sworn financial statements from
                                                                             defendants/respondents who request
                                                                             disgorgement waivers are retained, signed and
                                                                             notarized.
                                                                             Ensure checklist for disgorgement waiver cases is
                                                                             retained and signed by supervisor.
                                                                             Ensure documentation is retained in case files and
                                                                             compliance with procedures for obtaining tax
                                                                             returns.
                                                                             Ensure public database searches are performed
                                                                             for all defendants/respondents.
                                                                             Ensure staff attorneys receive periodic formal
                                                                             training in disgorgement waiver process.
                                454 - The Division of          09/16/2008    Revise policy on the selection of receivers and
                                Enforcement's Draft Policies                 independent consultants to address actual and
                                and Procedures Governing                     apparent conflicts of interest and provide guidance
                                the Selection of Receivers,                  to staff.
                                Fund Administrators,
                                Independent Distribution
                                Consultants, Tax
                                Administrators and
                                Independent Consultants
                                                                             Determine whether any time limit should be placed
                                                                             on a request for conflict of interest or background
                                                                             information, or whether that information should be
                                                                             requested for more than five years.
                                                                             Include in the attachment to the policy the
                                                                             applicant's certification that the information
                                                                             provided is complete and truthful and that the
                                                                             applicant understands the consequences for
                                                                             providing false information.
                                455 - Attorney Annual          09/09/2008    Require all SEC attorneys to certify annually that
                                Certification of Bar                         they are active bar members and to acknowledge
                                Membership                                   that their failure to maintain active bar membership
                                                                             may result in referral to the appropriate authorities
                                                                             and/or disciplinary action.
                                456 - Public Transportation    03/27/2009    Implement additional management controls over
                                Benefit Program                              regional office program operations.
                                458 - SEC Oversight of         08/27/2009    Ensure that all significant issues identified in the
                                Nationally Recognized                        application review process are resolved before
                                Statistical Rating                           recommending that a credit rating agency be
                                Organizations (NRSROs)                       registered as an NRSRO.
                                                                             Evaluate whether action should be taken regarding
                                                                             the credit rating agency that was granted NRSRO
                                                                             registration despite numerous significant problems
                                                                             identified with its application.




                                                                            95

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/        Issue Date           Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                         Ensure that all pending issues identified during the
                                                                         application process involving the credit rating
                                                                         agencies that the SEC approved as NRSROs are
                                                                         resolved within six months of the date of this OIG
                                                                         report.
                                                                         Develop measures for determining whether
                                                                         subscriber fees charged by the credit rating
                                                                         agencies are reasonable.
                                                                         Request guidance from the Office of General
                                                                         Counsel regarding the types of deficiencies that
                                                                         should prompt the Division of Trading and Markets
                                                                         to seek consent from the applicant to waive the 90-
                                                                         day statutory time period for granting registration
                                                                         as an NRSRO or recommend instituting
                                                                         procedures to determine whether registration
                                                                         should be denied.
                                                                         Take appropriate actions to inform NRSROs about
                                                                         the Commission's expectations regarding their
                                                                         compliance officers.
                                                                         Ensure that Commission orders are sought in
                                                                         response to requests from NRSROs for extensions
                                                                         of time when required by statute or Commission
                                                                         rules.
                                                                         Ensure that credit rating agencies applying for
                                                                         designation as NRSROs and firms that have
                                                                         registered as NRSROs comply with the
                                                                         Commission's rules and requirements regarding
                                                                         filing and certification of financial information.
                                                                         Review the OIG findings on conducting
                                                                         examinations before issuing orders approving
                                                                         applications and, as appropriate, seek legislative
                                                                         authority to conduct examinations as part of the
                                                                         NRSRO application process.
                                                                         Include NRSROs in the Office of Compliance
                                                                         Inspections and Examinations' (OCIE's) pilot
                                                                         monitoring program.
                                                                         Obtain an additional review of the draft OCIE
                                                                         NRSRO examination module by an expert in credit
                                                                         rating and NRSRO matters.
                                                                         Review the OIG findings concerning PCAOB
                                                                         oversight of NRSRO auditors and, as appropriate,
                                                                         seek legislative authority to provide the PCAOB
                                                                         with oversight over audits of NRSROs.
                                                                         Perform examination work to determine whether
                                                                         the quality of credit ratings is being adversely
                                                                         affected by NRSROs providing consulting and
                                                                         advisory services for issuers, underwriters or
                                                                         obligors that have paid the NRSROs for credit
                                                                         ratings.



                                                                           96

SEMIANNUAL REPORT TO CONGRESS
                                   Audit/Inspection/        Issue Date            Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                          Assess the impact of NRSROs providing
                                                                          consulting and advisory services on the quality of
                                                                          credit ratings and how to best minimize the harmful
                                                                          effects without unduly limiting competition among
                                                                          the NRSROs.
                                                                          Review the OIG findings on monitoring of credit
                                                                          ratings and direct the recommendation of
                                                                          appropriate rules to implement a comprehensive
                                                                          credit rating monitoring requirement for NRSROs.
                                                                          Perform examination work into whether credit
                                                                          rating analysts face undue influence and the
                                                                          effects of such undue influence on the credit
                                                                          ratings issued by the NRSROs.
                                                                          Assess the effects of undue influence on the
                                                                          quality of credit ratings and the potential benefits of
                                                                          a credit analyst rotation requirement.
                                                                          Review the OIG findings on credit ratings
                                                                          disclosures and, as appropriate, direct the
                                                                          recommendation of additional rule amendments to
                                                                          enhance the disclosures surrounding the credit
                                                                          ratings process.
                                                                          Conduct examinations to evaluate whether the
                                                                          revolving door problem is negatively impacting the
                                                                          quality of credit ratings.
                                                                          Assess the problems presented by the revolving
                                                                          door and, if appropriate, recommend rules to
                                                                          establish requirements to address the revolving
                                                                          door issue and meet with the Office of International
                                                                          Affairs periodically.
                                                                          Review the OIG findings on the Rule 17g-5
                                                                          information disclosure program and Regulation FD
                                                                          and, as appropriate, direct the assessment of the
                                                                          potential effects on competition in the credit rating
                                                                          industry of the re-proposed amendments and
                                                                          recommend rule changes, if appropriate.
                                                                          Review the OIG findings on forum shopping for
                                                                          credit ratings and direct the recommendation of
                                                                          rules designed to reduce the potential harmful
                                                                          effects on the quality of credit ratings caused by
                                                                          forum shopping.
                                                                          Review the OIG findings on public comment on a
                                                                          firm's application and the status of competition and
                                                                          direct the incorporation of seeking and
                                                                          consideration of public comments into the SEC's
                                                                          NRSRO oversight process.
                                                                          Incorporate the additional concepts identified by
                                                                          the OIG' s review into the Commission's annual
                                                                          report to Congress on NRSROs.
                                459 - Regulation D          03/31/2009    Reintroduce the early intervention program and
                                Exemption Process                         use it to assist in the enforcement of Regulation D.

                                                                         97

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/            Issue Date           Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                             Take efforts to finalize proposed rule.
                                                                             *Issue formal, public guidance on how to request a
                                                                             waiver of disqualification under Rule 505.
                                                                             Evaluate the Electronic Data Gathering And
                                                                             Retrieval (EDGAR) authentication process and
                                                                             make necessary changes to further streamline or
                                                                             simplify the process.
                                                                             Analyze how other agencies have implemented
                                                                             authentication processes and implement any
                                                                             appropriate procedures.
                                                                             *Determine further coordination with North
                                                                             American Securities Administrators Association
                                                                             staff and contact state regulatory staff when
                                                                             discussing and drafting proposed Regulation D
                                                                             rule changes.
                                461 - Review of the             03/31/2009   Conduct another survey of staff after the
                                Commission's Restacking                      restacking process has been completed.
                                Project
                                                                             Conduct appropriate analysis and complete and
                                                                             submit an Exhibit 300 to the Office of Management
                                                                             and Budget (OMB).
                                                                             Develop and adopt policies and procedures for
                                                                             investments in space consistent with OMB
                                                                             guidance.
                                464 - Notification to the OIG   01/23/2009   Provide the OIG with three business days notice
                                of Decisions on Disciplinary                 prior to decisions on disciplinary action.
                                Actions and Settlement
                                Agreements Involving
                                Subjects of OIG
                                Investigations
                                                                             Provide the OIG with five business days notice
                                                                             prior to executing settlement agreements.
                                465 - Review of the SEC's       09/25/2009   Ensure that accurate searches are made for
                                Compliance with the                          responsive information and, in the event of a denial
                                Freedom of Information Act                   to disclose information, documented evidence is
                                (FOIA)                                       provided to certify there was a document-by-
                                                                             document review to segregate responsive records.
                                                                             Provide guidelines or written policies and
                                                                             procedures for all FOIA-related staff that
                                                                             specifically address the concerns raised in the OIG
                                                                             review.
                                                                             Ensure that sufficient legal expertise is available to
                                                                             the FOIA/Privacy Act Operations staff to process
                                                                             FOIA requests in compliance with FOIA, and to
                                                                             correctly apply exemptions.




                                                                             98

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/           Issue Date                 Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                                  Collaborate with office and division managers to
                                                                                  review position descriptions of current FOIA/
                                                                                  Privacy Act staff and FOIA liaisons to include
                                                                                  appropriate FOIA task descriptions and
                                                                                  performance standards, and review pay grades to
                                                                                  ensure they reflect actual FOIA responsibilities and
                                                                                  duties.
                                                                                  Ensure that training opportunities are provided to
                                                                                  Commission staff that are appropriate for their
                                                                                  level of FOIA responsibilities.
                                                                                  Collaborate to produce a strategy that addresses
                                                                                  information management obstacles hindering
                                                                                  timely and comprehensive FOIA responses, and
                                                                                  present the strategy to the Commission for action.
                                                                                  Direct the conduct of training needed to fully
                                                                                  implement the productive and suitable use of the
                                                                                  FOIAXpress tracking and document management
                                                                                  system.
                                467 - Program                  09/29/2009         Establish formal guidance for evaluating various
                                Improvements Needed                               types of complaints (e.g., Ponzi schemes) and
                                Within the SEC's Division of                      train appropriate staff on the use of the guidance.
                                Enforcement
                                                                                  Ensure the SEC’s tip and complaint handling
                                                                                  system provides for data capture of relevant
                                                                                  information relating to the vetting process to
                                                                                  document why a complaint was or was not acted
                                                                                  upon and who made that determination.
                                                                                  Require tips and complaints to be reviewed by at
                                                                                  least two individuals experienced in the subject
                                                                                  matter prior to deciding not to take further action.
                                                                                  Establish guidance to require that all complaints
                                                                                  that appear on the surface to be credible and
                                                                                  compelling be probed further by in-depth
                                                                                  interviews with the sources to assess the
                                                                                  complaints' validity and to determine what issues
                                                                                  need to be investigated.
                                                                                  *Provide training to staff to ensure they are aware
                                                                                  of the guidelines contained in Section 3.2.5 of the
                                                                                  Enforcement Manual and Title 17 of the Code of
                                                                                  Federal Regulations, Section 202.10, for obtaining
                                                                                  information from media sources.
                                                                                  Review and test the effectiveness of Enforcement's
                                                                                  policies and procedures annually with regard to its
                                                                                  new tip and complaint handling system, and modify
                                                                                  these policies and procedures when needed to
                                                                                  ensure adherence an adequacy.




                                                                            99

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/          Issue Date              Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                              *Establish procedures to ensure that investigations
                                                                              are assigned to teams where at least one
                                                                              individual on the team has specific and sufficient
                                                                              knowledge of the subject matter, and the team has
                                                                              access to at least one additional individual who
                                                                              also has such expertise or knowledge.
                                                                              Train staff on what resources and information are
                                                                              available from the national specialized units and
                                                                              when and how assistance from these units should
                                                                              be requested.
                                                                              *Require that planning memoranda be prepared
                                                                              during an investigation, the plan includes a section
                                                                              identifying what type of expertise or assistance is
                                                                              needed from others, and the plan be reviewed and
                                                                              approved by senior Enforcement personnel.
                                                                              *Establish policies and procedures or training
                                                                              mechanisms to ensure staff have an
                                                                              understanding of what types of information should
                                                                              be validated during investigations with independent
                                                                              parties.
                                                                              Include in complaint handling guidance proper
                                                                              procedures for ensuring complaints received are
                                                                              properly vetted, even if an investigation is pending
                                                                              closure.
                                                                              *Implement a process to periodically remind staff
                                                                              of their responsibilities regarding impartiality in the
                                                                              performance of official duties and instruct staff
                                                                              where to find additional information on impartiality.
                                                                              Establish or utilize an existing working group to
                                                                              analyze the OIG survey information regarding staff
                                                                              concerns over communication of program priorities
                                                                              and recommend improvements to the Enforcement
                                                                              Director.
                                                                              Establish or utilize an existing working group to
                                                                              analyze the OIG survey information regarding staff
                                                                              concerns over case handling procedures within
                                                                              Enforcement and recommend improvements to the
                                                                              Enforcement Director.
                                                                              Establish or utilize an existing working group to
                                                                              analyze the OIG survey information regarding staff
                                                                              concerns over working relationships within
                                                                              Enforcement and recommend improvements to the
                                                                              Enforcement Director.
                                468 - Review and Analysis     09/29/2009      Provide all examiners access to relevant industry
                                of the Office of Compliance                   publications (i.e., MAR/Hedge-type publications)
                                Inspections and Examina-                      and third-party database subscriptions sufficient to
                                tions (OCIE) Examinations                     develop examination leads and stay current with
                                of Bernard L. Madoff                          industry trends.
                                Investment Securities LLC




                                                                           100

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/        Issue Date              Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                            Establish a protocol for searching and screening
                                                                            news articles and information from relevant
                                                                            industry sources that may indicate securities law
                                                                            violations at broker-dealers and investment
                                                                            advisers.
                                                                            Establish a protocol that explains how to identify
                                                                            red flags and potential violations of securities law
                                                                            based on an evaluation of information found in
                                                                            news reports and relevant industry sources.
                                                                            Review and test annually the effectiveness of
                                                                            OCIE policies and procedures with regard to its tip
                                                                            and complaint collection system, and modify these
                                                                            policies and procedures when needed.
                                                                            Ensure that tips and complaints reviewed by OCIE
                                                                            that appear on the surface to be credible and
                                                                            compelling are probed further by in-depth
                                                                            interviews with the sources to assess their validity
                                                                            and to determine if there are other issues that
                                                                            need to be investigated.
                                                                            Ensure that all OCIE-related tips and/or complaints
                                                                            that are not vetted within 30 days of receipt are
                                                                            brought to the attention of the OCIE Director with
                                                                            an explanation for the delay.
                                                                            Preserve all potentially relevant information
                                                                            received from a tip or complaint source as a
                                                                            complete unit and augment with relevant
                                                                            information that may be provided in subsequent
                                                                            submissions.
                                                                            Augment OCIE's policies and procedures related
                                                                            to the use of scope memoranda to better reflect
                                                                            particular consideration given to information
                                                                            collected as the result of tips and complaints that
                                                                            lead to cause examinations.
                                                                            After examination scoping provisions have been
                                                                            approved, along with all other elements of the
                                                                            planning memorandum, subject the planning
                                                                            memorandum to concurring review by an
                                                                            unaffiliated OCIE associate or assistant director.
                                                                            After the planning memorandum is first drafted,
                                                                            circulate it to all examination team members, and
                                                                            have all team members meet, in person or
                                                                            electronically, to discuss the examination approach
                                                                            and methodology.
                                                                            Require the examination team leader to ensure
                                                                            that all steps of the examination methodology, as
                                                                            stated in the planning memorandum, are
                                                                            completed, and either the team leader or the
                                                                            appropriate team member signs off on each step
                                                                            as it is completed.




                                                                         101

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/        Issue Date              Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                            Document substantive interviews conducted by
                                                                            OCIE of registrants and third parties during OCIE’s
                                                                            pre-examination activities and during the course of
                                                                            an active examination with notes circulated to all
                                                                            team members.
                                                                            Log all examinations into an examination tracking
                                                                            system, and require the team leader to verify that
                                                                            the appropriate entry is made into the tracking
                                                                            system with a notation in the planning
                                                                            memorandum.
                                                                            Review and test annually the effectiveness of
                                                                            OCIE's policies and procedures with regard to
                                                                            conducting, documenting and concluding its
                                                                            examinations and modify the policies and
                                                                            procedures when needed.
                                                                            Ensure the focus of an examination drives the
                                                                            selection of the examination team and that team
                                                                            members are selected based upon their expertise
                                                                            related to such focus.
                                                                            Ensure that personnel with the appropriate skills
                                                                            and expertise are assigned to cause examinations.
                                                                            Assign a Branch Chief, or a similarly designated
                                                                            lead manager, on every substantive project,
                                                                            including all cause examinations with unique or
                                                                            discreet needs.
                                                                            Develop a formal plan with specific goals
                                                                            associated with achieving and maintaining
                                                                            professional designations and/or licenses by
                                                                            industry certification programs that are relevant to
                                                                            the examination activities conducted by OCIE.
                                                                            Develop and implement interactive exercises to be
                                                                            administered by OCIE training staff or an
                                                                            independent third party and reviewed prior to hiring
                                                                            new OCIE employees in order to evaluate the
                                                                            relevant skills necessary to perform examinations.
                                                                            Subject to the approval of the examination team
                                                                            leader, contact clients of a broker-dealer or
                                                                            investment adviser when necessary to confirm
                                                                            statements made by broker-dealer or investment
                                                                            adviser personnel.
                                                                            Consult with the team leader, in the course of an
                                                                            examination, if an examiner becomes aware of a
                                                                            potential securities law violation at another firm
                                                                            and make a referral to the appropriate personnel or
                                                                            agency.
                                                                            Give OCIE staff direct access to certain databases
                                                                            maintained by self-regulatory organizations or
                                                                            other similar agencies to allow examiners to
                                                                            access necessary data for verification or analysis
                                                                            of registrant data.


                                                                         102

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/           Issue Date              Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                               Ensure that when an examination team is pulled
                                                                               off the examination for a project of higher priority,
                                                                               upon completion of that project, the examination
                                                                               team returns to their examination and brings the
                                                                               examination to a conclusion.
                                                                               Assign one person responsibility for tracking the
                                                                               progress of all cause examinations and ensure the
                                                                               tracking includes the number of cause
                                                                               examinations, the number ongoing and the number
                                                                               closed for each month.
                                                                               Indicate clearly in policies and procedures that, at
                                                                               the conclusion of each examination, the
                                                                               examination team must prepare a closing report
                                                                               that begins with the scope discussion from the
                                                                               planning memorandum, as modified by new issues
                                                                               arising during the course of the examination.
                                                                               Ensure the examination staff do not leave open
                                                                               any substantive issue without providing a sufficient
                                                                               basis for such a determination or a plan to pursue
                                                                               that issue at an appropriate later time.
                                                                               Report information deemed credible when an
                                                                               auditor's independence is questioned in a tip or
                                                                               complaint to the appropriate state board of
                                                                               accountancy and the PCAOB, if applicable, and
                                                                               consider a referral to the SEC's Enforcement
                                                                               Division or other government agency.
                                471 - Audit of the Office of   09/25/2009      Develop record-keeping standard operating
                                Acquisitions' Procurement                      procedures to track procurement and contracting
                                and Contract Management                        (acquisition) activities.
                                Functions
                                                                               Develop a periodic internal review process to
                                                                               ensure the new record-keeping standards are
                                                                               followed.
                                                                               Determine the universe of active and open
                                                                               contracts and the corresponding value of the
                                                                               contracts and reconcile this information with the
                                                                               Office of Financial Management's active contract
                                                                               list.
                                                                               Develop an internal process to ensure
                                                                               procurement data is accurately and fully reported
                                                                               in the Federal Procurement Data System for both
                                                                               SEC headquarters and regional offices.
                                                                               Develop an acquisition training plan to ensure
                                                                               compliance with Office of Federal Procurement
                                                                               Policy training requirements.
                                                                               Provide regional offices with oversight, including
                                                                               the proper use of Contracting Officer Technical
                                                                               Representatives, Inspection and Acceptance
                                                                               Officials, Point-of-Contact personnel and other
                                                                               personnel who handle procurement and
                                                                               contracting activities.

                                                                            103

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/         Issue Date              Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                             Revise and finalize data migration plan and include
                                                                             key controls or steps to ensure accuracy of
                                                                             migrated data.
                                                                             Re-educate the acquisition workforce on the
                                                                             Federal Acquisition Regulation requirements that
                                                                             are related to time-and-materials and labor-hour
                                                                             contracts.
                                                                             Update SEC Regulation 10-14, Procurement
                                                                             Contract Administration, regarding contract
                                                                             closeout and ensure that it properly aligns with the
                                                                             Federal Acquisition Regulation.
                                                                             Develop an internal review process and checklist
                                                                             to further ensure compliance with the Federal
                                                                             Acquisition Regulation contract closeout
                                                                             procedures.
                                ROI-431 - Re-Investigation   09/30/2008      Clarify Commission's policies on the disclosure of
                                of Claims of Preferential                    non-public information in the context of
                                Treatment and Improper                       Enforcement investigations and conduct training of
                                Termination                                  Enforcement employees.
                                                                             Reassess and clarify to staff Enforcement's
                                                                             practice that allows outside counsel the opportunity
                                                                             to communicate with those above the line attorney
                                                                             level on behalf of their clients.
                                ROI-477 - Allegations of     03/17/2009      Review Commission's policies and procedures
                                Perjury and Obstruction of                   concerning employee performance files to ensure
                                Justice                                      they are properly protected and produced upon
                                                                             request.
                                ROI-481 - Employees'         03/03/2009      *Give one office primary responsibility for ensuring
                                Securities Transactions                      compliance with Rule 5.
                                                                             *Use an integrated computerized system for every
                                                                             facet of Rule 5 compliance.
                                                                             Give serious consideration to obtaining duplicate
                                                                             copies of brokerage record confirmations for each
                                                                             securities transaction for every SEC employee.
                                                                             *Amend SEC Form 681 to require employees to
                                                                             certify in writing that they do not have non-public
                                                                             information related to each securities transaction
                                                                             they conduct and report.
                                                                             *Review and check SEC Form 681s against the
                                                                             system clearances to ensure employees obtained
                                                                             clearance and the trades were timely made
                                                                             thereafter.
                                                                             Have employee's direct supervisor review a list of
                                                                             all pending cases in the group over the last year to
                                                                             compare against a list of all securities reported on
                                                                             Office of Government Ethics (OGE) Form 450 for
                                                                             each employee.




                                                                          104

SEMIANNUAL REPORT TO CONGRESS      Audit/Inspection/             Issue Date                Summary of Recommendation
                                     Evaluation or
                                Investigation # and Title
                                                                                   Have the office primarily responsible for Rule 5
                                                                                   compliance conduct regular thorough spot checks
                                                                                   for Rule 5 compliance for randomly selected
                                                                                   employees each quarter.
                                                                                   Conduct separate comprehensive and more
                                                                                   frequent training on Rule 5, its purpose and its
                                                                                   requirements, for all SEC employees, supervisors
                                                                                   and contractors.
                                                                                   *Compare OGE Form 450s against each
                                                                                   employee's SEC Form 681s to ensure accuracy.
                                                                                   *Consider expanding staff who are required to file
                                                                                   OGE Form 450s beyond the higher-paying grades
                                                                                   currently required to file.
                                                                                   *Establish a clear written policy on the
                                                                                   confidentiality of Enforcement investigations and
                                                                                   whether and when staff can discuss their
                                                                                   confidential investigations or matters.
                                ROI-502 - Allegations of          09/30/2009       Clarify policies on disclosure of non-public
                                Improper Disclosures and                           information, including what constitutes non-public
                                Assurances Given                                   information related to Enforcement investigations
                                                                                   and parameters for discretionary release.
                                                                                   Clarify Commission's policies regarding under
                                                                                   what circumstances the staff is obligated to seek
                                                                                   formal approval before making decisions that may
                                                                                   bind the Commission.


                                *	   This recommendation had not been closed by the end of the semiannual reporting period, al-
                                     though management had submitted documentation of completed corrective action and, after the
                                     end of the reporting period, the OIG determined that the recommendation should be closed.

                                     This table also includes an additional 46 recommendations for which management determined it
                                     had completed corrective action by the end of the reporting period. Subsequent to the end of
                                     the reporting period, the OIG determined that seven of these recommendations should not be
                                     closed, and the remaining 39 recommendations are under OIG review.




                                                                               105

106
SEMIANNUAL REPORT TO CONGRESS
   Table 4
                                 Summary of Investigative Activity


                                                                  CASES                     NUMBER


                                       Cases Open as of 9/30/09                               17
                                       Cases Opened during 10/01/09 - 3/31/10                 9
                                       Cases Closed during 10/01/09 - 3/31/10                 13
                                       Total Open Cases as of 3/31/10                         13
                                       Referrals to Department of Justice for Prosecution     1
                                       Prosecutions                                           0
                                       Convictions                                            0
                                       Referrals to Agency for Disciplinary Action            6



                                                       PRELIMINARY INQUIRIES                NUMBER


                                       Inquiries Open as of 9/30/09                           78
                                       Inquiries Opened during 10/01/09 - 3/31/10             28
                                       Inquiries Closed during 10/01/09 - 3/31/10             35
                                       Total Open Inquiries as of 3/31/10                     71
                                       Referrals to Agency for Disciplinary Action            3



                                                        DISCIPLINARY ACTIONS                NUMBER


                                       Removals (Including Resignations)                      1
                                       Suspensions                                            3
                                       Reprimands                                             2
                                       Warnings/Other Actions                                 3




                                                                      107

108
SEMIANNUAL REPORT TO CONGRESS
   Table 5
                                 Summary of Complaint Activity

                                                                      DESCRIPTION              NUMBER


                                  Complaints Pending Disposition at Beginning of Period          38

                                  Hotline Complaints Received                                   141

                                  Other Complaints Received                                      63

                                  Total Complaints Received                                     204

                                  Complaints on which a Decision was Made                       235

                                  Complaints Awaiting Disposition at End of Period               7



                                  Disposition of Complaints During the Period

                                  Complaints Resulting in Investigations                         3

                                  Complaints Resulting in Inquiries                              28

                                  Complaints Referred to OIG Office of Audits                    6

                                  Complaints Referred to Other Agency Components                123

                                  Complaints Referred to Other Agencies                          10

                                  Complaints Included in Ongoing Investigations or Inquiries     3

                                  Response Sent/Additional Information Requested                 50

                                  No Action Needed                                               14




                                                                            109

110
SEMIANNUAL REPORT TO CONGRESS
   Table 6
                                 References to Reporting Requirements
                                 of the Inspector General Act

                                  The Inspector General Act of 1978, as amended, specifies reporting requirements for
                                  semiannual reports to Congress. The requirements are listed below and indexed to the
                                  applicable pages.



                                                       INSPECTOR GENERAL ACT REPORTING REQUIREMENT                       PAGES
                                   Section 4(a)(2)   Review of Legislation and Regulations                               85-86

                                   Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                      13-15,
                                                                                                                         19-40,
                                                                                                                         44-80
                                   Section 5(a)(2)   Recommendations for Corrective Action                               13-15,
                                                                                                                         19-40,
                                                                                                                         44-80
                                   Section 5(a)(3)   Prior Recommendations Not Yet Implemented                           93-105

                                   Section 5(a)(4)   Matters Referred to Prosecutive Authorities                         44-80
                                                                                                                          107
                                   Section 5(a)(5)   Summary of Instances Where Information Was Unreasonably              87
                                                     Refused or Not Provided
                                   Section 5(a)(6)   List of OIG Audit and Evaluation Reports Issued During the Period    89

                                   Section 5(a)(7)   Summary of Significant Reports Issued During the Period             19-40,
                                                                                                                         44-80
                                   Section 5(a)(8)   Statistical Table on Management Decisions with Respect to            91
                                                     Questioned Costs
                                   Section 5(a)(9)   Statistical Table on Management Decisions on Recommendations         91
                                                     That Funds Be Put To Better Use
                                   Section 5(a)(10) Summary of Each Audit, Inspection or Evaluation Report Over Six       87
                                                    Months Old for Which No Management Decision Has Been Made
                                   Section 5(a)(11) Significant Revised Management Decisions                              87

                                   Section 5(a)(12) Significant Management Decisions with Which the Inspector             87
                                                    General Disagreed




                                                                            111

112
   Help ensure the integrity of SEC operations by reporting to the OIG suspected fraud,
waste or abuse in SEC programs or operations, and SEC staff or contractor misconduct by
contacting the OIG.

   Call:
   Hotline	 	        (877) 442-0854

   Main Ofﬁce	       (202) 551-6061


   Web-Based Hotline Complaint Form:
   www.sec-oig.gov/ooi/hotline.html

   Fax:	      	      (202) 772-9265

   Write:
   Ofﬁce of Inspector General
   U.S. Securities and Exchange Commission

   100 F Street, N.E.

   Washington, D.C. 20549


   Email:
   oig@sec.gov


                    Information received is held in conﬁdence upon request.

       While the OIG encourages complainants to provide information on how they may be

        contacted for additional information, anonymous complaints are also accepted.





                                         113
114
U.S. Securities
and Exchange
 Commission




        Additional copies of this report may be obtained by contacting the
                  Office of Inspector General at (202) 551-6061

        The report is also available on the Inspector General’s website at
                             hhtp:/www.sec-oig.gov.
